<html>
<title> - LEGISLATIVE HEARING ON H.R. 200, TO AMEND THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT TO PROVIDE FLEXIBILITY FOR FISHERY MANAGERS AND STABILITY FOR FISHERMEN, AND FOR OTHER PURPOSES, ``STRENGTHENING FISHING COMMUNITIES AND INCREASING FLEXIBILITY IN FISHERIES MANAGEMENT ACT''; H.R. 2023, TO MODERNIZE RECREATIONAL FISHERIES MANAGEMENT, ``MODERNIZING RECREATIONAL FISHERIES MANAGEMENT ACT OF 2017''; H.R. 3588, TO AMEND THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT TO PROVIDE FOR MANAGEMENT OF RED SNAPPER IN THE GULF OF MEXICO, AND FOR OTHER PURPOSES, ``RED SNAPPER ACT''; AND DISCUSSION DRAFT OF H.R., TO AMEND AND REAUTHORIZE THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT, AND FOR OTHER PURPOSES, ``STRENGTHENING FISHING COMMUNITIES THROUGH IMPROVING SCIENCE, INCREASING FLEXIBILITY, AND MODERNIZING FISHERIES MANAGEMENT ACT''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


     H.R. 200, ``STRENGTHENING FISHING COMMUNITIES AND INCREASING 
 FLEXIBILITY IN FISHERIES MANAGEMENT ACT''; H.R. 2023, ``MODERNIZING 
  RECREATIONAL FISHERIES MANAGEMENT ACT OF 2017''; H.R. 3588, ``RED 
  SNAPPER ACT''; AND DISCUSSION DRAFT OF H.R. ____, ``STRENGTHENING 
FISHING COMMUNITIES THROUGH IMPROVING SCIENCE, INCREASING FLEXIBILITY, 
              AND MODERNIZING FISHERIES MANAGEMENT ACT''

=======================================================================

                           LEGISLATIVE HEARING

                               BEFORE THE

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Tuesday, September 26, 2017

                               __________

                           Serial No. 115-22

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-026 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ff8eff0dffceaecebf7faf3efb1fcf0f2b1">[email&#160;protected]</a> 
                     
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       DOUG LAMBORN, CO, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Robert J. Wittman, VA                Grace F. Napolitano, CA
Tom McClintock, CA                   Jim Costa, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Madeleine Z. Bordallo, GU
Garret Graves, LA                    Gregorio Kilili Camacho Sablan, 
Jody B. Hice, GA                         CNMI
Daniel Webster, FL                   Jimmy Gomez, CA
  Vice Chairman                      Raul M. Grijalva, AZ, ex officio
Mike Johnson, LA
Greg Gianforte, MT
Rob Bishop, UT, ex officio

                              ----------                                
                               
                               CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, September 26, 2017......................     1

Statement of Members:
    Graves, Hon. Garret, a Representative in Congress from the 
      State of Louisiana, prepared statement of..................    76
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     6
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     3
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     7

Statement of Witnesses:
    Blankenship, Chris, Commissioner, Alabama Department of 
      Conservation and Natural Resources, Montgomery, Alabama....    14
        Prepared statement of....................................    15
        Questions submitted for the record.......................    20
    Boggs, Susan, Co-Owner, Reel Surprise Charter Fishing, Orange 
      Beach, Alabama.............................................    34
        Prepared statement of....................................    35
        Questions submitted for the record.......................    38
    Macaluso, Chris, Director, Center for Marine Fisheries, 
      Theodore Roosevelt Conservation Partnership, Baton Rouge, 
      Louisiana..................................................    47
        Prepared statement of....................................    49
        Questions submitted for the record.......................    54
    Martens, Ben, Executive Director, Maine Coast Fisherman's 
      Association, Brunswick, Maine..............................    22
        Prepared statement of....................................    23
    Merrifield, Mike, Southeastern Fisheries Association, 
      Tallahassee, Florida.......................................    38
        Prepared statement of....................................    40
    Mitchell, Hon. Jonathan, Mayor, City of New Bedford, 
      Massachusetts..............................................     9
        Prepared statement of....................................    11
    Oliver, Chris, Director, NOAA Fisheries, Washington, DC......    27
        Prepared statement of....................................    29

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    77
                                     


 
LEGISLATIVE HEARING ON H.R. 200, TO AMEND THE MAGNUSON-STEVENS FISHERY 
  CONSERVATION AND MANAGEMENT ACT TO PROVIDE FLEXIBILITY FOR FISHERY 
     MANAGERS AND STABILITY FOR FISHERMEN, AND FOR OTHER PURPOSES, 
   ``STRENGTHENING FISHING COMMUNITIES AND INCREASING FLEXIBILITY IN 
   FISHERIES MANAGEMENT ACT''; H.R. 2023, TO MODERNIZE RECREATIONAL 
 FISHERIES MANAGEMENT, ``MODERNIZING RECREATIONAL FISHERIES MANAGEMENT 
    ACT OF 2017''; H.R. 3588, TO AMEND THE MAGNUSON-STEVENS FISHERY 
   CONSERVATION AND MANAGEMENT ACT TO PROVIDE FOR MANAGEMENT OF RED 
 SNAPPER IN THE GULF OF MEXICO, AND FOR OTHER PURPOSES, ``RED SNAPPER 
ACT''; AND DISCUSSION DRAFT OF H.R. ____, TO AMEND AND REAUTHORIZE THE 
MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT, AND FOR OTHER 
    PURPOSES, ``STRENGTHENING FISHING COMMUNITIES THROUGH IMPROVING 
 SCIENCE, INCREASING FLEXIBILITY, AND MODERNIZING FISHERIES MANAGEMENT 
                                 ACT''

                              ----------                              


                      Tuesday, September 26, 2017

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 1334, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, Wittman, McClintock, 
Gosar, Graves, Hice, Webster, Johnson, Bishop; Huffman, Costa, 
Beyer, Barragan, Sablan, Gomez, and Grijalva.
    Also present: Representatives Young and Byrne.
    Mr. Lamborn. The Subcommittee on Water, Power, and Oceans 
will come to order. The Water, Power, and Oceans Subcommittee 
meets today to hear testimony on H.R. 200, sponsored by Mr. Don 
Young of Alaska; H.R. 2023 and H.R. 3588, both sponsored by Mr. 
Garret Graves of Louisiana; and a discussion draft authored by 
Ranking Member Jared Huffman of California--who is on his way 
and will be here momentarily--entitled ``The Strengthening 
Fishing Communities Through Improving Science, Increasing 
Flexibility, and Modernizing Fisheries Management Act.''
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman and Ranking Minority 
Member and the Vice Chair. Therefore, I ask unanimous consent 
that all other Members' opening statements be made part of the 
hearing record if they are submitted to the Subcommittee Clerk 
by 5:00 p.m. today.
    Without objection, so ordered.
    We will begin with opening statements, starting with 
myself, for 5 minutes.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Today, the Water, Power and Oceans 
Subcommittee will consider a series of bills aimed at improving 
Federal fisheries management for commercial, recreational, and 
charter-for-hire fishermen alike. Many of the proposals 
discussed here today are products of continuous back-and-forth 
between Congress, stakeholders, and the current and recent 
administrations.
    It is my goal that we can work within the proposals 
discussed here today to produce a product that reauthorizes and 
makes critical reforms to the Magnuson-Stevens Fishery 
Conservation and Management Act.
    I would first like to comment on H.R. 200, the 
Strengthening Fishing Communities and Increasing Flexibility in 
Fisheries Management Act, introduced by our colleague and 
Chairman Emeritus of the House Committee on Natural Resources, 
Congressman Don Young of Alaska. H.R. 200 is composed of 
provisions aimed at getting better fisheries data to Federal 
managers so that they can make informed decisions regarding our 
Nation's fisheries.
    This bill affords the necessary tools to regional fishery 
managers to tailor fishery management plans to the unique 
characteristics of their region, promotes transparency in 
fishery science and management, and improves the science and 
data that dictate the management plans of our Nation's 
fisheries. This bill is nearly identical to Mr. Young's bill 
from last Congress that passed the House with bipartisan 
support in June of 2015.
    We will also hear testimony on a similar discussion draft 
authored by our colleague, Jared Huffman.
    Additionally, we will consider here today H.R. 2023, the 
Modernizing Recreational Fisheries Management Act of 2017, 
introduced by our colleague, Congressman Garret Graves of 
Louisiana. While specifically aimed at recreational fisheries 
management, H.R. 2023 is largely based on the same principles 
as H.R. 200.
    Congressman Graves' bill aims to increase access for 
recreational anglers in Federal waters, improves Federal data 
collection by encouraging the inclusion of state-gathered data, 
and allows Federal fisheries managers to use alternative 
measures to implement recreational fishing regulations. This 
bill allows managers to move away from a one-size-fits-all 
approach to Federal fisheries management and toward the use of 
different approaches that may be appropriate for different 
types of fishing.
    Finally, we will consider another bill by Congressman 
Graves that looks to remedy a problem specific to the Gulf of 
Mexico, but one that certainly has gained national notoriety. 
H.R. 3588, the Red Snapper Act, takes a creative approach to a 
long-standing issue of recreational access to the red snapper 
fishery in the Gulf of Mexico. Under current law, the five Gulf 
states' management of red snapper extends out to 9 miles from 
shore. This proposal would further extend the states' 
management of this important fishery to 25 miles from shore, or 
to a depth of 25 fathoms, whichever is further.
    As many of my colleagues here know, last Congress this 
Committee considered and passed a red snapper proposal that 
would have granted the Gulf states exclusive management of the 
red snapper fishery in the Gulf of Mexico. While we were not 
able to find consensus on that proposal, I want to thank Mr. 
Graves and the co-sponsors of this bill for bringing a fresh 
approach to the table and advancing the conversation toward a 
permanent fix for red snapper in the Gulf of Mexico. I look 
forward to hearing from Mr. Graves on the details of this 
proposal.
    Many of you here today probably consider this to be a 
fishery hearing, but I assure you it is much more than that. 
Whether we are talking about a commercial, recreational, or 
charter boat operation, the working waterfront that provides 
shore-side support, a boat manufacturer, or your local mom-and-
pop bait and tackle shop, today's hearing is about supporting 
American small businesses.
    It is my hope that we can use these bills in front of us 
today to produce a strong, bipartisan Magnuson-Stevens 
reauthorization that supports jobs and our fishermen by 
strengthening the science, data, and process used in Federal 
fisheries management.

    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Today, the Water, Power and Oceans Subcommittee will consider a 
series of bills aimed at improving Federal fisheries management for 
commercial, recreational, and charter-for-hire fishermen alike. Many of 
the proposals discussed here today are products of continuous back and 
forth between Congress, stakeholders, and the current and recent 
administrations. It is my goal that we can work within the proposals 
discussed here today to produce a product that reauthorizes and makes 
critical reforms to the Magnuson-Stevens Fishery Conservation and 
Management Act.
    I would first like to comment on H.R. 200, the Strengthening 
Fishing Communities and Increasing Flexibility in Fisheries Management 
Act, introduced by our colleague and Chairman Emeritus of the House 
Committee on Natural Resources, Congressman Don Young of Alaska. H.R. 
200 is composed of provisions aimed at getting better fisheries data to 
Federal managers so that they can make informed decisions regarding our 
Nation's fisheries. This bill affords the necessary tools to regional 
fishery managers to tailor fishery management plans to the unique 
characteristics of their region, promotes transparency in fishery 
science and management, and improves the science and data that dictate 
the management plans of our Nation's fisheries.
    This bill is nearly identical to Mr. Young's bill from last 
Congress that passed the House with bipartisan support in June of 2015. 
We will also hear testimony on a similar discussion draft authored by 
our colleague, Jared Huffman.
    Additionally, we will consider here today H.R. 2023, the 
Modernizing Recreational Fisheries Management Act of 2017, introduced 
by our colleague Congressman Garret Graves of Louisiana. While 
specifically aimed at recreational fisheries management, H.R. 2023 is 
largely based on the same principles as H.R. 200. Congressman Graves' 
bill aims to increase access for recreational anglers in Federal 
waters, improves Federal data collection by encouraging the inclusion 
of state-gathered data, and allows Federal fisheries managers to use 
alternative measures to implement recreational fishing regulations. 
This bill allows managers to move away from a ``one-size-fits-all'' 
approach to Federal fisheries management and toward the use of 
different approaches that may be more appropriate for different types 
of fishing.
    Finally, we will consider another bill by Congressman Graves that 
looks to remedy a problem specific to the Gulf of Mexico, but one that 
certainly has gained national notoriety. H.R. 3588, the RED SNAPPER 
Act, takes a creative approach to a long-standing issue of recreational 
access to the red snapper fishery in the Gulf of Mexico. Under current 
law, the five Gulf states management of red snapper extends out to 9 
miles from shore. This proposal would further extend the states' 
management of this important fishery to 25 miles from shore, or to a 
depth of 25 fathoms, whichever is further.
    As many of my colleagues here know, last Congress this Committee 
considered and passed a red snapper proposal that would have granted 
the Gulf states exclusive management of the red snapper fishery in the 
Gulf of Mexico. While we were not able to find consensus on that 
proposal, I want to thank Mr. Graves and the co-sponsors of this bill 
for bringing a fresh approach to the table and advancing the 
conversation toward a permanent fix for red snapper in the Gulf of 
Mexico. I look forward to hearing from Mr. Graves on the details of his 
proposal.
    Many of you here today probably consider this to be a fishery 
hearing, but I assure you it is much more than that. Whether we are 
talking about a commercial, recreational, or charter boat operation, 
the working waterfront that provides shore-side support, a boat 
manufacturer, or your local mom-and-pop bait and tackle shop, today's 
hearing is about supporting American small businesses.
    It is my hope that we can use these bills in front of us today to 
produce a strong, bipartisan Magnuson-Stevens reauthorization that 
supports jobs and our fishermen by strengthening the science, data, and 
process used in Federal fisheries management.

                                 ______
                                 

    Mr. Lamborn. I now recognize the Ranking Member, Mr. 
Huffman, for 5 minutes for his statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Good morning, Mr. Chairman. I apologize for my 
late arrival. Our caucus meeting was running a little bit late, 
and discussing a subject that I think I would be remiss if I 
didn't bring it up right away, and that is the terrible tragedy 
and the destruction that is being visited upon our country by 
Hurricanes Harvey, Irma, and Maria over the past month. I know 
Federal agencies are already responding to these disasters, and 
I am confident that Congress will provide additional resources 
to aid in the recovery. But it is important that we remember 
that our fellow citizens in Puerto Rico and the U.S. Virgin 
Islands need our help. And it is our duty to make them whole.
    Today, we are having a hearing on multiple fisheries bills, 
and I want to thank you, Mr. Chairman, for your willingness to 
include the discussion draft of my bill in this hearing. I hope 
that is a sign of more bipartisan cooperation to come.
    Congress has not reauthorized the Magnuson Act since 2006, 
and that bill, like all major fisheries legislation dating back 
to the original Act of 1976, passed Congress with overwhelming 
bipartisan support.
    Unfortunately, the most recent attempts at reauthorization, 
which started in 2013, have been undermined by a partisan 
process. Instead of making meaningful improvements to our most 
important fisheries statute, this process has focused on 
weakening fundamental environmental protections in place of 
making meaningful improvements to our important fisheries 
management framework.
    This partisan process does a disservice to hardworking 
fishermen across the country, including those in my district. 
It has also needlessly delayed important legislative updates to 
build on the law's strong foundation of flexibility and 
accountability in fisheries management.
    So, it is time for Congress to stop using Magnuson 
reauthorization to push ideological agendas and, instead, focus 
on a pragmatic approach that optimizes our best-in-the-world 
fisheries conservation and management system. This is the only 
approach that will truly benefit commercial fishermen, 
recreational anglers, and the coastal communities and economies 
that depend on them.
    To do this, Republicans and Democrats have to work together 
to advance legislation that includes mutually agreed-upon 
priorities and puts aside the poison pill provisions that have 
stalled progress in recent years.
    I have no doubt that this Committee will continue to debate 
the merits of the Endangered Species Act, the Antiquities Act, 
the Marine Mammal Protection Act, the National Marine 
Sanctuaries Act, NEPA, et cetera. But if we are going to be 
serious about reauthorizing Magnuson, we have to resist the 
temptation to have these philosophical proxy wars in the 
context of fishery management.
    Instead, we should focus on issues that are universally 
important to fishing communities, like modernizing the 
management of recreational fisheries; protecting the marine 
ecosystems, including habitat and forage fish that support 
healthy fish stocks; and applying industry know-how, non-
governmental expertise, and 21st century technology to 
fisheries monitoring and data collection.
    These elements are all present in each of the bills before 
the Committee. The key to finding true bipartisan agreement, as 
always, will be putting in the hard work to separate the wheat 
from the chaff. The draft bill that I have put forward today 
represents Committee Democrats' attempts to do that.
    While we feel strongly about many of the provisions that 
are and are not included in this draft, I do not believe it is 
a finished product. So, I want to be clear that I welcome 
additional feedback from stakeholders and my colleagues across 
the aisle. I am certain that our draft does not do everything 
that any one group wants, but it pulls together concepts from 
both sides of the aisle that have broad support across a range 
of fisheries stakeholders. It also ensures that we do not 
backslide on the progress we have made over the last 20 years 
by allowing overfishing, ignoring science in setting catch 
limits, or returning to the perpetual cycle of failed attempts 
to rebuild overfished stocks.
    Additionally, our draft offers increased flexibility in 
fisheries management without undermining core environmental 
protections or core management provisions in the MSA. Instead 
of dismantling the progress that we have made in rebuilding 
overfished stocks, conserving fish habitat and forage, and 
reducing fisheries bycatch, this draft builds upon the progress 
made in each of these areas.
    Most importantly, instead of moving us back to the shakier 
and divided ground of the past, this draft bill builds on the 
solid and successful foundation of recent amendments to the 
MSA. That is because this Act is working. The United States is 
a global leader in fisheries management because of the progress 
this law has helped us make in rebuilding stocks, reducing 
overfishing, and supporting a $200 billion per year industry.
    So, let's work together to improve it, not weaken the 
components that have made it such a success. I look forward to 
this hearing, thank the witnesses for being part of the 
conversation, and yield the balance of my time.

    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    Thank you. Mr. Chairman.
    Before we begin, I would like to take a moment to acknowledge the 
terrible destruction visited upon our country by Hurricanes Harvey, 
Irma, and Maria over the past month. Federal agencies are already 
responding to these disasters and I am confident that Congress will 
provide additional resources to aid in recovery. But I would be remiss 
if I did not point out the especially challenging circumstances faced 
by our fellow citizens in Puerto Rico and the U.S. Virgin Islands, and 
remind members of the Committee of our duty to make them whole, as 
well.
    Today, we are having a hearing on multiple fisheries bills this 
Congress, and I sincerely appreciate the willingness of Chairman 
Lamborn and his staff to include my discussion draft on today's hearing 
agenda. I hope this is a sign of more bipartisan cooperation to come.
    Congress has not reauthorized the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA) since 2006. That bill, like all 
major fisheries legislation dating back to the original fishery 
Conservation and Management Act of 1976, passed Congress with 
overwhelming bipartisan support.
    Unfortunately, the most recent attempts at reauthorization--which 
started in 2013--have been undermined by a partisan process. Instead of 
making meaningful improvements to our most important fisheries statute, 
this process has focused on weakening fundamental environmental laws in 
place of making meaningful improvements to our most important fisheries 
statute.
    This partisan process has done a disservice to hardworking 
fishermen across the country, including those in my district. It has 
also needlessly delayed important legislative updates to build on the 
law's strong foundation of flexibility and accountability in fisheries 
management.
    It is time for Congress to stop using MSA reauthorization to push 
ideological agendas and instead focus on a pragmatic approach that 
optimizes our best-in-the-world fisheries conservation and management 
system. This is the only approach that will truly benefit commercial 
fishermen, recreational anglers, and the coastal communities and 
economies that depend on them.
    To do this, Republicans and Democrats must work together to advance 
legislation that includes mutually agreed upon priorities and puts 
aside the poison pill provisions that have stalled progress.
    I have no doubt that this Committee will continue to debate the 
merits of the ESA, the Antiquities Act, the Marine Mammal Protection 
Act, the National Marine Sanctuaries Act, and NEPA. But if we are going 
to be serious about reauthorizing the MSA, we must resist the 
temptation to have these philosophical proxy fights in the context of 
fisheries management.
    Instead, we should focus on issues that are universally important 
to fishing communities: issues like modernizing the management of 
recreational fisheries, protecting the marine ecosystems--including 
habitat and forage fish--that support healthy fish stocks, and applying 
industry know-how, non-governmental expertise, and 21st century 
technology to fisheries monitoring and data collection.
    These elements are present in each of the bills before the 
Committee. The key to finding true bipartisan agreement, as always, 
will be putting in the hard work to separate the wheat from the chaff. 
The draft legislation I have put forward today represents Committee 
Democrats' attempt to do that. While we feel strongly about many of the 
provisions that are--and are not--included in this draft, I do not 
believe it is a finished product and I welcome additional feedback from 
stakeholders.
    I am certain that our draft does not do everything that any one 
groups wants. Rather, it pulls together concepts from both sides of the 
aisle that have broad support across a range of fisheries stakeholders. 
It also ensures that we do not backslide on the progress that has been 
made over the past 20 years by allowing overfishing, ignoring science 
in setting catch limits, or returning to the perpetual cycle of failed 
attempts to rebuild overfished stocks.
    Additionally, our draft offers increased flexibility in fisheries 
management without undermining the core conservation and management 
provisions of the MSA. It takes major steps to improve fisheries data 
collection and analysis so fisheries management can be more timely and 
precise. It also acknowledges--for the first time--the unique nature of 
recreational fishing and promotes data collection and management 
strategies tailored to the recreational sector.
    Instead of dismantling the progress we have made in rebuilding 
overfished stocks, conserving fish habitat and forage, and reducing 
fisheries bycatch, this draft builds upon the progress made in each of 
these areas. It improves the transparency and accountability of the 
Regional Fishery Management Councils on the front lines of managing 
marine fisheries. And it strengthens our diverse fishing communities by 
recognizing the importance of subsistence fishing, streamlining the 
fishery disaster relief process, and re-dedicating funding to promote 
and develop sustainable fisheries.
    Most importantly, though, instead of moving us back to the shakier 
and divided ground of the past, this draft builds on the solid and 
successful foundation of recent amendments to the MSA. That's because 
the Magnuson-Stevens Act is working: the United States is a global 
leader in fisheries management because of the progress this law has 
helped us make in rebuilding stocks, reducing overfishing, and 
supporting a $200 billion industry. Let's work together to improve this 
law, and not weaken the very components of it that have made it 
successful over the last 40 years.
    Mr. Chairman, as an angler myself who represents many commercial 
and recreational fishermen in Northern California, I strongly believe 
that today's hearing should be the beginning of a conversation between 
Republican and Democratic members of the Committee, not the end of one.
    I look forward to working with you, your staff, and other 
interested Members to advance a bipartisan fisheries bill that can not 
only pass this Committee quickly, but receive broad support on the 
Floor so that we can work with the Senate and actually get a 
reauthorization of these important programs signed into law.

                                 ______
                                 

    Mr. Lamborn. OK, thank you. I now recognize Mr. Young for 5 
minutes to testify on his bill.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. Thank you, Mr. Chairman. As the father of this 
legislation, I can remember 40 years ago visiting the city of 
Kodiak, and seeing a city floating in the water. No action from 
the states of California, Washington, or Oregon had any 
interest in the so-called Magnuson-Stevens Act. And Gerry 
Studds and myself took over the program, recognizing we had to 
have a sustained yield of fish.
    I started this bill with Gerry Studds in this House, in 
this Committee, just about 40 years ago, and worked with my 
Senator. And, of course, we passed the first bill, a bipartisan 
bill that worked.
    We did not have the--I call it the interest groups--that 
wanted to set-aside, it was about fishing. And they want to set 
it aside now on other issues. Because our object was to have a 
sustained yield of fishes in our waters for our communities and 
our fishermen without interference of monuments, all the other 
agencies. We are working on and we have done so in the North 
Pacific Fishing Council by providing a sustained yield species 
savings without interference from other interest groups. It is 
about fish, it is about sustained yield.
    I have personally worked with the agencies, Federal 
agencies have some differences of opinion. And my bill, my good 
friend from California says it weakens the Magnuson Act. It 
does not. His attempt, it weakens it according to his 
jurisdiction. He says it weakens the original Magnuson Act. It 
strengthens the Magnuson Act, because it gives some of the 
Councils the flexibility needed for a time without being run 
from Washington, DC, and the agencies.
    I have worked to take and reauthorize this. It passed last 
year, but got stuck in the Senate, as you know. That is no 
fault of the House. It was threatened to be vetoed by President 
Obama, and thank God he is no longer in the fishing field. And 
I am going to work very hard to make sure we pass a bill out of 
this Committee.
    I am always interested--and everybody says we have to be 
bipartisan. This is a two-way street. I have not had any real 
suggestions of why my bill is wrong. Not scientific at all. It 
is mostly on philosophy.
    So, my goal, as the father of this legislation, is to 
reauthorize with the main interest of maintaining the species, 
making sure it retains itself healthily, and retains the 
communities that rely on fisheries.
    I look forward to these hearings. I look forward to working 
on it. And I expect, Mr. Chairman, to pass my legislation with 
or without bipartisan support. This is something that means a 
great deal to me. And you may not think so, because you are 
Johnny-Come-Latelies, but I have been here a long time, and I 
will expect to get the job done right.
    I yield back.
    Mr. Lamborn. Thank you. Now we will introduce our 
witnesses. Our first witness is the Honorable Jonathan 
Mitchell, mayor of the City of New Bedford, Massachusetts; our 
second witness is Mr. Chris Blankenship, Commissioner of the 
Alabama Department of Conservation and Natural Resources from 
Montgomery, Alabama; our third witness is Mr. Ben Martens, 
Executive Director of the Maine Coast Fisherman's Association 
from Brunswick, Maine; our fourth witness is Mr. Chris Oliver, 
Director of the National Marine Fisheries Service, from 
Washington, DC; our fifth witness is Ms. Susan Boggs, Co-Owner 
of the Reel Surprise Charter Fishing, from Orange Beach, 
Alabama; our sixth witness is Mr. Mike Merrifield of the 
Southeastern Fisheries Association, from Tallahassee, Florida; 
and our final witness is Mr. Chris Macaluso, Director of the 
Center for Marine Fisheries with the Theodore Roosevelt 
Conservation Partnership from Baton Rouge, Louisiana.
    Thank you all for being here. Each witness' written 
testimony will appear in full in the hearing record, so I ask 
that witnesses keep their oral statements to 5 minutes, as 
outlined in our invitation letter to you and under Committee 
Rule 4(a).
    I want to explain also how our timing lights work. When you 
are recognized, press the talk button to activate your 
microphone. Once you begin your testimony, the Clerk will start 
the timer and a green light will appear. After 4 minutes, a 
yellow light will appear. At that time, you should begin to 
conclude your statement. At 5 minutes, the red light will come 
on. You may complete your sentence, but I ask that you stop 
thereafter.
    Now, I would like to take this moment to recognize our good 
friend and Chairman Emeritus of the House Natural Resources 
Committee, Don Young of Alaska. Congressman Young has been a 
long-time leader of Federal fisheries management since its 
creation, and we greatly benefit from having his expertise on 
these issues here in the Committee.
    As such, it is only appropriate to yield the Subcommittee 
gavel to our Chairman Emeritus for this hearing.
    Mr. Young [presiding]. You are safe, because you are 
growing a beard. You can't be all bad, let's put it that way.
    Mayor Mitchell, you are now recognized for 5 minutes.

  STATEMENT OF THE HON. JONATHAN MITCHELL, MAYOR, CITY OF NEW 
                     BEDFORD, MASSACHUSETTS

    Mr. Mitchell. Thank you very much, Mr. Chairman, Ranking 
Member Huffman, Committee Ranking Member Grijalva, and members 
of the Subcommittee. My name is Jon Mitchell, and I am the 
Mayor of New Bedford, Massachusetts, the Nation's highest-
grossing commercial fishing port. I appreciate the opportunity 
to speak to you today about the proposed reauthorization of 
Magnuson-Stevens.
    Generally speaking, Magnuson-Stevens has been a success 
story. America's fisheries are at once among the world's 
largest and most sustainable. For 40 years, the Act has 
demonstrated that a scientifically-based regional approach to 
fisheries management can sustain marine ecosystems----
    Mr. Young. Your microphone is not close enough to your 
mouth or something, or my hearing is going real bad. I don't 
know which one it is. That is better.
    Mr. Mitchell. All right, there we go.
    So, as I was saying, for 40 years the Act has demonstrated 
that a scientifically-based, regional approach to fisheries 
management can sustain marine ecosystems and fishing 
communities alike. By facilitating the rebuilding of stocks, 
the Act has enabled the fishing industry, for the most part, to 
preserve steady jobs and to make available to Americans a 
critical source of food. That the Act is subject to 
reauthorization every 10 years is a recognition that marine 
environments, fishing technology, and scientific methods are 
dynamic, and that the statutory framework governing commercial 
fishing must keep up.
    That time is upon us now, and it is a testament to the 
success of the Act and the framers like you, Mr. Chairman, that 
none of the proposals from either side of the aisle would 
rework the Act's basic framework. Rather, the range of 
discussion is focused on reasonable adjustments to the Act in 
light of the last 10 years of experience. In my view, many of 
these adjustments can advance the Act's seemingly conflicting 
goals of promoting commerce and preserving the environment. I 
will outline briefly what I believe are the key areas for 
reasonable reform.
    One of the central tenets of the Act is that fisheries 
management can be effective only if it is tailored to the 
unique characteristics of America's various fisheries. There is 
enormous diversity in marine ecosystems and fishing communities 
along America's coasts. Under Magnuson-Stevens, fisheries 
management is designed, therefore, to be bottom up.
    Rulemaking is driven, accordingly, by the Regional 
Fisheries Management Councils, which are comprised largely of 
individuals drawn from industry, academia, and government. The 
Councils are empowered with a variety of tools to manage fish 
stocks to pursue the goals of the Act relying on the input from 
their scientific committees and from the public, including 
fishermen, local government officials, and environmental 
groups.
    Although Council decisions are subject to approval by the 
Secretary of Commerce to ensure some semblance of national 
uniformity and rulemaking, the whole system is based on the 
idea that the Councils, not officials in Washington, are in the 
best position to evaluate the economic and ecological 
conditions in their regions, and that they should have 
sufficient flexibility to promulgate rules, in light of the 
conditions and the goals of the Act.
    One of the major problems with the existing law, I will 
note, is that the flexibility under the Act was severely 
limited in 1996 with the passage of the Sustainable Fisheries 
Act. The 10-year requirement that was part of that Act 
unrealistically mandates that fisheries managers rebuild stocks 
within a 10-year period, and that this has caused distortion in 
the system.
    The 10-year rule is arbitrary, and its establishment was at 
odds with the underlying premise of regional management. 
Regional Councils should have the flexibility to set rebuilding 
timelines for stocks under their jurisdiction, based on the 
unique biological and ecological conditions, and by giving 
appropriate weight to the economic well-being of fishing 
communities.
    I will note that eliminating the 10-year rule should not be 
regarded as compromising the conservation imperatives of the 
Act. Quite to the contrary, replacing the 10-year rule with one 
that is based on the regeneration rate of threatened fish 
stocks, as some members have proposed, will lead to clearer, 
more predictable outcomes without causing unnecessary 
disruption to fishermen, and without compromising the 
rebuilding of stocks.
    In the time remaining I will just note a few other things 
that I think ought to be built into the bill.
    The annual catch limit (ACL) flexibility that your bill 
contemplates, Mr. Chairman, is on track. The mixed stock 
exception is very important to the fisheries in the North 
Atlantic. We have multi-species fisheries in which the choke 
stocks, true to their name, prevent fishermen from catching all 
their ACLs of other healthier stocks of fish, and that leaves 
fish in the sea and fewer economic opportunities on land.
    I also applaud the encouragement in both of the bills to 
provide for opportunities for collaboration between scientists 
and industry. I think that is very important. I think the 
Committee should be looking at things like the siting of NOAA 
facilities and fishing ports, which is, I think, direly needed 
in places like New Bedford. That will facilitate conversation.
    I will note, in closing, that one thing that fishermen and 
the regulators agree upon all the time is that there is a need 
for funding for research. Everybody agrees on that, and to the 
extent that even in a resource-constrained environment like the 
one we are in, additional funding will go a long way.
    Thank you for the opportunity, Mr. Chairman.

    [The prepared statement of Mr. Mitchell follows:]
Prepared Statement of Jon Mitchell, Mayor of New Bedford, Massachusetts
    Good morning, Chairman Lamborn, Ranking Member Huffman, and members 
of the Committee. My name is Jon Mitchell, and I am the Mayor of New 
Bedford, Massachusetts, the Nation's highest grossing commercial 
fishing port. I appreciate the opportunity to speak to you today about 
the proposed reauthorization of the Magnuson-Stevens Fishery 
Conversation and Management Act (the ``Magnuson-Stevens Act'' or 
``MSA'').
    Generally speaking, the Magnuson-Stevens Act has been a success 
story. America's fisheries are at once among the world's largest and 
most sustainable. For 40 years, the Act has demonstrated that a 
scientifically-based, regional approach to fisheries management is 
necessary to sustain marine ecosystems and fishing communities alike. 
By facilitating the rebuilding of stocks, the Act has enabled the 
fishing industry for the most part to preserve steady jobs and to make 
available to Americans a critical source of food.
    That the Act is subject to reauthorization every 10 years is a 
recognition that marine environments, fishing technology and scientific 
methods are dynamic, and that the statutory framework governing 
commercial fishing must keep up.
    That time is upon us now, and it is a testament to the success of 
Magnuson-Stevens that none of the proposals from either side of the 
aisle would rework the Act's basic framework. Rather, the range of 
discussion has focused on reasonable adjustments to the Act in light of 
the last 10 years of experience. In my view, many of these adjustments 
can advance the Act's seemingly conflicting goals of promoting commerce 
and preserving the environment.
    I will outline what I believe are the key areas for reasonable 
reform.
                 flexibility in the rebuilding periods
    One of the central tenets of the Magnuson-Stevens Act is that 
fisheries management can be effective only if it is tailored to the 
unique characteristics of America's various fisheries. There is 
enormous diversity in marine ecosystems and fishing communities along 
America's coasts. Under Magnuson-Stevens, fisheries management is 
designed, therefore, to be bottom-up.
    Rulemaking is driven accordingly by the eight Regional Fisheries 
Management Councils, which are comprised largely of individuals drawn 
from industry, academia, and government. The Councils are empowered 
with a variety of tools to manage fish stocks and pursue the goals of 
the Act, relying on the input from their scientific committees and 
public input from fishermen, local government officials, environmental 
groups, and other regional stakeholders. Although Council decisions are 
subject to approval by the Secretary of Commerce to ensure some 
semblance of national uniformity in rulemaking, the whole system is 
based on the idea that the Councils, not officials in Washington, are 
in the best position to evaluate the economic and ecological conditions 
in their regions, and that they should have sufficient flexibility to 
promulgate rules in light of those conditions and the goals of the Act.
    One of the major problems with the existing law is that Council 
flexibility was severely limited in 1996 with the passage of the 
Sustainable Fisheries Act, which sought to end overfishing immediately, 
rebuild stocks as quickly as possible, and to reduce fishing capacity 
through limited access programs. To effectuate these laudable goals, 
the '96 Act imposed a strict, 10-year rebuilding schedule for 
overfished stocks. There is, however, no real biological justification 
for such a timetable. Suffice it to say, nature doesn't adhere to 
round-number deadlines.
    As a result, our fishermen are often unable to catch their full 
scientifically-justified quota. Let me explain.
    The 10-year requirement places unrealistic mandates on fisheries 
managers, especially given that many stocks do not have the quality and 
quantity of scientific data that would be necessary to make accurate 
10-year estimates. Many species have their annual allocations set too 
conservatively as a result. When quota is set too low on certain 
species, it prevents fishermen from catching the other, healthy species 
that intermingle with them. These so-called ``choke'' species are the 
reason why fishermen in the North Atlantic cannot catch their full 
quota of healthy and abundant species such as haddock.
    The 10-year rule is arbitrary, and its establishment was at odds 
with the underlying premise of regional management. Regional Councils 
should have the flexibility to set rebuilding timelines for stocks 
under their jurisdiction based on the unique biological and ecological 
conditions, and by giving appropriate weight to the economic well-being 
of fishing communities.
    Eliminating the 10-year rule should not be regarded as a 
compromising of the conservation imperatives of the Act. Quite to the 
contrary, replacing the 10-year rule with one that is based on the 
regeneration rate of a threatened fish stock--as some members have 
proposed--will lead to clearer, more predictable outcomes without 
causing unnecessary disruption to fishermen, and without compromising 
the rebuilding of fish stocks.
    The term ``flexibility'' should not be understood as a euphemism 
for de-regulation. The Councils are in the business of finely 
calibrating decisions in light of relevant environmental and economic 
data, and their own experience and expertise. In the discharge of their 
duties, they tend not to win friends either in the fishing industry or 
in the conservation community, and given the goals of Magnuson-Stevens, 
that's probably the way it should be.
    It may not be easy, but by working together, across the aisle and 
across the sometimes gaping divide between the fishing industry and 
conservation communities, it should be possible to formulate a 
biologically-based rebuilding framework that provides both 
scientifically-justified flexibility and appropriate accountability.
      setting of annual catch limits and the mixed-stock exception
    In a similar vein, the Councils should have greater flexibility in 
setting Annual Catch Limits, or ACLs, to ensure that management 
decisions fairly reflect all of the goals of the Act. Recently, NOAA 
revised the National Standard One Guidelines, instructing the Regional 
Councils to consider both scientific and management uncertainty when 
setting quotas. Many of these recommendations, such as the application 
of a mixed stock exception to the Act's annual ACL requirement, and the 
authorization for Optimum Yield (OY) to be expressed qualitatively in 
data poor situations, would significantly improve the Councils' ability 
to achieve the Act's stated goal of achieving optimum yield ``on a 
continuing basis.'' This is a step in the right direction.
    Inasmuch that the Act calls on Councils to balance the health of 
the fishery and the socio-economic impact of its decisions on fishing 
communities, the setting of ACL should reflect that careful balancing.
                       encouraging collaboration
    The Act also should encourage cooperative research, especially 
between government and the industry, as well as to encourage the 
creation of new scientific working groups to ensure that information 
used by NOAA and the Management Councils undergoes proper scientific 
review.
    In New England, some of our best scientific innovations have come 
from collaborations between the industry, government and independent 
scientists. For example, in the 1990s, the Atlantic scallop fleet began 
deploying video survey technology to generate additional measurements 
of the scallop population. These surveys, together with additional 
research on gear and habitats, led to revised, more accurate estimates 
of scallop abundance, and are one of the primary reasons the Atlantic 
scallop fishery became the most successful in the world. Scientists at 
the University of Massachusetts-Dartmouth are currently developing new 
methods to apply the same video survey techniques to the region's 
groundfish stocks.
    The problem is that these collective victories tend to be one-off. 
The Act must lead to a more systematic approach to encouraging 
cooperative research. Requiring NOAA to come up with a plan to 
implement and conduct cooperative research programs would go a long 
way. Gathering data from various sources will lead to greater accuracy 
in stock assessment and reduce the need for uncertainty buffers in the 
setting of annual catch limits.
    Cooperation also could be greatly facilitated by siting NOAA 
facilities in fishing communities. In too many places across the 
country, geographic distance between regulators and commercial 
fishermen is an impediment to cooperation. The reality is that many key 
NOAA scientific and administrative facilities are not located in or 
near fishing communities, making it more difficult to achieve some 
level of understanding between the regulators and the regulated 
community. One of the more egregious examples concerns the Port of New 
Bedford. Despite accounting for more than a third of the landings in 
New England, New Bedford is the site of fewer than 10 out of over 500 
of NOAA employees in New England. If there is to be real collaboration, 
NOAA must give strong consideration in its siting decisions to locating 
facilities in places where commercial fishing is actually taking place.
                            antiquities act
    In March, I submitted testimony to this Subcommittee concerning the 
implications of last year's designation of Northeast Canyons and 
Seamounts Marine Monument under the Antiquities Act. The problem with 
the designation was fundamentally a procedural one. The process that 
led to the designation lacked the scientific rigor and industry input 
that ordinarily come with temporary ocean closures, much a less a 
permanent closure.
    As I argued then, the continued use of a parallel process outside 
the Magnuson-Stevens Act, however well-meaning, ultimately works 
against the long-term interests of all stakeholders.
    We all lose when the checks and balances employed in the Council 
process are abandoned. A decision-making process driven by the simple 
assertion of executive branch authority ultimately leaves ocean 
management decisions permanently vulnerable to short-term political 
considerations.
    Although the current administration has taken steps to revisit the 
Atlantic monument designation, I believe there needs to be a 
legislative fix of the inherent conflict between the Magnuson-Stevens 
and Antiquities Acts, so that decisions to close areas of the ocean to 
commercial activity can have the full benefit of a rigorous and 
transparent process.
                            ``overfishing''
    I agree with the proposals to revisit the term ``overfishing,'' 
which is used in the Act to describe a stock that has fallen below a 
minimum biomass such that ``maximum sustainable yield'' (MSY) cannot be 
generated. ``Overfishing'' is a charged term that may not accurately 
describe why a particular stock is diminished. There can be a number of 
reasons for the loss of biomass of a given fish stock that have nothing 
to do with fishing activity, including the effects of climate change, 
pollution, changes in migration patterns, other offshore activity, or 
increased presence of natural predators. The term also can complicate 
management of multi-species complexes and management measures that are 
necessary to address stock diminishment. Describing threatened stocks 
instead as ``depleted'' would be a more neutral, and often more 
accurate, label.
                               resources
    Stock assessments are the most important source of information in 
the regulatory process. If there is one area where the regulators and 
the regulated community always agree, it is that maintaining, and 
indeed enhancing, funding for scientific research will be imperative in 
the long run to fishing communities and fish stocks, alike.
                               conclusion
    Our Nation's fisheries are already some of the best managed and 
most conservation-minded and sustainable fisheries in the world. By 
making reasonable revisions to the Magnuson-Stevens Act, Congress can 
ensure that our fisheries are environmentally sustainable, and that 
commercial fishermen can continue making vital economic contributions 
to their communities.

                                 ______
                                 

    Mr. Young. Thank you, Mr. Mayor.
    Mr. Blankenship, you are recognized for 5 minutes.

     STATEMENT OF CHRIS BLANKENSHIP, COMMISSIONER, ALABAMA 
 DEPARTMENT OF CONSERVATION AND NATURAL RESOURCES, MONTGOMERY, 
                            ALABAMA

    Mr. Blankenship. Chairman Young, Ranking Member Huffman, 
and Subcommittee members, thank you for the opportunity to 
speak with you today. My name is Chris Blankenship, and I am 
the Commissioner of the Alabama Department of Conservation and 
Natural Resources.
    Consistent management and access to healthy fisheries, 
especially red snapper, is of the utmost importance to Alabama. 
Even though we have the smallest coastline on the Gulf of 
Mexico, we land, on average, 30 to 35 percent of the 
recreationally caught red snapper from the entire Gulf.
    I would like to thank Secretary Ross, the Department of 
Commerce, and NOAA fisheries for working with the Gulf states 
this year to allow additional access to the red snapper fishery 
in Federal waters. The renewed desire to work together has been 
very refreshing.
    We have such a great red snapper fishery off of our coast 
because we have built the largest artificial reef system in the 
country. Through partnerships with many organizations, we have 
placed over 17,000 reefs in the 1,200 square miles of reef 
zones managed by the state. We managed the building of the 
reefs and the creation of this productive habitat, but 
currently NOAA fisheries manages the fisheries.
    The Magnuson-Stevens Fishery Conservation Act has done a 
marvelous job of managing the commercial fisheries of the 
United States. It has also been very effective at protecting 
fisheries that were undergoing overfishing. Such was the case 
with red snapper in the 1990s. However, the management regime 
under MSA is not conducive to rapidly improving fisheries such 
as the current situation with red snapper and grey triggerfish 
in the Gulf of Mexico.
    The hard quotas and lack of flexibility causes the season 
to get shorter and shorter, even though the fishery is more 
robust than it has been in over three decades. For example, the 
stock assessment process is very slow. There are many years 
between stock assessments, and the data used in the assessments 
are generally terminated a year or more before the assessments 
commence.
    In short, this means that the management decisions and 
quota set for this year uses data that is over 5 or 6 years 
old. The season is set and the catch is measured against what 
the population was 5 years ago. This causes the total allowable 
catch for a rebuilding fishery to be set artificially low. The 
larger, more abundant fish are landed, and cause the 
artificially low quota to be caught very quickly. This has 
crippled the access for recreational anglers for red snappers 
and triggerfish.
    Changes were made to the Federal MRIP program in 2013. Each 
of the Gulf states has implemented a state-specific red snapper 
data collection program because there is little belief that the 
current MRIP estimates for short-season fisheries like red 
snapper are correct.
    To determine the actual catch of red snapper landed in 
Alabama, we have developed and implemented the mandatory red 
snapper reporting system, the Alabama Snapper Check. This 
system has been very successful, and it shows that 
individualized data collection that best fits the geography and 
circumstances of each state can be very beneficial.
    Alabama also continued with the current MRIP system, and 
has conducted both systems simultaneously to have a comparison 
of the validity. The results are striking. Federal estimates 
for red snapper landings for 2016 were almost 2.8 million 
pounds, while the Alabama Snapper Check system estimated about 
1.6 million pounds were landed. That is a 72 percent 
discrepancy. This is very consistent with the results from 2014 
and 2015, as well.
    This inaccuracy has had a profound negative effect on the 
red snapper season length and, consequently, a profound 
negative effect on the economy of coastal Alabama. Even though 
we have been working with NOAA fisheries every step of the way 
since 2014 to certify the Alabama Snapper Check system, to date 
we have still not received that certification. We are promised 
a decision by the end of this year. Three years is a very long 
time to work toward this certification.
    With the management regime proposed by H.R. 3588, the 
Alabama Snapper Check system will be vitally important to 
accurately estimating the catch, and ensure that overfishing 
does not occur.
    The Gulf-wide single-stock Federal management of red 
snapper and grey triggerfish is not working for all the states. 
There is a need for management on the regional or state level. 
For true regional management, each region needs the ability to 
conduct a stock or population assessment for the fishery within 
its region, and then manage that stock independent of the other 
regions.
    Alabama just completed our own comprehensive population 
estimate of red snapper for the area south of our coast. Our 
population estimate in the Alabama Snapper Check program gives 
Alabama the ability to adequately manage the red snapper 
fishery off of our coast in totality. We can conduct stock 
assessments, we can set a healthy quota, and we can accurately 
monitor the catch to ensure that the red snapper fishery is not 
overfished, while at the same time allowing access to our 
fishermen. I feel that Alabama has more of an opportunity to 
manage this fishery under the provision of these bills than we 
currently have under Federal law.
    Thank you for this opportunity to participate in this most 
worthy discussion, and I will be happy to answer any questions 
you may have at the appropriate time.

    [The prepared statement of Mr. Blankenship follows:]
 Prepared Statement of Christopher Blankenship, Commissioner, Alabama 
            Department of Conservation and Natural Resources
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today to testify on the extremely 
important subject of red snapper management. I am Chris Blankenship, 
and I am the Commissioner of the Alabama Department of Conservation and 
Natural Resources. Under Alabama Law, the Alabama Department of 
Conservation and Natural Resources (ADCNR) has full jurisdiction and 
control of all seafoods existing or living in the waters of Alabama, 
and it shall ordain, promulgate and enforce all rules, regulations and 
orders deemed by it to be necessary for the protection, propagation or 
conservation of the same. The Marine Resources Division (MRD) of ADCNR 
is responsible for managing the fisheries in the coastal waters of 
Alabama and advising the Commissioner of Conservation relative to 
saltwater fisheries and seafoods. Prior to my current position, I was 
the Director of the Marine Resources Division for 7 years.
    I am so honored to appear before you today because, for the state 
of Alabama, the red snapper fishery is the most important recreational 
fishery in the Gulf of Mexico. Prior to 1997, the red snapper fishery 
was open 365 days a year with very liberal creel and size limits or no 
limits at all. The red snapper fishery was being overfished, and 
additional management measures were put in place to protect the stock. 
In 1997, the recreational season was shortened to 330 days with 
progressively shorter seasons in 1998 and 1999 when the season length 
was 240 days. During the years of 2000 through 2007, the season was 
stable at 194 days. In 2008, the recreational season really began to be 
curtailed when the season was shortened to 65 days. In 2012, the season 
was 45 days long, in 2013 the season was 28 days, and from 2014-2016 it 
was around 10 days. In 2017, the private recreational season was 
initially set at 3 days!
    The Magnuson-Stevens Act (MSA) has been a great tool for managing 
the commercial fisheries of the United States. The MSA has also been 
instrumental in rebuilding fisheries that have undergone overfishing. I 
am happy to report that the red snapper fishery is no longer considered 
to be undergoing overfishing. However, the MSA has not been very 
effective at allowing recreational access to fisheries as the fishery 
has been rebuilt. We are seeing this in the Gulf of Mexico in both the 
red snapper and grey triggerfish fisheries. Stock assessments are 
several years behind and quotas are set based on levels observed in the 
fishery many years earlier. This creates quotas that are unnecessarily 
low for these rebuilding fisheries. As the fisheries rebuild, both the 
average weight and the abundance increase, causing the fishery to meet 
these unnecessarily low quotas at a much faster pace. This has led to 
very brief seasons or, in the case of gray triggerfish, no season. The 
continued reduction and fluctuation of fishing seasons has placed a 
real hardship on the recreational and charter fishermen of the state of 
Alabama and other Gulf states.
    Alabama has a relatively small coastline compared to the other Gulf 
states. Even though the coastline of Alabama is less than 5 percent of 
the total Gulf coastline, we land on average 30-35 percent of the 
recreationally caught red snapper in the Gulf of Mexico. The city of 
Orange Beach is known as ``The Red Snapper Capital of the World.'' The 
charter and for-hire fleet in Orange Beach contains more than 200 
vessels. This is the largest homeport for charter and for-hire vessels 
in the entire Gulf of Mexico. The people of the coastal areas of 
Alabama and particularly the people of the cities of Orange Beach, Gulf 
Shores and Dauphin Island are proud of the outstanding red snapper 
fishery we have in the Federal waters adjacent to Alabama. You might 
wonder how a state with such a small coastline could land that many red 
snapper. The state of Alabama has built this premier red snapper 
fishery through the creation of man-made artificial reefs.
                            artificial reefs
    Alabama has the largest artificial reef program in the United 
States. Red snapper, as well as other reef fish, need structure to 
thrive. The water bottoms off the coast of Alabama are relatively flat 
with very little relief. Until the last 50 years, the only places that 
red snapper were caught off our coast were on the very few natural 
reefs and outcroppings in the Gulf. Beginning in the 1950s, the Alabama 
Marine Resources Division began placing material in the waters offshore 
to create habitat for reef fish. The initial placements were so 
successful that in the 1970s Alabama worked with the Corps of Engineers 
to create the Alabama Artificial Reef Zone. This 1,030-square-mile area 
in Federal waters adjacent to Alabama is managed by the Marine 
Resources Division. Over the past 40 plus years, more than 17,000 reefs 
have been placed in the reef zone. These reefs include over 100 
decommissioned military tanks, concrete bridge rubble and metal bridge 
spans, over 1,000 10-foot-tall concrete pyramids, many barges, ships, 
tugs, airplanes, dry docks, oil and gas rigs, concrete culverts, and 
pipes. Private companies and individuals have also placed several 
thousand reefs that met reef construction protocols and were permitted 
by the Marine Resources Division. This habitat creation has caused the 
population of red snapper to increase substantially off the coast of 
Alabama.
    I would like for ADCNR to take full credit for the success of the 
Alabama Artificial Reef Program, but it cannot. Although the program is 
managed by the Marine Resources Division and the state of Alabama has 
invested millions of dollars in reef construction, the level of success 
we have seen would not have been possible without the partnerships we 
have participated in with the charter industry, recreational fishing 
organizations and private industry. The Orange Beach Fishing 
Association has been instrumental in partnering with us to fund reef 
construction. Through the Red Snapper World Championship Fishing 
Tournament, hundreds of thousands of dollars were raised to build 
reefs. The Alabama Road Builders Association and the oil and gas 
industry saw the great fishery we were building in Alabama and provided 
material and funds to construct reefs. The Coastal Conservation 
Association has been a valuable addition to recent participation in 
reef-building activities both in Alabama waters and in adjacent Federal 
waters. The most recent partnership has been the creation of the 
Alabama Gulf Coast Reef and Restoration Foundation. This group was 
formed to bring together state, county and local governments as well as 
coastal chambers of commerce, coastal businesses and fishing interests 
to continue to fund reef-building.
    The millions of dollars that have been invested in artificial reefs 
and the foresight of so many people have created this great red snapper 
fishery, but these same people are only able to have access to this 
fishery for a few days out of the year due to current stringent fishing 
seasons.
                   regional management of red snapper
    The Gulf of Mexico Fisheries Management Council and the National 
Marine Fisheries Service are currently tasked with the management of 
red snapper. Currently, the red snapper stock is managed as a single 
stock in the Gulf of Mexico with an overall Gulf-wide quota. The 
overall quota is divided between the recreational sector, with 49 
percent of the quota, and the commercial sector, with 51 percent of the 
total quota. The recreational quota is again split between the private 
recreational fishermen and the federally permitted charter-for-hire 
vessels. Once the recreational quota is met, or is projected to be met, 
the recreational red snapper fishery in the Federal waters of the Gulf 
of Mexico must close. The commercial sector is managed under an 
Individual Fishing Quota program (IFQ). The IFQ program has been very 
successful at managing the commercial catch each year.
    As previously stated, currently the red snapper stock in the Gulf 
of Mexico is managed as a single unit. This single unit management 
includes both fish caught in state waters as well as fish caught in 
Federal waters. Some of the states have red snapper seasons in state 
waters that differ from the Federal red snapper season, which is within 
their sovereign rights. The issue for a state like Alabama is that the 
fish caught during these state seasons is deducted from the overall 
Gulf-wide quota which shortens the seasons in Federal waters off the 
coast of Alabama.
    The large decrease in the recreational season length coupled with 
the inconsistent red snapper seasons by some states has many people 
looking for solutions. One of those possible solutions is regional 
management of red snapper and other reef fish. Many aspects of regional 
management remain under discussion but one thing is clear: the current 
Gulf-wide, single-stock management system through the Gulf of Mexico 
Fisheries Management Council has not satisfactorily served the 
fishermen of the Gulf of Mexico or the resource.
    Three proposed amendments to the Red Snapper Fishery Management 
Plan are currently before the Gulf of Mexico Fisheries Management 
Council to establish state management of red snapper off the coasts of 
Alabama, Louisiana and Mississippi. Each state would be allocated a 
portion of the recreational red snapper quota as set by the Science and 
Statistical Committee of the Gulf Council. This allocation would be 
determined using prior landing history and other factors to establish a 
fair distribution of allocation. Once a state receives its allocation 
of the total quota, the state could enact management measures that 
would best fit the needs of that state. This flexibility would assist 
in lengthening the season for most states, but the biggest benefit 
would be that seasons and management measures could be tailored to 
optimize the socio-economic needs of each region. Currently, the red 
snapper season begins on June 1 of each year and runs consecutively 
until the quota is projected to be met. Some states, due to tourism, 
weather patterns, or other factors, would prefer a season at a 
different time other than June each year. For example, some states 
might want a season in April or May, some would like a weekend-only 
season, and some would like a fall season while others would want a 
split season. Regional management would allow each region or state to 
set seasons that would provide the greatest benefit to the fishermen 
and coastal economies within their state while still protecting the red 
snapper stock.
    Regional management and quota allocation would also solve the 
problem of different state water areas and incompatible regulations. 
Each region would be allotted a certain amount of pounds to manage. It 
would not matter if the fish were caught in state waters or Federal 
waters; it would still be counted toward that one region's allocation 
without adversely affecting another region. Regions could also use 
other measures to better manage the fishery in their region, including 
setting different bag limits or size limits or assigning different 
sectors a portion of the regional quota.
    H.R. 3588, as proposed, would use a different regional or state 
management strategy. This depth/distance-based concept is very 
interesting. I think this has a great deal of potential. It would allow 
the states flexibility in setting the seasons for the private 
recreational fishermen. It would not change the system or seasons for 
the charter-for-hire or commercial fisheries. Those sectors have been 
consistent in their desire to stay under current Federal management. 
Red snapper live and thrive out to about 600 feet or 100 fathoms. 
Limiting private recreational fishing to waters less than 25 fathoms 
would establish something like a sanctuary for most of the red snapper 
biomass. The fallacy I see with the plan is that the quota and total 
allowable catch are set by NOAA Fisheries under the current system. It 
does not appear that the biomass in the areas outside 25 fathoms and 
not available for recreational harvest would be credited to the plan. 
If the state and selected NOAA scientists can work together to produce 
a comprehensive stock assessment or population estimate for each region 
or state and then manage the resultant quota with the means that 
protect the red snapper stock while also allowing greater access to 
recreational fishermen that would be a vast improvement over the 
current system.
    NOAA Fisheries needs to use a better procedure and timeline for 
certifying state data collection programs. The current Alabama Snapper 
Check program was begun in 2013. The development of the program has 
been partially funded by NOAA, and we have worked with the MRIP staff 
and the NOAA consultants every step of the way. Certification should be 
a simple matter of accepting the report and agreeing that we have used 
the methods suggested by NOAA and the consultants. We submitted our 
final report and request for approval months ago. It is now anticipated 
by NOAA MRIP staff that we will have a decision before the end of 
calendar year 2017. Having a 6-month deadline for the Secretary to 
certify programs should be an improvement.
                recreational red snapper data collection
    Due to changes in the Federal Marine Recreational Information 
Program (MRIP) in 2013, the reported catch of red snapper was 
drastically inflated over previous years. The public has lost 
confidence in this system and, frankly, so have many of the Gulf 
states. Each of the Gulf states has implemented a state-specific red 
snapper recreational data collection program because none of them 
believes that the current MRIP estimates are correct. There has been a 
consensus in Alabama from the charter fishermen and many recreational 
fishermen that for the opportunity to pursue regional management they 
would be willing to take a more active role in reporting their catch. 
In order to determine the actual catch of red snapper that is landed in 
Alabama, the Alabama Marine Resources Division developed and 
implemented a mandatory Red Snapper Reporting System, beginning with 
the 2014 red snapper season. This program requires both charter and 
recreational fishermen to report their catches of red snapper upon 
their return to the dock. This system has been very successful in its 
first 3 years and shows that individualized data collection that best 
fits the geography and circumstances of each state can be very 
beneficial.
    Alabama implemented this new system in 2014, but we also continued 
with the current MRIP system and conducted both programs simultaneously 
so we would have a comparison of the validity. The results were 
striking. The Alabama system estimated that 601,155 pounds of red 
snapper were landed during the 2014 season, while the Federal MRIP 
system estimated that 1,091,000 pounds were landed. In 2015, Alabama 
Snapper Check estimated 1,485,778 pounds of red snapper were landed in 
Alabama while MRIP estimated 2,373,392 pounds. In 2016, 1,620,879 
pounds were estimated by Snapper Check and MRIP estimated 2,791,051. 
For the 2017 season Alabama Snapper Check preliminary landings are 
estimated at 1,733,527 pounds. The Federal MRIP estimate for the 2017 
season will not be available for many more months.
    Alabama validated its results by using video counts of vessels 
launched at coastal boat ramps. These video count estimates were a near 
identical match to the Alabama red snapper reporting system data. We 
feel that the Federal system has repeatedly overestimated the catch for 
Alabama by nearly double. This gross inaccuracy has a profound effect 
on the red snapper season length and consequently a profound negative 
effect on the economy of Coastal Alabama. Alabama plans to continue the 
mandatory red snapper reporting system in 2018 and beyond. We have 
worked with NOAA Fisheries throughout the development and 
implementation of Alabama Snapper Check. I would have anticipated that 
NOAA Fisheries would have certified our system by now, but they have 
been very slow at evaluating and approving our methodologies. We are 
also working with NOAA Fisheries to calibrate the MRIP system and to 
explore how the Alabama data can be used in that system and in future 
assessments.
    The charter fleet in Alabama has proposed 100 percent electronic 
trip reporting to ensure compliance and to assist in quota monitoring. 
In Alabama we are continuing to explore new technology to improve the 
reporting of recreational catch. Alabama has shown that under regional 
management we have the desire and the ability to better monitor the 
catch of red snapper than the current Federal system. With the 
management proposed by both H.R. 2023 and H.R. 3588, the Alabama 
Snapper Check system will be vital to accurately estimating the catch 
to ensure overfishing does not occur. I am concerned about the cost of 
additional data collection. Whether this fishery is managed under a 
form of regional management or continued Federal management, adequate 
funding for recreational data collection is imperative.
               regional management and stock assessments
    The proposed concept of regional management is a step in the right 
direction. The flexibility to set seasons and other management measures 
by region will go a long way toward providing tailored management that 
best suits the socio-economic and fishery management needs of the 
region. However, not all regions have the same habitat and, therefore, 
not all regions have the same stock characteristics. As previously 
stated, Alabama has the largest artificial reef program in the United 
States. We have more than 17,000 reefs that have been placed in our 
reef zones. This large amount of habitat has produced a large amount of 
fish. Not all states or regions have this large concentration and 
population of red snapper and other reef fish. Currently, the red 
snapper stock is assessed and managed as a single unit. For true 
regional management, each region needs the ability to conduct a stock 
assessment or population estimate for the fishery within its region and 
then manage that stock independent of the other regions. The current 
Magnuson-Stevens Fishery Conservation and Management Act (MSA) does not 
allow this type of true regional management.
    In some cases, the data collected by NOAA Fisheries is not adequate 
to fully inform the stock assessment models. To obtain a large portion 
of the data included in the red snapper stock assessment, NOAA 
Fisheries conducts fishery independent data collection for reef fish 
using a bottom long line. NOAA conducts this work from the Texas/Mexico 
border to the tip of Florida. However, their sampling protocol 
explicitly excludes the Alabama Artificial Reef Zones from its data 
collection. To me this is akin to conducting a census of the United 
States but excluding all the cities and just sampling the rural areas. 
Our United States population count would be drastically different if 
the census were conducted in this manner. I feel the red snapper 
information collected by NOAA is also skewed by excluding the areas 
where over 30 percent of ALL the red snapper in the Gulf of Mexico are 
caught. In order to collect this information and have it included in 
the red snapper stock assessment, Alabama has funded and conducted our 
own bottom long line data collection program in Federal waters. Alabama 
is spending the hard-earned money of our citizens in order to collect 
data that NOAA Fisheries should be collecting. Again, this is blatantly 
unfair to the citizens of Alabama.
    Alabama has completed our own comprehensive population estimate of 
red snapper within the Alabama Reef Zones. This population estimate was 
conducted by Dr. Sean Powers of the University of South Alabama. The 
estimate shows that we have more red snapper off the coast of Alabama 
than is being estimated by NOAA Fisheries. We will continue to refine 
this estimate and work to have the information included in the next 
benchmark red snapper stock assessment. We are currently conducting a 
red snapper stock assessment for the area south of the Alabama coast. 
When the Alabama Red Snapper Population Estimate and the Alabama Red 
Snapper Stock Assessment are peer-reviewed and scientifically accepted, 
they will show that Alabama has the ability to adequately manage the 
red snapper fishery in totality. We can conduct the stock assessments, 
we can set a healthy quota, and we will be able to accurately monitor 
the catch to ensure that the red snapper fishery is not overfished 
while at the same time allowing access to our fishermen. I feel that 
Alabama has more of an opportunity to manage this fishery in totality 
under the provisions of H.R. 2023 and H.R. 3588 than we currently have 
under NOAA Fisheries and current Federal law.
    Thank you again for the opportunity to participate in this most 
worthy discussion. The red snapper fishery is of utmost importance to 
the people and the coastal economy of the state of Alabama. If I can 
ever assist in any way, please feel free to contact me.

                                 ______
                                 

      Questions Submitted for the Record by Rep. Johnson to Chris 
   Blankenship, Commissioner, Alabama Department of Conservation and 
                           Natural Resources

                  Questions Related to Red Snapper Act

    Question 1. As a member of the Louisiana Congressional delegation 
and a former member of the Louisiana House of Representatives, I am 
quite aware of the contention that the red snapper fishery has caused 
in the Gulf over the years. It seems, however, that we may finally be 
on a path forward toward a resolution.

    <bullet> 1a. I'd like some clarity on the major differences between 
            this current red snapper bill (H.R. 3588) and last year's 
            red snapper bill. What steps does H.R. 3588 take to strike 
            a better balance between improving the needed public 
            access, protecting the rights of recreational anglers, and 
            fairly managing commercial fisheries?

    Answer. The RED SNAPPER Act would permit access in a larger area 
for private recreational fishermen to sustainably harvest red snapper, 
while creating a conservation area for red snapper at the greatest 
depths. States would retain the authority to manage the fishery and 
establish seasons for harvesting red snapper in state waters--9 miles. 
However, the bill also creates an expanded area out to 25 fathoms, but 
not less than 25 miles, for states to establish season lengths for 
private anglers to harvest red snapper. Fishing days beyond 9 miles 
would have to be managed in accordance with both the national standards 
and other criteria outlined in the bill, mindful that this bill still 
retains the Gulf Council's ability to establish the total allowable 
catch. This bill would provide access for private recreational 
fishermen within a new area, making the length of the Federal season 
for private recreational anglers moot.
    Currently, states manage the red snapper fishery out to 9 nautical 
miles. H.R. 3588 retains that authority and also proposes extending a 
state's management authority to establish private angler seasons based 
upon depth and distance from the shoreline. This bill would not 
transfer management authority of the entire fishery to the states and 
does not divide allocations among the Gulf states. Finally, this bill 
would also give more weight to state harvest data to help provide NOAA 
with more timely information about catch rates and effort.
    H.R. 3588 does not establish any new regulatory or advisory group. 
The previous red snapper bill proposed creating the Gulf Red Snapper 
Management Authority (GRSMA) to review and approve other states red 
snapper management plans. H.R. 3588 does not delegate total management 
authority to the states or regions as was proposed in H.R. 3094.
    H.R. 3588 would not change the management structure for federally 
permitted charter for-hire vessels or commercial red snapper fishermen. 
Changes to those fisheries management structures were allowed under 
H.R. 3094.

    <bullet> 1b. How does the management structure of the different 
            fishing sectors in this bill differ from last years bill?

    Answer. Under H.R. 3588, NOAA Fisheries still sets the Total 
Allowable Catch and the states or regions are bound by this quota. In 
the referenced proposed red snapper bill in the last Congress, the 
states would set the quota for each region and there was no total 
allowable catch set by NOAA Fisheries.
    H.R. 3588 does not change any management structure or quota for the 
commercial red snapper IFQ program. H.R. 3588 also ensures that the 
charter for-hire season will not change in duration or timing from what 
they enjoyed this year. Most of the charter fishermen have been 
satisfied with the current 49-day season that begins June 1.

    <bullet> 1c. If I understand you correctly, this bill is not 
            changing the way the commercial sector of the red snapper 
            fishery is managed, correct?

    Answer. Correct, see answer above.

    Question 2. Recreational fishermen and women are a huge part of 
Louisiana's economy. Having a healthy stock is important to them and 
the local businesses associated with recreational fishing. This may be 
an overly simplified way to phrase it, but if the recreational 
fisherman fish all of the fish, then they will have no fish left to 
fish--I highly doubt that is their goal.

    <bullet> What safeguards does this bill put in place to ensure the 
            red snapper stock is not depleted?

    Answer. When establishing seasons, states must ensure season 
lengths are consistent with the National Standard Guidelines in MSA. 
Second, because the RED SNAPPER Act amends section 407(d) of MSA, 
overages by any sector are of greater consequence for that particular 
sector. NOAA has stated ``accountability measures require that a 
component that exceeded its ACL in a year must have the component ACL 
in the next year reduced by the amount of the overage of the total 
ACL.'' (2017 Gulf of Mexico Red Snapper Recreational Season Length 
Estimates) In 2016, NOAA estimated that the private angling sector 
exceeded its component ACL by 25 percent (1M lbs ww) and the Federal 
charter landings were 30 percent (908K lbs ww) below the component ACL. 
However, for 2017, due to current law, the entire recreational sector 
overage was only reduced by 129,906. The RED SNAPPER Act would fix this 
disparity. Third, the Secretary still has the authority to regulate a 
state season if a state is taking actions or has failed to take action 
that leads to implementation of a Federal fishery management plan being 
negatively affected.
    According to a federally funded study through the State of Alabama 
Department of Conservation done by Dr. Sean Powers, Chair, Dept. of 
Marine Sciences; Director, Center for Environmental Resiliency, 
University of South Alabama & Senior Marine Scientist III, Dauphin 
Island Sea Lab, just 19 percent of red snapper occur in water less than 
25 fathoms. In other words, 81 percent of the stock is conserved from 
the recreational fishermen under this legislation. Furthermore, former 
Louisiana Sea Grant Director, Dr. Charles Wilson has similar numbers 
from a MMS study done for Louisiana oil platforms.
    In addition, the bill does not eliminate quotas and allows NOAA the 
ability to more effectively manage any quota overages by a particular 
sector. For example, any quota overage in 2017 by any sector would lead 
to a decrease for that specific sector's ACL in 2018. Any effort 
indirectly or otherwise to manage beyond prescribed Annual Catch 
Targets or quota limits could lead to quota overages, greater paybacks 
for a specific sector and overfishing.
    State surveys also offer more accurate and timely data on harvest 
rates and fishing effort. States can better manage opening and closing 
their waters to prevent overfishing. Certified surveys and other means 
of data collection will ensure the Federal Government has better data. 
The Federal program that estimates angler harvest--the Marine 
Recreational Information Program (MRIP)--can provide baseline trends in 
fishing effort. But, for many offshore, short season fisheries, MRIP 
does not provide data at the level of accuracy or timeliness needed for 
in-season management.
    Red snapper, prefer habitat(s) near both artificial and natural 
reefs and at deeper depths. As a result, when these fish are caught, 
the rapid ascent can cause a series of internal injuries due to the 
pressure differences between the deep and the surface. These pressure-
related injuries are known as barotrauma. There are, however, 
techniques to help red snapper recover and minimize the potential of 
the species dying or becoming an easy target for ocean predators. This 
bill would require the states to develop and implement programs to 
reduce barotrauma. Red snapper are more susceptible to injury or death 
from barotrauma in depth over 150 feet of water. Limiting the fishing 
pressure in the deeper water outside 25 fathoms under this bill will 
most definitely reduce barotrauma mortality.
    Finally, those private anglers caught illegally harvesting red 
snapper will continue to face appropriate penalties when caught by 
state or Federal law enforcement officers.

                                 ______
                                 

    Mr. Young. Thank you, Mr. Blankenship. I am impressed. You 
are from Alabama and you are on time, I am really impressed. 
You have a hell of a football team, but you keep time. Thank 
you, sir.
    Mr. Blankenship. Yes, sir.
    Mr. Young. At this time, I ask unanimous consent that the 
gentleman from Alabama, Mr. Byrne, be allowed to join the 
Subcommittee on the dais and participate in the hearings.
    Without objection, so ordered. Welcome.
    The next witness is Mr. Martens. You are recognized.

   STATEMENT OF BEN MARTENS, EXECUTIVE DIRECTOR, MAINE COAST 
           FISHERMAN'S ASSOCIATION, BRUNSWICK, MAINE

    Mr. Martens. Thank you, Mr. Chairman, for the opportunity 
to testify----
    Mr. Young. Get that microphone closer to your mouth.
    Mr. Martens. Yes, sir. All right. Thank you, Mr. Chairman, 
for the opportunity to testify on the successes and challenges 
of the Magnuson-Stevens Act. My name is Ben Martens, and I am 
the Executive Director of the Maine Coast Fisherman's 
Association (MCFA), an industry-based non-profit that 
identifies and fosters ways to restore the fisheries of the 
Gulf of Maine, and sustain Maine's fishing communities for 
future generations.
    Additionally, MCFA is a founding member of the Fishing 
Community Coalition, a coalition of like-minded industry groups 
from Maine to the Gulf Coast to Alaska who believe in long-term 
preservation of our fishing communities through stewardship.
    My comments also come directly from the MSA legislative 
package crafted by the members of FCC. With your permission, 
Mr. Chairman, I would like to submit this legislative package 
for the Subcommittee's consideration, with a focus on our 
priority areas, which include: accountability, data and 
monitoring, forage fish protections, and strengthening fishing 
communities. I go further into detail on these priority areas 
and others in my written testimony.
    Recently, I was with Randy Cushman, a fourth-generation 
fisherman from Port Clyde, Maine, and the only groundfish 
fisherman left in a town that was built off the landings of 
species like flounder, haddock, and cod. Randy was reflecting 
on his past, and ended up telling me stories about his father, 
Captain Lee Cushman, who, as fish stocks were declining and 
jobs were being lost, confessed to his oldest son, ``If I had 
known then what I know now about fish and about fishing, I 
would have done a lot of things differently.'' We all would 
have done a lot of things differently. We just did not know 
what we were capable of.
    We now understand what we are capable of, not only as far 
as catching fish, but also as to how to rebuild our marine 
resources and protect our fishing communities. We understand it 
takes good data and accountability to effectively manage our 
Nation's fisheries. And a strong Magnuson-Stevens Act has 
delivered.
    Today, less than 16 percent of our Nation's assessed fish 
stocks are overfished, and less than 9 percent are subject to 
overfishing. No matter what else we identify as important 
within this bill, fishermen big and small, commercial and 
recreational, can all agree that we need robust and healthy 
fish stocks to sustain our fishing future.
    MSA has had great success in achieving that goal, and today 
I am here to ask you to support a strong MSA rooted in science 
and accountability in this reauthorization. I don't mean to 
suggest that MSA is perfect. Some of our most iconic fisheries, 
including the groundfish fishery back home in Maine, are 
struggling to rebuild. But New England groundfish is the 
exception that proves the rule, since poor accountability 
within that fishery has hampered rebuilding efforts and 
undermined science and management.
    Instead of pushing for change, I want to embrace our 
successes, and lean into a management model that demands 
accurate and timely information. Fisheries management is a 
data-hungry industry when done correctly, and it is our hope 
that the MSA reauthorization will focus on ensuring that the 
data fisheries rely on for successful businesses continues to 
improve as the world's oceans and ecosystems change at a rapid 
pace.
    Maine is known for our lobsters. But in 1995, lobster only 
represented 30 percent of Maine's landings. In contrast, by 
2015, 87 percent of Maine's landings could be attributed to 
that one fishery. During this period, Maine lost hundreds of 
permits for species like scallops and groundfish that add to 
community economic diversity and create protections for future 
ecosystem shifts.
    Language currently exists in MSA that was intended to allow 
communities to preserve historic access. To date, it has never 
been used. We hope that you will address this provision to help 
allow communities to engage in this process because once those 
rights are lost they are lost forever. This is something that 
we cannot afford to continue.
    Now, while Randy may be the only groundfish fisherman in 
Port Clyde, we are working to ensure that he is not the last. 
The next generation of fishermen face daunting challenges, 
including the high cost of entry, financial risks, and limited 
entry-level opportunities.
    The Young Fisherman's Development Act, championed by 
Congressman Young, aims to create a national program modeled 
after one that already exists for farmers and ranchers. This 
program would be exclusively dedicated to assisting, educating, 
and training the next generation of commercial fishermen. I 
want to thank the Congressman for introducing this language, 
and I would ask that the Committee give its full consideration 
to this bill. This is very important to the work that we are 
doing in Maine and elsewhere.
    We appreciate the work that has gone in the current 
legislative drafts, but MCFA and the FCC cannot support them as 
they currently stand. The reauthorization of the Magnuson-
Stevens Act is an opportunity to reinforce what we have 
learned. We need accountability throughout our fisheries. We 
need stronger protections for forage stocks and important 
habitat. We need science-based decision making, and we need 
increased protections for our fishing communities.
    Our work here is not done, and we cannot afford to look 
back and say, ``If only we had known better,'' because we do. 
Randy is building off the knowledge his father left him on how 
to be a better steward of marine resources. Let us build off 
the successes of our past, learn from our failures, and ensure 
that tight lines and full nets are part of our futures.
    Thank you for your time today.

    [The prepared statement of Mr. Martens follows:]
  Prepared Statement of Ben Martens, Executive Director, Maine Coast 
                        Fishermen's Association
    Thank you for the courtesy of your invitation to testify on the 
successes and challenges of the MSA. I am Ben Martens, Executive 
Director of the Maine Coast Fishermen's Association (MCFA). MCFA is an 
industry-based, non-profit organization that identifies and fosters 
ways to restore the fisheries of the Gulf of Maine and sustain Maine's 
fishing communities for future generations. Established and run by 
Maine fishermen, MCFA works to provide a voice for our fishing 
communities; sustain a productive and healthy marine ecosystem; and 
help build viable fishing businesses on our coast. We do this important 
work through advocacy, research, education, and marine stewardship but 
more importantly by empowering fishermen to innovate and focus on the 
future of their businesses and communities. MCFA is also a founding 
member of the Fishing Communities Coalition (FCC), an association of 
community-based, small-boat commercial fishing groups. The FCC 
represents more than 1,000 independent fishermen and business owners 
from Maine to the Gulf of Mexico to Alaska who share a commitment to 
the sustainable management of America's fishery resources. Because the 
FCC was formed to strengthen and unify the individual voices of our 
member organizations, my testimony today is endorsed by the FCC.
    Healthy domestic fisheries and prosperous fishing communities 
benefit everyone from the fisherman out on the water to the consumer 
back home, so it's not surprising that the Magnuson-Stevens Act has 
historically garnered strong bipartisan support. As we have shown time 
and again in this country, when we work together we can solve even the 
most difficult of problems, and rebuilding and managing our Nation's 
fisheries is no exception. Today, less than 16 percent of the Nation's 
assessed fish stocks are overfished and less than 9 percent are subject 
to overfishing. Since 2000, more than 41 fish stocks have been 
successfully rebuilt, and these healthier stocks have produced 
increased landings, greater revenues, and more jobs in every region of 
the United States. The 2006 MSA amendments, which imposed new 
accountability measures, have been essential to these rebuilding 
efforts.
    That is not to suggest that MSA is perfect. Some of our most iconic 
fisheries, including the groundfish fishery back home in Maine, are 
struggling to rebuild. But New England groundfish is the exemption that 
proves the rule, as poor accountability within the fishery has hampered 
rebuilding efforts and undermined science, sustainability, and 
management. Instead of moving away from science and accountability, I 
want to embrace our successes and lean into a model that demands 
accurate and timely data from fishermen, scientists, and managers. 
Fisheries management is a data-hungry industry when managed correctly 
and it is our hope that MSA will continue to focus on ensuring that the 
data we rely on will only get better as the world and ecosystem change 
at an increasingly rapid pace.
    While MCFA and the FCC believe that the MSA is working well, we 
recognize that reauthorization presents an opportunity to build off the 
2006 MSA amendments, which imposed new accountability measures and 
reinforced science-based decision making. These changes have been 
essential to rebuilding efforts throughout the United States. My 
remarks today are made in an effort to highlight opportunities to 
promote and strengthen science-based decision making, to improve 
fishery data collection, to ensure accountability from all harvesters 
of the resource, and to better protect our vital commercial fishing 
communities. With that in mind, while MCFA and the FCC approve of 
certain provisions of H.R. 200 and H.R. 2023, we cannot support the 
full bills as they are currently written.
    We look forward to working with the Subcommittee on finding the 
best path forward for reauthorization that does not compromise or roll 
back the successes we have seen to date. That is why my comments also 
come directly from the MSA legislative package crafted and approved by 
the members of the FCC, with the full support of MCFA. With your 
permission, Mr. Chairman, I would like to submit this legislative 
package for the Subcommittee's consideration.
        council accountability, transparency and public process
    The FCC MSA legislative package includes portions of H.R. 200--
sponsored by Congressman Don Young--including requiring each Scientific 
and Statistical Committee (SSC) to develop advice in a manner that is 
both fully transparent and also allows for public involvement. 
Additionally, in the name of transparency, we would require Council 
meetings to be posted on their website and require Council and SCC 
meeting notes and transcripts to be maintained by the Council and made 
available to the public. To increase accountability of all Council 
members we propose that all non-procedural votes at Council meetings be 
taken by recorded vote.
               financing of fisheries monitoring programs
    We propose to expand to all Councils the discretionary authority to 
impose fees presently only available to the North Pacific Fishery 
Management Council (NPFMC). This important tool has allowed the NPFMC 
to establish fees--the amounts vary from fishery to fishery--as part of 
a fisheries plan in order to partially offset monitoring costs. The 
program has been a great success in the North Pacific region by 
providing more comprehensive observer coverage at a lower cost to 
individual fishermen. The fishermen I work with in Maine recognize the 
importance of high levels of accountability, but they simply can't 
afford the $600 a day it costs to carry an observer. This is one of the 
reasons why MCFA has been at the forefront of electronic monitoring as 
a replacement for expensive at-sea observers. The FCC legislative 
proposal would create a dedicated regional fishery observer fund in the 
Treasury for each Council. Taking these steps should help strengthen 
important monitoring and data collection measures without increasing 
the cost to the Federal Government.
                   recreational fishing/catch limits
    The work MCFA does on strengthening monitoring programs, helping 
fishing communities, and ensuring healthy ecosystems can only be 
fruitful when we have healthy, sustainable fish stocks. That is why 
MCFA and the FCC have become increasingly concerned about what we are 
hearing from certain corners of the recreational sector. This debate is 
not just limited to the Gulf of Mexico, but is one that is taking place 
to some extent in every region. Mr. Chairman, you've heard a lot from 
recreational fishing groups, boat and engine manufacturers about how 
the MSA is not working for them. The FCC, the MCFA, and the community-
based commercial fishermen we represent are sympathetic to the 
challenges and management dilemmas faced today by the ever-increasing 
number of recreational fishermen. Commercial fishermen have struggled 
through similar situations which resulted in fewer fishing 
opportunities, stringent quotas, and the loss of fishing jobs and 
families. By fighting through those obstacles and working through the 
MSA and Council process, we have rebuilt many stocks, created healthy 
fishing businesses, and sustainably harvested new and underutilized 
species. I would urge the recreational sector to work with the MSA 
process, rather than weakening it by working around it!
    The Modernizing Recreational Fisheries Management Act of 2017 (H.R. 
2023), sponsored by Rep. Graves, is based on the premise that 
recreational and commercial fishing are fundamentally different 
activities and therefore require different management approaches. I 
must point out that the MSA already recognizes not two, but three 
sectors engaged in harvesting fish. The law recognizes that there are 
two sectors involved in commercial enterprises: commercial fishing and 
charter/for-hire fishing. Recreational fishermen, more appropriately 
called private anglers, are the third sector defined by the MSA. The 
FCC legislative proposal clarifies the distinction between these three 
sectors. I mention this because it is important to recognize that the 
MSA is working for the charter or for-hire sector. Indeed, in the red 
snapper fishery, the charter boat sector has received their own 
allocation of the catch limit and are managing that allocation in a way 
that's good for their business.
    To provide private anglers greater access--i.e., more fish--to our 
Nation's marine fisheries, H.R. 2023 allows fishery managers to use 
alternative management measures and effort controls for recreational 
fisheries. Unfortunately, these measures weaken the science-based 
conservation standards and approach of the Magnuson-Stevens Act (MSA). 
And I can tell you from personal experience, effort controls without 
strict catch limits do not work. In New England effort controls led to 
the decimation of the cod stocks. It was thought that as long as 
fishermen used a certain size net that theoretically wouldn't catch 
small fish, fishermen could fish as much and as often as they wanted. 
Our cod fishermen are still paying for that terrible and shortsighted 
mistake. In weakening the conservation standards and eliminating catch 
limits for private anglers, the bill ignores the precautionary 
principle for data-poor stocks; stymies research and innovation by 
making the EFP process unworkable and burdensome; undermines the 10-
year stock rebuilding requirement; and establishes a moratorium on new 
catch share programs, thus taking away from the Councils an important 
tool from the management toolbox. We do support whatever management 
measures work best for recreational fisheries, so long as there is an 
overall catch limit for that sector, just like every other harvesting 
sector.
    Additionally, as the commercial sector has learned, greater 
access--more fish--brings with it greater responsibility and 
accountability. The commercial sector is subject to a high degree of 
accountability measures including licenses, permits, mandatory catch 
reporting, at-sea observers, electronic monitoring, vessel tracking 
devices, mandatory notification of fishing trips, and more. While H.R. 
2023 does include beneficial mandates for cooperative data collection, 
it does not address the fundamental challenge of tracking recreational 
catch and holding the recreational sector accountable for its catch.
    While we agree that recreational, charter, and commercial fishing 
are different activities with different objectives, the end result of 
all three sectors is the same: the harvesting of a public resource. I 
would urge this Subcommittee to ensure that sound science and 
individual accountability are the foundation of any new proposal for 
best management practices for recreational fishing.
    Mr. Chairman, as you are aware, the biggest challenge in managing 
the recreational sector is knowing how much fish is caught on a timely 
basis and when fishing should stop to avoid exceeding the allocation. 
To address this problem, the FCC MSA legislative package includes a 
section that provides Councils the discretionary authority to require 
permits and catch reports from commercial, charter, and recreational 
fishing vessels. I note that the Mid-Atlantic Council has just required 
charter or for-hire vessels that harvest MSA-managed fish in the EEZ to 
obtain permits and report catch electronically within 48 hours of 
completing a fishing trip. Our amendment simply clarifies that the 
Councils can require vessel permits for all three sectors.
    In 2006, Congress attempted to address the lack of data from the 
recreational sector by requiring the Secretary to establish regional 
registries for recreational fishermen. While well intentioned, these 
provisions (Sec. 401(g)) lacked the essential requirement of catch 
reporting and they provided for broad exemptions. We propose to amend 
the current regional registry program for recreational fishermen 
fishing in the EEZ by requiring the reporting of vessel catch and 
landings information on a timely basis. This section also limits the 
exemption from the registry for state licensing programs to those state 
programs that require the reporting of catch.
    Finally, Mr. Chairman, I would point out that licensing 
recreational vessels or anglers is not a new idea. More than a decade 
ago the U.S. Commission on Ocean Policy included in its report to 
President Bush and the Congress a recommendation to license saltwater 
anglers.

                          Recommendation 19-8

        The National Marine Fisheries Service (NMFS), working with 
        states and interstate fisheries commissions, should require 
        that all saltwater anglers obtain licenses to improve in-season 
        data collection on recreational fishing. NMFS should review 
        existing saltwater angler licensing programs to determine which 
        approaches best facilitate the collection of data. Based on 
        this review, existing programs should be modified as needed and 
        used wherever possible, developing new programs only if 
        necessary. Priority should be given to fisheries in which 
        recreational fishing is responsible for a large part of the 
        catch, or in which recreational fishermen regularly exceed 
        their allocated quota.

                              forage fish
    Forage fish are the foundation of our marine ecosystem and having a 
vibrant forage base is essential to maintaining healthy fisheries. We 
cannot expect to rebuild iconic species like cod, haddock, and flounder 
if we do not ensure that there is enough food in the ocean for those 
species to grow and prosper. Our legislative package requires the 
Councils to develop a list of unmanaged forage fish and prohibit the 
expansion or development of new commercial or recreational directed 
fisheries until the Council has had adequate opportunity to assess the 
scientific information and considered the potential impacts to existing 
fisheries, fishing communities, and the marine ecosystem. Science and 
data for new and emerging fisheries is vital, especially in light of 
shifting and mitigating fish stocks. Additionally, management plans 
need to be in place before any new fishery is opened in order to 
advance ecosystems approaches to fisheries management. The provision is 
modeled after the Mid-Atlantic Council's Unmanaged Forage Omnibus 
Amendment.
                   strengthening fishing communities
    When Congress reauthorized the MSA in 2006 it included a new 
section--Section 303A--dealing with limited access privilege programs. 
This section included provisions designed to allow fishing communities 
to participate in those programs. Unfortunately, after more than a 
decade not one fishing community has been able to use these provisions 
to secure an allocation of fish. Our legislative package proposes to 
update and streamline the current, unsuccessful MSA provisions. This is 
an extremely important issue not only to fishing communities in New 
England but also in Alaska and other rural fishing communities on every 
U.S. coast. Over the past 15 years we have seen dozens of groundfish 
boats, based in Maine's fishing communities, sold to other states 
because they lacked adequate quota. We have seen our groundfish history 
literally disappear because our fishing communities did not have a 
community allocation. We have learned the hard way that once fishing 
permits and quota migrate away from our fishing communities, they are 
gone forever.
    To improve the likelihood that fishing communities can actually 
participate in limited access programs, our legislative package 
establishes national standards for the minimum requirements of a 
community sustainability plan, allows a community to submit a plan to 
the Council for approval, and requires that when a Council creates a 
new LAPP, it must consider the needs of fishing communities and provide 
a process for communities to participate in the program.
                            next generation
    Last, I would like to highlight the challenges facing the next 
generation of commercial fishermen. Despite the important role our 
industry plays in our Nation's economy, there is not a single Federal 
program devoted to supporting and developing entry-level commercial 
fishermen. And the time for such a program has never been greater. With 
the average age of U.S. commercial fishermen increasing, we are deeply 
concerned that the graying of America's fleet poses a substantial and 
growing threat to the future of our industry.
    The next generation faces daunting challenges, including high cost 
of entry, financial risks, and limited entry-level opportunities. In 
Maine, as elsewhere, these challenges are reflected in the declining 
number of young people entering the industry and the ongoing attrition 
of fishing rights from remote fishing communities.
    Not long ago, the agriculture industry faced similar challenges and 
worked with Congress to create the Beginning Farmers and Ranchers 
Development Program. The Young Fishermen's Development Act (H.R. 2079), 
championed by Congressman Don Young, is modeled after this successful 
program and aims to create a national program exclusively dedicated to 
assisting, educating, and training the next generation of commercial 
fishermen. Specifically, this innovative program would provide 
competitive grants to foster collaborative state, tribal, regional and 
local partnerships; promote mentorship opportunities for retiring 
fishermen and vessel owners; and provide support for regional training 
and education programs focused on accountable, sustainable fishing and 
sound business practices.
    This bill is an important part of ensuring fishermen in Maine and 
other regions have the tools and education they need to enter into a 
successful and fulfilling career. It would also ensure American's 
fishing communities continue to thrive for future generations by 
supporting economic opportunity, jobs, and food security while 
preserving a proud heritage and way of life. I want to thank 
Congressman Young again for introducing and championing this effort, 
and I would urge the Subcommittee to give its full consideration to 
this bill.

                                 *****

    In closing, I would again like to sincerely thank the Chairman and 
this Subcommittee for holding this hearing. I am happy to answer any 
questions or provide more information or clarification, and look 
forward to working with the members of this Subcommittee and your staff 
on MSA reauthorization.

                                 ______
                                 

    Mr. Young. Thank you, Mr. Martens.
    We now recognize Mr. Oliver.
    Welcome.

     STATEMENT OF CHRIS OLIVER, DIRECTOR, NOAA FISHERIES, 
                         WASHINGTON, DC

    Mr. Oliver. Thank you, Mr. Chairman, and good morning. Good 
to see you, Mr. Young, Ranking Member Huffman, and other 
members of the Subcommittee. Thank you for the opportunity to 
testify. My name is Chris Oliver, and I am the fairly new NOAA 
Assistant Administrator for Fisheries, otherwise known as 
National Marine Fisheries Service.
    In my previous role as Executive Director in the North 
Pacific Fishery Management Council, I participated in both the 
1996 as well as the 2006 reauthorization processes. As I said 
in a recent hearing on the Senate side, I am wearing a bit of a 
different hat today, and this Administration has not yet taken 
formal positions on the bills that have been introduced. But my 
fundamental perspectives remain built upon the outstanding 
success of the Magnuson-Stevens Act, and the successes that we 
enjoyed in the North Pacific through that Act.
    In partnership with Councils, Commissions, and other 
stakeholders, we have effectively ended overfishing in this 
country, and are rebuilding fish stocks across the board. Even 
though we have not taken formal positions as an Administration, 
I will make some general comments relative to the legislative 
concepts which are currently under consideration in the various 
bills.
    While we do have a successful construct for fisheries under 
the Magnuson-Stevens Act, we have challenges in some of our 
fisheries, particularly those which lack robust stock 
assessments or which lack real-time catch accounting or data 
collection methods. Based on my North Pacific experience, I 
continue to believe that annual catch limits are a cornerstone 
of sustainable management, but they do present significant 
management challenges for some of these fisheries. I have gone 
on record in previous hearings as supportive of some degree of 
flexibility in certain situations, as long as it does not 
result in overfishing and does not compromise the long-term 
sustainability of our resources.
    I want to be clear about that. I do not support doing away 
with annual catch limits and I do not support doing away with 
rebuilding requirements. But I do believe additional 
flexibility and how we apply annual catch limits and 
accountability measures in rebuilding schedules could help 
address some of the issues we are dealing with.
    Many of the bills under consideration address the issue of 
data collection and the need for improved data collection. This 
is entirely consistent with ongoing efforts by the agency in 
collaboration with the states and the Councils, the 
Commissions, and other stakeholders. We are aggressively 
exploring the improvement of data collection in our own house, 
including the expedited certification of state data collection 
programs, which I have made a renewed priority.
    However, I would caution that improved data collection in 
and of itself will not necessarily resolve the underlying 
problem in some of these fisheries. And snapper may be an 
example of that, depending on the data that we get with the 
improved data collection system.
    We face formidable challenges managing recovering stocks to 
benefit both commercial and recreational user groups who have 
fundamentally different goals and objectives, and who are 
seeing increased fish interactions due to strong management 
measures that have improved historically overfished 
populations. Snapper is a prime example.
    I am committed to working with you on bills put forth by 
this Subcommittee to ensure that ACL's accountability measures, 
rebuilding measures, and other aspects are working, again, 
while predicting long-term sustainability that we enjoy.
    One of the most significant challenges we face is striking 
a balance between commercial and recreational fishing. 
Legislative provisions which require re-examination of 
allocations are consistent with existing agency policy 
directives, which provide direction to the Regional Councils 
for evaluating all fisheries allocations. I can tell you in my 
experience we have gone through many allocations in the North 
Pacific. Because it is a very deliberative, stakeholder-driven 
process, it can take time and it can result in incremental 
changes.
    We are working to explore ways to address this growing 
challenge in ways that accommodate the differing needs among 
regions, and look forward to working with you on that issue.
    We have supported the Gulf Council's efforts to develop a 
Gulf-wide management strategy which would delegate additional 
authority to the states under certain conditions, and we look 
forward to working with the states, various stakeholders, and 
Congress that provides a solution for reasonable fishing 
opportunities for recreational fisheries without compromising 
our long-term sustainability.
    Regarding provisions which are aimed at clarifying 
conflicting statutes, we are currently engaged in a broad 
initiative across the agencies in terms of agency and 
regulatory reform under the auspices of various executive 
orders, which is also consistent with this general goal.
    Finally, I want to underscore the value of exempted fishing 
permits and developing some of our most important management 
programs around the country.
    I am running out of time, so I will just say that, in 
conclusion, the current Act works very well for most fisheries, 
but there may be workable opportunities to provide additional 
flexibility to more effectively manage some of our fisheries 
and increase fishing opportunities without throwing out our 
basic tenets of sustainability.
    Thank you, Mr. Chairman.

    [The prepared statement of Mr. Oliver follows:]
Prepared Statement of Chris W. Oliver, Assistant Administrator for the 
  National Marine Fisheries Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce
                              introduction
    Good afternoon, Chairman Lamborn, Ranking Member Huffman, and 
members of the Subcommittee. I appreciate the opportunity to speak with 
you today about the Magnuson-Stevens Fishery Conservation and 
Management Act (Magnuson-Stevens Act). My name is Chris Oliver and I am 
the Assistant Administrator for the National Oceanic and Atmospheric 
Administration's (NOAA) National Marine Fisheries Service (NMFS) in the 
Department of Commerce. From daily weather forecasts, severe storm 
warnings, and climate monitoring to fishery management, coastal 
restoration, and supporting marine commerce, NOAA's products and 
services support economic vitality and affect more than one-third of 
America's gross domestic product. NOAA's dedicated scientists use 
cutting-edge research and high-tech instrumentation to provide 
citizens, planners, emergency managers, and other decision makers with 
reliable information they need when they need it.
    Today, I will describe the agency's work under the Magnuson-Stevens 
Act, which sets forth standards for conservation, management, and 
sustainable use of our Nation's fisheries resources.
                progress under the magnuson-stevens act
    The Magnuson-Stevens Act provides the Nation with a very successful 
fisheries management construct. U.S. fisheries are among the world's 
largest and most sustainable. For 40 years, Magnuson-Stevens has 
demonstrated that a dynamic science-based management process is 
fundamental for sustainably managing fisheries. The goal of fisheries 
management is to achieve fisheries that are environmentally, 
economically, and recreationally sustainable. In partnership with the 
Regional Fishery Management Councils (Councils), interstate fishery 
commissions, and our stakeholders, and driven by the Magnuson-Stevens 
Act, the agency has effectively ended overfishing and is rebuilding 
domestic fish stocks. As of December 31, 2016, 91 percent of stocks for 
which we have assessments are not subject to overfishing and 84 percent 
are not overfished.\1\ By preventing overfishing and rebuilding stocks, 
we are strengthening the value of fisheries to the economy and 
communities that depend on them, and also ensuring a sustainable supply 
of seafood for the Nation in the future.
---------------------------------------------------------------------------
    \1\ See Status of the Stocks 2016. NMFS Office of Sustainable 
Fisheries, available at: http://www.nmfs.noaa.gov/sfa/fisheries_eco/
status_of_fisheries/archive/2016/status-of-stocks-2016-web.pdf.
---------------------------------------------------------------------------
    Our most recent data show that after adjusting for inflation the 
landed volume and the value of commercial U.S. wild-caught fisheries 
remained near record highs. U.S. commercial fishermen landed more than 
9.7 billion pounds of seafood valued at $5.2 billion in 2015.\2\ The 
seafood industry--harvesters, seafood processors and dealers, seafood 
wholesalers and seafood retailers, including imports and multiplier 
effects--generated an estimated $208 billion in sales impacts and 
supported 1.6 million jobs in 2015, the most recent year for which 
economic impact numbers are available.
---------------------------------------------------------------------------
    \2\ See NOAA Annual Commercial Fisheries Landings Data base, 
available at http://www.st.nmfs.noaa.gov/commercial-fisheries/
commercial-landings/annual-landings/index.
---------------------------------------------------------------------------
    Saltwater recreational fishing is among the Nation's favorite 
pastimes and is a major contributor to the U.S. economy at all levels. 
In 2015, the Nation's 9 million saltwater recreational anglers took 
more than 60 million fishing trips and spent $28.7 billion on fishing 
trips and durable fishing related equipment while spending time 
outdoors with friends and family. Their expenditures drove $63 billion 
in sales impacts, a 5 percent increase from 2014, supported 439,000 
jobs, and contributed $36 billion to the U.S. gross domestic 
product.\3\ In partnership with the recreational fishing community, 
NOAA Fisheries is committed to ensuring abundant and enduring saltwater 
recreational fishing opportunities now and into the future. To this 
end, I am pleased to announce that NOAA Fisheries is partnering with 
the Atlantic States Marine Fisheries Commission to host a national 
summit on saltwater recreational fisheries in March 2018 to chart a 
course toward future success.
---------------------------------------------------------------------------
    \3\ See Fisheries Economics of the U.S. 2015. NMFS Office of 
Science & Technology, available at: https://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2015/index.
---------------------------------------------------------------------------
    Marine aquaculture production totaled 90 million pounds valued at 
$3.8 million in 2014, with the largest regional producer being the 
Atlantic, which represents almost 50 percent of the total value.\4\ 
Aquaculture production has tremendous untapped potential and NOAA will 
be working to expand aquaculture opportunities, a key priority for 
Secretary Ross.
---------------------------------------------------------------------------
    \4\ See Fisheries of the United States, 2015. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
commercial-fisheries/fus/fus15/index.
---------------------------------------------------------------------------
    Marine fish and fisheries--such as tropical tunas in the Western 
and Central Pacific, salmon in the Pacific Northwest, halibut and 
groundfish in Alaska, cod in New England and red snapper in the Gulf of 
Mexico--are vital to the prosperity and cultural identity of coastal 
communities in the United States. U.S. fisheries play an enormous role 
in the U.S. economy. In Alaska, where I have lived for the last 27 
years, Dutch Harbor leads the Nation for the 19th consecutive year as 
the port with the highest volume of seafood landed (787 million pounds 
valued at $218 million).\5\
---------------------------------------------------------------------------
    \5\ See Fisheries of the United States, 2015. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
commercial-fisheries/fus/fus15/index.
---------------------------------------------------------------------------
    Around the country, commercial fishing supports fishermen, 
contributes to coastal communities and businesses, and provides 
Americans with a valuable source of local, sustainable, and healthy 
food. Recreational and subsistence fishing provides food for many 
individuals, families, and communities; is an important outdoor family 
activity; and is a critical economic driver of local and regional 
economies, as well as a major contributor to the national economy. 
Subsistence and ceremonial fishing also provides an essential food 
source and has deep cultural significance for indigenous peoples in the 
Pacific Islands and Alaska and for many tribes on the West Coast.
    Under the Magnuson-Stevens Act, the United States has many 
effective tools to apply in marine fisheries management. The 
advancement of our science, management, and enforcement tools has 
resulted in improved sustainability of fisheries and greater stability 
for industry. Yet, as we look to the future, we must continue seeking 
opportunities to further improve our management system. Our progress 
has not come without costs. For example, fishermen, fishing 
communities, and the Councils have had to make difficult decisions and 
absorb the near-term costs of conservation in exchange for long-term 
economic and biological sustainability.
         magnuson-stevens act flexibility and regional approach
    The Magnuson-Stevens Act created broad goals for U.S. fisheries 
management and a unique, highly participatory management structure 
centered on the Councils. Given my past work as the Executive Director 
of the North Pacific Fishery Management Council, I can attest to the 
value of the Regional Fishery Management Council system established 
through the Magnuson-Stevens Act. This structure encourages a 
collaborative, ``bottom up'' process where fishermen, other fishery 
stakeholders, affected states, tribal governments, and the Federal 
Government all provide input and influence decisions about how to 
manage U.S. fisheries.
    Flexibility to determine what approach will be most effective for 
their fisheries is a fundamental element in the success of the Council 
system. The Councils can choose from a variety of approaches and tools 
to manage fish stocks and meet the mandates of the Magnuson-Stevens 
Act--e.g., catch limits, catch shares or other allocation mechanisms, 
area closures for habitat or protected species considerations, and gear 
restrictions. These measures are submitted to the Secretary of Commerce 
for approval and are implemented by NMFS.
    The 2007 Magnuson-Stevens Act reauthorization provided more 
explicitly for market-based fishery management through Limited Access 
Privilege Programs and addressed the need to improve the science used 
to inform fisheries management. Limited Access Privilege Programs, 
while not appropriate for all fisheries, are an important tool in our 
collective toolbox, and the current Act allows for development of such 
programs to be tailored to the specific needs of each fishery.
    Fulfilling one of the Magnuson-Stevens Act's goals--to provide the 
Nation with sources of domestic seafood--also creates stable domestic 
fishing and processing jobs. Today--more than ever--U.S. consumers are 
seeking options for healthy, safe, sustainable, and local seafood. 
Therefore, this goal has even greater purpose now than when the 
original Act was passed. Fishing communities rely on fishing-related 
jobs, as well as the non-commercial and cultural benefits derived from 
these resources. Marine fisheries are the lifeblood of many coastal 
communities around our Nation. Communities, fishermen, processors, and 
various fishing dependent industries rely not only on today's catch, 
but also on the predictability of future catches.
    Critical to our success is the Magnuson-Stevens Act feedback loop 
that ensures accountability in our management system. Councils are able 
to adapt and respond to changing conditions in their fisheries within 
the framework of preventing overfishing and rebuilding stocks. While 
this can be challenging, a shared understanding of our goals and 
requirements to respond when the data indicate it is necessary are 
hallmarks of our well-functioning system.
    Under the standards set forth in the Magnuson-Stevens Act the 
Nation has made great strides in maintaining more stocks at 
biologically sustainable levels, ending overfishing, rebuilding 
overfished stocks, building a sustainable future for our fishing-
dependent communities, and providing more domestic options for U.S. 
seafood consumers in a market dominated by imports. Thanks in large 
part to the strengthened Magnuson-Stevens Act and the sacrifices and 
investment in conservation and science-based management made by fishing 
communities across the country, the condition of many of our most 
economically important fish stocks has improved steadily over the past 
decade.
                           regional successes
    There are many examples of what fishermen, scientists, and managers 
can do by working together to bring back a resource that once was in 
trouble.
    Atlantic sea scallops provide one example of rebuilding success. In 
the early 1990s, the abundance of Atlantic sea scallops was near record 
lows and the fishing mortality rate was at a record high. Fishery 
managers implemented a number of measures to allow the stock to 
recover, including an innovative area management system. The stock was 
declared rebuilt in 2001. In real terms, gross revenues in New England 
increased more than sixfold from $44 million in 1998 to $287 million in 
2015, making New Bedford the Nation's top port by value of landings 
since 2000.\6\
---------------------------------------------------------------------------
    \6\ See Fisheries Economics of the U.S. 2015. NMFS Office of 
Science & Technology, available at: https://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2015/index.
---------------------------------------------------------------------------
    In the Pacific Islands Region, NMFS, the Western Pacific Fishery 
Management Council, the state of Hawaii, and fishing communities have 
ended overfishing of the Hawaiian archipelago's deep-water bottomfish 
complex--a culturally significant grouping of seven species of snapper 
and grouper. This has enabled NMFS to increase annual catch limits for 
these stocks for both commercial and recreational fishermen and ensure 
these fish are available year-round.
    On the West Coast, NMFS and the Pacific Fishery Management Council, 
the fishing industry, recreational anglers, and other partners have 
successfully rebuilt a number of once overfished stocks, including coho 
salmon, lingcod, Pacific whiting, widow rockfish, canary rockfish, and 
petrale sole. These and other conservation gains, including 
implementation of the West Coast groundfish trawl rationalization 
program, enabled NMFS to increase catch limits for abundant West Coast 
groundfish species that co-occur with groundfish species in rebuilding 
plans.
    In the Southeast Region, NMFS, the Gulf of Mexico and South 
Atlantic Fishery Management Councils, fishing industries, recreational 
anglers and other partners have successfully rebuilt a number of once 
overfished stocks. This includes gag, red grouper and king mackerel in 
the Gulf of Mexico and black sea bass in the South Atlantic. These and 
other conservation gains enabled NMFS to increase catch limits for a 
number of stocks or stock complexes and eliminate or reduce two fixed 
seasonal closures.
    I'm most proud of the accomplishments in Alaska where our 
management decisions have led us to be widely recognized as one of the 
most successfully managed fisheries in the world. In 2015, landings 
revenue totaled about $1.7 billion, a 25 percent increase from 2006 in 
real terms after adjusting for inflation.\7\
---------------------------------------------------------------------------
    \7\ See Fisheries Economics of the U.S. 2015. NMFS Office of 
Science & Technology, available at: https://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2015/index.
---------------------------------------------------------------------------
              remaining challenges--looking to the future
    Amid these successes, some critical challenges remain. We are 
working hard within the Administration and coordinating closely with 
our Council partners to address these concerns and are committed to 
working with Congress on legislative solutions where needed.
    One of our current challenges is maximizing sustainable harvest. 
For example, while our West Coast groundfish management has rebuilt 
several important stocks, in recent years fishermen are leaving a 
substantial amount of the available harvest of some groundfish species 
in the water due to regulatory or bycatch species constraints. In this 
fishery and others, we must find ways to maximize allowable harvests 
while still protecting vulnerable non-target species.
    Annual catch limits (ACLs) have been and remain an effective tool 
in ending overfishing and rebuilding fish stocks. However, implementing 
them and associated accountability measures has been challenging in 
some fisheries--particularly where data are scarce and where commercial 
and recreational user groups have fundamentally different goals and 
objectives. For example, setting effective ACLs for species in coral 
reef ecosystems in the Pacific Islands and Caribbean regions, is one of 
our biggest challenges due to lack of data regarding stock status and 
fishing harvests. Calls for increased ACL flexibility are also coming 
from some recreational fisheries along the Atlantic and Gulf coasts. In 
these fisheries, total harvest data can be much more difficult to 
collect and report in a timely fashion than in most commercial 
fisheries. NMFS is exploring ways to improve data collection and apply 
science-based and innovative management mechanisms in ways that provide 
flexibility and while also rebuilding fish stocks.
    Stock assessments provide the fundamental information necessary to 
successfully manage sustainable fisheries. Preservation and enhancement 
of this science is imperative as we look to the future of U.S. 
fisheries and the seafood they provide the Nation. Independent of 
Magnuson-Stevens Act reauthorization, we are re-examining our stock 
assessment and data collection systems in close cooperation with 
states, Regional Fisheries Management Councils, and all involved 
stakeholder groups. NMFS has already made a substantial effort to 
monitor recreational fisheries and incorporate data from these 
fisheries into stock assessments. We are applying new and improved 
methods for estimating total catch by the millions of recreational 
saltwater anglers, but more needs to be done. Strengthening our 
partnerships to conduct efficient and cost-effective monitoring will be 
an important component of that effort. As NMFS assesses the most 
effective and efficient ways to support sustainable fisheries 
management and fishing communities, there also may be a need to refocus 
limited monetary and staff resources on core, mission critical 
activities such as basic stock assessment and catch accounting.
    Improvements in our regulatory processes may also be possible, not 
only in the number of specific regulations we promulgate, but in the 
more general regulatory processes under which we operate. For example, 
the Magnuson-Stevens Act intersects with a number of other important 
statutes including the National Environmental Protection Act, the 
Endangered Species Act, and the Marine Mammal Protection Act, which 
establish other core responsibilities for the agency. There may be 
opportunities for more efficient and consistent mechanisms to meet 
these multiple statutory mandates. NMFS also recently sought public 
comment on the efficacy and effectiveness of the current regulatory 
process, including the application of Federal regulations under these 
statutes and to aquaculture.
    Another priority is expanding U.S. seafood production and exports. 
America's seafood industry is world-renowned and our fisheries set a 
global gold standard for sustainability. However, the majority of the 
seafood we consume is imported. Through maintenance or enhancement of 
wild-stock harvests and expanded aquaculture production, we can 
position the Nation to make inroads on that seafood trade deficit. We 
should also pursue further efforts to ensure a level playing field for 
U.S. producers by ensuring that fish imports are from well-managed and 
monitored fisheries. Efforts are underway to detect and address IUU 
fishing and marine mammal bycatch in excess of U.S. standards. We must 
take advantage of opportunities to streamline regulatory processes 
related to aquaculture and to that end, NMFS recently entered into a 
Memorandum of Understanding with six other Federal agencies related to 
permitting offshore aquaculture in Federal waters of the Gulf of 
Mexico.
    We face formidable challenges managing recovering stocks to benefit 
both commercial and recreational user groups with fundamentally 
different goals and objectives, and who are experiencing increased fish 
interactions due to the strong management measures that have improved 
historically overfished populations. Together with our partners, it is 
essential that we continue to explore innovative, science-based 
management approaches and regional management tools. We must remain 
dedicated to exploring ways to maximize economic opportunities from 
wild-caught fisheries for commercial and recreational fishermen, 
processors, and communities. We are committed to working with Congress 
on the bills put forth by this Subcommittee, to ensure that annual 
catch limits, accountability measures, stock rebuilding, and other 
aspects of our management construct are working, while protecting the 
overall, long-term conservation and sustainability of the Nation's 
fishery resources.
    Additionally, one of the most significant fishery management 
challenges we face is striking a balance between commercial and 
recreational fishing. Looking back over 40 years, this management 
challenge is not unique to the Gulf of Mexico. We are working closely 
with stakeholders to explore ways to address this growing challenge in 
ways that accommodate the differing needs among regions, and look 
forward to hearing Congress' thoughts on this issue.
                               conclusion
    We support legislative opportunities to provide flexibility in 
applying annual catch limits, improve our science, and create 
innovative management approaches to rebuild more fish stocks. We 
believe that legislation intended to address region-specific problems 
should be tailored such that it does not impact or constrain fisheries 
management in other regions of the United States and empowers Regional 
Fishery Management Councils to meet the needs of their fisheries. We 
look forward to working with Congress to ensure that any potential 
legislation streamlines current processes and is consistent with 
existing requirements under other governing statues (e.g. National 
Environmental Policy Act, Endangered Species Act, etc.). NOAA Fisheries 
stands ready to work with the Congress to craft a reauthorization bill 
that addresses current fishery management challenges and ensures the 
Nation's fisheries are able to meet the needs of both current and 
future generations.

                                 ______
                                 

    Mr. Young. Thank you, Mr. Oliver. I appreciate your input 
and your experience.
    Ms. Boggs, may I ask you a question? Are you related to 
Lindy Boggs?
    Ms. Boggs. No, sir, not that I am aware of.
    Mr. Young. OK. I was just curious about that. She was a 
great Congresslady. I served with her and we have a close 
relation as far as Alaska and Louisiana and the Boggs Visitor 
Center. So I am glad you are not, but I wish you were. Thank 
you.
    Ms. Boggs. Thank you, sir.

   STATEMENT OF SUSAN BOGGS, CO-OWNER, REEL SURPRISE CHARTER 
                 FISHING, ORANGE BEACH, ALABAMA

    Ms. Boggs. Good morning, Mr. Chairman and members of the 
Subcommittee. My name is Susan Boggs and I am from Orange 
Beach, Alabama. My family and I enjoy recreational fishing, and 
we earn a living taking anglers who do not have their own boats 
out to catch fish in Federal waters, as well as supplying boat 
owners with slips and fuel so that they could pursue their 
passion for fishing.
    We provide access to recreational anglers who either cannot 
afford or choose not to bring their own boats. Our customers 
come from all over the country and are a driving force for our 
tourism-based coastal economies. My family's livelihood, and 
the livelihood of my employees, depend on access to our 
fisheries based on sound science. Going back to the bad old 
days of low population sizes would cripple our business and 
deprive my family and our customers of our favorite pastime.
    There are several species of fish that are critical to the 
charter-for-hire sector in the Gulf of Mexico, but perhaps no 
more than the red snapper. Since 2007, when annual catch limits 
became a requirement, the recreational sector's quota for red 
snapper has tripled. The Magnuson-Stevens Fishery Act has 
worked for us, including authorizing pilot programs to try new 
management approaches that substantially increase our fishing 
seasons without fishing more than our sector's allocation.
    Specifically, in 2014 and 2015, a total of 19 head boats 
participated in the Gulf Headboat Collaborative fishing permit, 
which provided access to 200,000 recreational anglers from 48 
states. We oppose the provisions in some of these bills that 
would hamstring the EFP process.
    Real-time data collection was a key component of the EFP, 
and effective. For example, my husband returned from fishing 
late one afternoon, left the boat, and drove 3 miles to the 
Fairfield Inn for a scoping hearing. When he arrived at the 
meeting, a law enforcement official commented on his catch that 
day. That is how quickly that data was transferred and 
received.
    Amending MSA is not the answer to the issues that we face 
in the Gulf of Mexico. It is not fair to waive standards with 
respect to private anglers who have the fishing power to drive 
down the population of many of the fish we rely on. If the 
current management system is not working for private anglers, 
they can use the Council process, as we are, to pursue 
solutions.
    The commercial fishery and the charter industry are able to 
operate our businesses with some certainty, while fishing 
within an ACL. These two groups, which make our living from the 
fishery, came to the table with ideas and plans to fix our 
management systems.
    The typical private angler has a whole life outside the 
fishery, which forces them to rely on outside groups and the 
states to look out after their best interests. Instead of 
coming up with a plan that works within MSA, all they have done 
is blame someone else or say, ``Just give us control,'' without 
any details on how they would do it better.
    H.R. 200 and H.R. 2023 would increase the risk of 
overfishing by waiving the requirements for annual catch 
limits. Removing MSA section 407 entirely would remove 
backstops against recreational quota overages. Extending state 
management boundaries for red snapper to 9 miles would increase 
fishing effort during state seasons. Longer state seasons, such 
as 60 days in Alabama, played a major role in shortening the 
Federal season.
    Some anglers assert that recreational fishing cannot 
function under quota management, but they do not explain how 
else overfishing would be prevented. They say, ``Trust us,'' 
but don't provide the verification.
    While we appreciate the interest and better data collection 
in the bills being discussed, the fleet is already working with 
the Gulf Council to improve it, and the states are pursuing 
their own programs, which are beginning to be certified by 
NMFS. Managing the red snapper fishery in the Gulf of Mexico is 
complicated enough as it is. Extending the states' red snapper 
management zone out to the depth/distance proposed under H.R. 
3588 would be difficult to enforce.
    These bills lack provisions to ensure that the private 
angler sector stays within its quota. This is a major concern, 
since this sector has consistently exceeded its quota. The 
charter-for-hire sector opposes any changes to MSA that would 
jeopardize the sustainability of the fishery.
    Instead, I suggest that a Federal red snapper angler 
license would improve the management of this fishery and lead 
to longer seasons. Even a $10 license fee would help fund 
better data on the number of anglers targeting the species, 
stock assessments, and better landings data, including real-
time reporting from private anglers using currently available 
technology.
    Thank you again for the privilege of testifying before your 
Committee, and I look forward to answering any questions.

    [The prepared statement of Ms. Boggs follows:]
 Prepared Statement of Susan Boggs, Co-Owner of Reel Surprise Charter 
                                Fishing
    Good morning Mr. Chairman and members of the Committee. Thank you 
for giving me the opportunity to testify before you today on the 
important issue of fisheries management in the Gulf of Mexico.
    My name is Susan Boggs and I am from Orange Beach, Alabama. My 
family and I enjoy recreational fishing and we earn a living taking 
anglers who don't have their own boats out to catch fish in Federal 
waters, as well as supplying boat owners with slips and fuel so that 
they can pursue their passion for fishing.
    Specifically, my husband and I own SanRoc Cay Marina in Orange 
Beach. Our marina is a full-service marina with 50 boat slips, a fuel 
dock that sells approximately 500,000 gallons of fuel per year, and a 
charter office that books for 24 inshore and offshore charter boats 
(including 3 of our own). My family's livelihood and the livelihood of 
my employees depends on access to our fisheries based on sound science. 
Going back to the bad old days of low population sizes would cripple 
our business and deprive my family and our customers of our favorite 
pastime.
    The three vessels we own carry 10-35 passengers. We offer walk-on 
trips or shared expense trips that charge a per person fee; the 
majority are 6-hour trips for under $100. We provide access to 
recreational anglers who either cannot afford or choose not to bring 
their own boats. Our customers come from all over the country and are a 
driving force for tourism-based coastal economies.
    I am here today to tell you that MSA is working. This law was 
written to bring fisheries back from collapse, to ensure long-term 
sustainability for future generations, and to provide a conduit for 
stakeholders to be a part of the management process. There are several 
species of fish that are critical to the charter/for-hire sector in the 
Gulf of Mexico, but perhaps none more than red snapper. Since 2007, 
when annual catch limits became a requirement, the recreational 
sector's quota for red snapper has tripled. MSA has worked for us.
    You may wonder why charter/for-hire participants are mostly 
satisfied with the MSA, while private angling groups complain mightily 
about it. I can speak for our sector in saying that the MSA has given 
us the tools to pursue pilot programs to try new management approaches 
that can increase our access to 365 days.
    Specifically, in 2014 and 2015 a total of 19 head boats had the 
opportunity to participate in the Gulf Headboat Collaborative Exempted 
Fishing Permit. These participants invested approximately $2,500 of 
their money in a Vessel Monitoring System plus the monthly fee for 
monitoring. These participants faced much criticism from those docked 
around them. During this 2-year EFP, these boats provided access to 
over 200,000 recreational anglers from 48 states; 120,000 of them 
fished for gag grouper or red snapper. Headboat discards decreased by 
approximately half. We proved that we could fish and stay within an 
allocation and that it would give us the flexibility to operate our 
businesses in a safe and profitable manner. As you can imagine, we 
oppose the provisions in some of the bills before the Committee today 
that would hamstring the EFP process.
    We have been asked for years to participate in the Gulf Council's 
fisheries management process, to come up with solutions. These head 
boats found a solution that allows them to operate their businesses 
while increasing accountability and sustainability.
    The Headboat Collaborative even won a 2016 Bronze Medal, the 
highest honor award granted by the Under Secretary of Commerce for 
Ocean and Atmosphere. National Marine Fisheries Service (NMFS) was 
awarded this medal for developing the program, which was the first of 
its kind in the recreational fishery, as well as the first catch share 
program to use a real-time landings monitoring system for the 
recreational fishery in the southeastern United States.
    In general, amending MSA is not the answer to the issues that we 
face in the Gulf of Mexico. Through the Council process we have made 
significant progress that holds our industry to higher standards along 
with separating our sector from purely private anglers to ensure we are 
not overfishing. We don't consider it fair to waive standards with 
respect to private anglers, who have the fishing power to drive down 
the population of many of the fish we all rely on. If the current 
private angler management is not working for that subsector, they can 
use the Council process, as we are, to pursue solutions. That is even 
more critical now, when the additional 39 days added to the private 
angler season will likely generate huge overages and the agency will 
have to figure out how to deal with that problem.
    Those in the commercial fishery started working on solutions over a 
decade ago. Those of us in the charter industry started a few years 
later and are well on our way to fishing within an ACL while being able 
to operate a business with some certainty. These two components of the 
fishery are accountable, sustainable, and have a future. There is one 
difference between these groups and the private recreational anglers 
which have found themselves in an overly restrictive fishery. These two 
groups, which make our living from the fishery, came to the table with 
ideas and plans on how to fix it. Joe Fisherman out there has not been 
able to do that, because he has a whole life outside the fishery. Jobs, 
families, soccer games and etc. have forced him to rely on outside 
groups and the states to look out after his best interests. After over 
a decade, instead of doing anything to help him, instead of coming up 
with a plan that is honest, all they have been able to do is point 
fingers or say just ``give us control''--this all without any details 
of how they would do it better.
    The proposed changes under H.R. 200 (Strengthening Fishing 
Communities and Increasing Flexibility in Fisheries Management Act) and 
H.R. 2023 (Modernizing Recreational Fisheries Management Act of 2017) 
create a risk of overfishing by waiving the requirements for Annual 
Catch Limits. To remove Section 407 entirely would remove backstops 
against recreational quota overages and allocations that would reflect 
such overages. Extending state management boundaries for red snapper to 
9 miles adds an unknown amount of increased fishing effort during the 
longer state non-compliant seasons for private anglers, resulting in a 
decreased Federal season that satisfies no one and jeopardizes the 
health of the fishery. While the 3-day Federal season satisfied no one, 
we should acknowledge that longer seasons in state waters (such as 60 
days in Alabama) played a role in the 3-day season.
    Data collection is often at the forefront of red snapper 
discussions, but it is hard to see how the bills up for discussion 
actually improve data. The draft bill and H.R. 200 instruct NMFS, the 
states, and recreational fishermen to simply ``develop and implement a 
real-time reporting and data collection program for the Gulf of Mexico 
red snapper fishery using available technology.'' H.R. 3588 requires 
the ``development and implementation of voluntary electronic reporting 
applications for use by the private anglers.'' The data collection 
requirements in H.R. 2023 are weak and have no standards. None of the 
bills mandate data collection that will improve the management of this 
fishery. While we appreciate the interest in better data collection, 
the fleet is already working with the Gulf Council to improve it, and 
the states are pursuing their own programs, which are beginning to be 
certified by NMFS.
    H.R. 2023 (Modernizing Recreational Fisheries Management Act) also 
makes exceptions to Annual Catch Limits. Some anglers assert that 
recreational fishing cannot function under quota management--but they 
do not explain how else overfishing would be prevented. Stocks that are 
overfished but not undergoing overfishing still need ACLs to make sure 
they rebound. Stocks for which ``fishing mortality is below the fishing 
mortality target,'' but where there is no recent peer-reviewed stock 
assessment, still need to have ACLs to make sure we don't damage a 
stock that may be undergoing changes. Again, the MSA was put in place 
because we, in America, do not manage our fisheries as a free-for-all, 
and that is why we have thriving industries dependent on science-based 
management. That is why we are able to have a recreational fishing 
industry and all of the enjoyment and economic opportunity that it 
entails. That is why we have sources of fresh, healthy, wild seafood 
and an increasingly important hospitality industry that depends on it--
especially on the Gulf Coast.
    Managing the red snapper fishery in the Gulf of Mexico is 
complicated enough as it is. To extend the red snapper management zone 
out to depth/distance as proposed under H.R. 3588 (RED SNAPPER Act), 
would be difficult to enforce. The private recreational component wants 
state management of their portion of the Gulf Red Snapper fishery. 
After speaking with commercial fishermen and other charter-for-hire 
owners and captains, however, I can attest that the vast majority of 
them prefer to remain under Federal management and the security, 
stability, accountability and opportunity for stakeholder involvement 
that comes with it.
    A suggestion that I would offer to this Committee that would have a 
meaningful impact on the management of this fishery would be a Federal 
Red Snapper angler license. No one can tell you how many anglers target 
Red Snapper in the Gulf of Mexico. This license does not have to be 
cost prohibitive. Even a $10 fee would provide better data on the 
number of anglers targeting this species and could generate millions of 
dollars that could be used for cost recovery, stock assessments and 
better landings data which should include more real-time reporting 
using current technology from private anglers.
    In contrast to the chronic lack of information we have with regard 
to the number of anglers on the water and what they are catching, the 
commercial and for-hire sectors have ever-improving systems to keep 
tabs on what we catch. On January 1, 2007, Reef Fish Amendment 26 was 
implemented and established an Individual Fishing Quota (IFQ) for the 
commercial red snapper fishery, which requires real-time reporting of 
catch. Currently, the Modifications to Charter Vessels and Headboat 
Reporting Requirements is awaiting approval by the Secretary of 
Commerce. When implemented, these modifications would require charter 
vessels and headboats to submit fishing records to NMFS for each trip 
prior to off-loading fish. This is another example that the Council 
process does work, especially when real stakeholders are involved and 
engaged.
    I share the desire to give private recreational anglers more 
flexibility and certainty in their fishing opportunities. The proposed 
bills lack provisions to ensure that the private recreational sector 
stays within their quota. This is a major concern since this sector has 
exceeded its quota 9 of the last 12 years. I cannot support any changes 
to MSA that would jeopardize the sustainability of the fishery and 
undermine the accomplishments of the commercial and charter-for-hire 
sectors.
    I would like to thank you again for the privilege of testifying 
before your Committee, and I look forward to answering your questions.
Questions Submitted for the Record by Rep. Hice to Ms. Susan Boggs, Co-
                  Owner, Reel Surprise Charter Fishing
    Question 1. I see in your testimony that you suggest establishing a 
Federal fisheries licensing system to manage recreational anglers in 
Federal waters. Are you advocating that a new division be added to NOAA 
to manage such an undertaking? How much would this cost? And how would 
this expansion of the Federal bureaucracy benefit recreational anglers?

    Answer. Thank you for your question. Reliable catch data is 
critical to monitoring the health of our fish stocks and setting catch 
limits at maximum sustainable levels. The U.S. Fish & Wildlife Service 
recently tracked over 6,000,000 saltwater fishing licenses having been 
issued in the five Gulf of Mexico states; however, it is unknown how 
many of those anglers fish offshore for reef fish. Not knowing which 
recreational fishermen are targeting reef fish presents a barrier to 
accurately sampling daily catches and on the ability to predict catch 
rates for the upcoming year. For example, the recreational component of 
the fishery has overfished the quota for 16 of the last 20 years.
    There are examples of strong recreational data collection systems 
that could be followed to address this issue. The Louisiana Department 
of Wildlife & Fisheries requires their anglers to obtain a Recreational 
Offshore Landings Permit (ROLP) on top of a saltwater license. That 
allows them to more accurately and more regularly sample a much smaller 
universe of anglers that are actually targeting red snapper. 
Louisiana's recreational anglers volunteered to have their license fees 
increased to fund this permit and a robust data collection system. 
Combined together, it has allowed the state to monitor catch rates in 
near real-time. With better data, the state can monitor how much of its 
quota has been caught and decide in near real time whether enough 
additional fish remain to allow the season to continue, providing the 
additional access anglers want.
    A similar Gulf-wide endorsement could be implemented by the Gulf 
Council and the states, thus identifying the number of anglers who are 
actually targeting species in Federal waters, thereby making the 
current Federal survey much more effective. As an example, the USFW 
operates a similar program for hunters with the Federal Duck Stamp for 
migratory waterfowl that are shot across multiple states. That stamp, 
which is purchased in the same places that sell hunting licenses, helps 
define the universe of duck hunters and funds conservation efforts.
    Although I am not an expert in how these systems work, I do not 
believe that additional NOAA personnel would be necessary to run such a 
program. The Gulf Council is fully staffed and NMFS currently operates 
data collection systems for both the charter and commercial sectors. 
Additionally, a small fee (such as the fee for the Federal Duck Stamp) 
could be used to fund this system, a worthwhile investment to help 
expand sustainable access and prevent overfishing as required by the 
Magnuson-Stevens Act (MSA). In my view, the MSA has been the main 
driving force that has rebuilt our fishery and provides the Council, 
states, and recreational anglers with the tools necessary to increase 
access to the fishery for private anglers just as it has with the 
commercial and for-hire sectors.

                                 ______
                                 

    Mr. Young. Thank you, Ms. Boggs.
    Mr. Merrifield.

     STATEMENT OF MIKE MERRIFIELD, SOUTHEASTERN FISHERIES 
               ASSOCIATION, TALLAHASSEE, FLORIDA

    Mr. Merrifield. Chairman Lamborn, Chairman Young, Vice 
Chairman Webster, Ranking Member Huffman, and the members of 
the Subcommittee, thank you for the opportunity to share our 
perspective on this MSA reauthorization. Southeastern Fisheries 
Association (SFA) is hopeful modifications can be incorporated 
that maintain conservative conservation objectives, but provide 
flexibility while maintaining a high standard of accountability 
and balanced stakeholder representation. Collectively, we 
should be seeking ways of achieving optimum yield from each 
fishery.
    We would like to thank the Subcommittee and especially 
Congressman Don Young and staff for bringing forward H.R. 200 
for consideration. SFA particularly supports targeted 
rebuilding and ACL modifications, use of the term ``depleted,'' 
the comprehensive definition of ``catch shares,'' 
``improvements,'' and ``data collection,'' ``cooperative 
research,'' and ``stock assessments,'' focus on data-poor 
stocks in the Gulf and South Atlantic, and the catch share 
referendum.
    We request the Subcommittee examine Section 302 and make 
changes necessary to re-balance the Gulf Council.
    The South Atlantic Red Snapper Fishery has been closed for 
over 7 years. The lack of quality data has undermined the stock 
assessment, resulting in a fishery classified as overfished, 
even when there is no fishing. MRIP is inadequate, and cannot 
produce the quality data required to assess an economically 
important species in the Gulf and South Atlantic.
    SFA supports the clarification that MSA is the pre-eminent 
fisheries management law regarding overlap with National Marine 
Sanctuaries Act, Antiquities Act, and the Endangered Species 
Act. We ask that the National Ocean Policy be added to the 
list.
    H.R. 2023 states recreational and commercial fishing are 
fundamentally different, which is true, except for one 
indisputable fact: we both kill fish. SFA believes we should 
all be accountable for the impact we have on shared fishery 
resources. Exempting private anglers from accountability and 
oversight of a federally managed fishery risks conservation and 
equitable access.
    We empathize with the recreational sector, whose access is 
suffering due in part to inadequate data. SFA supports 
alternative management measures, MRIP funds being made 
available for the states to improve data collection, 
monitoring, catch accounting, and discard mortality estimates, 
provided these are MSA-compliant.
    SFA supports the NAS allocation study, but only if the 
Subcommittee requires the commercial economic valuation include 
ex-vessel price plus harvest expenses, bait, gear, groceries, 
fuel, et cetera, dock facilities, transportation, processing 
and distribution, and distribution from the vessel through the 
processor to the seafood markets, grocery stores, and 
restaurants, similar to the recreational valuation.
    Currently, current commercial fishermen and consumers have 
access to just 27 percent of all fin fish resources in the 
South Atlantic. For example, the commercial quota for mahi-mahi 
is 10 percent. In 2016, the recreational sector harvested less 
than half of their 90 percent quota, leaving 7.5 million pounds 
unharvested. So, we fell short of the OI and undermined our 
trade deficit, since we import over $200 million worth of mahi 
from 40 countries.
    SFA is opposed to H.R. 3588. There is a narrative being 
used to justify the extension of state authority in management 
of red snapper in the Gulf based on the misconception that 
anglers are only able to fish red snapper for 39 days in 
Federal waters when, in fact, they can fish 365 days per year 
for red snapper and the other 38 species in the reef fish 
complex. Anglers can only kill red snapper on 39 of those days.
    Uncertain catch and discard mortality estimates reduce the 
total recreational ACL, resulting in an abbreviated Federal 
season. Extending state authority without certifiable data 
collection, reporting, and monitoring, accompanied with 
adequate enforcement disregards MSA fairness and accountability 
standards and sets a precedent that could erode MSA, species by 
species, jeopardizing conservation and undermining the domestic 
seafood supply.
    We thank Ranking Member Huffman for the recent copy of the 
discussion draft. SFA has not had adequate time to conduct a 
thorough review, but a cursory glance reveals conceptual common 
ground on flexibility, improved science, cooperative research, 
MRIP, and Council transparency. There are red flags: expansion 
of HAPC concept; Councils having to recover EFH; and bycatch 
plans for forage species. SFA will examine this bill in greater 
detail and engage with staff.
    Thank you for the opportunity, and we are willing to work 
with the Subcommittee and others to seek improvements to ensure 
long-term sustainable fisheries resources for all stakeholders.

    [The prepared statement of Mr. Merrifield follows:]
     Prepared Statement of Mike Merrifield, Fish Section Chairman, 
        Southeastern Fisheries Association, Tallahassee, Florida
    Chairman Lamborn, Vice Chairman Webster, Ranking Member Huffman and 
members of the Subcommittee, I appreciate the opportunity to speak with 
you on behalf of the Southeastern Fisheries Association about the 
reauthorization of the MSA and more specifically, about H.R. 200; H.R. 
2023; H.R. 3588; and Mr. Huffman's new Discussion Draft.
    My name is Mike Merrifield, I am part-owner in Cape Canaveral 
Shrimp Company and Wild Ocean Seafood Market, a Florida-based seafood 
business with a commercial fishing dock in Port Canaveral, a processing 
facility in Titusville (just west of the Kennedy Space Center), and two 
retail locations. We distribute seafood to restaurants, retail 
operations and distributors primarily in the state of Florida. I'm 
currently the chairman of the South Atlantic Fisheries Management 
Council's Deepwater Shrimp Advisory Panel.
    I currently serve as Southeastern Fisheries Association (SFA)--Fish 
Section Chairman. SFA is a 501(c)(6) non-profit association 
representing fishermen, fish houses, retail/wholesale dealers, 
processors, distributors and restaurants across the southeastern United 
States since 1952. Florida members handle, process or distribute over 
80 percent of the seafood produced in the state. SFA has been a leader 
in sustainability and the push for cooperative research.
    I have always enjoyed recreational fishing and quality seafood and 
thought that going into the seafood business, offering high quality 
local, wild-caught seafood to people that don't own a boat or cannot 
catch their own, would be a no-brainer. However, I soon began to feel 
the pressure from an ever-rising tide of regulations emanating from 
multiple state and Federal agencies reducing access and product 
availability.
    There was quite a bit of talk about sustainability, precautionary 
factors, over-capitalization, as well as protections from marine 
monuments and sanctuaries. It became apparent we had to participate in 
the South Atlantic Fisheries Management Council process. I joined the 
Deepwater Shrimp Advisory Panel in 2008 which I chair today, mostly 
because Rock Shrimp is one of our signature Florida products and we 
were growing concerned about future access to this resource.
    I have always considered myself to be more environmentally 
conscience than the average person. However, over time there has been a 
steady vilification of the commercial fishing industry and the men and 
women that provide seafood products to all of us, often at great 
personal risk. In addition to this societal shift, we now see the 
recreational fishing industry reacting to shrinking fishing seasons, 
attempting to obtain additional allocation from the commercial sector. 
This will further reduce access to the American consumer. Decreased 
Annual Catch Limits (ACLs) and overharvest are the direct result of 
poor quality data.
    The 2006 Amendments passed by Congress and subsequent 
implementation by NOAA fundamentally changed the focus and goals of 
domestic fisheries management. The focus would shift to science-based 
decision making while the goal would be ending overfishing immediately, 
adding accountability, rebuilding stocks as quickly as possible and 
reducing fishing capacity through limited access programs.
    One of the more critical components of the last reauthorization and 
implementation of the National Standard Guidelines (NSGs) is that the 
Regional Fishery Management Councils (RFMCs) must consider both 
scientific and management uncertainty when setting quotas. Given the 
lack of quality data and insufficient funding to assess all stocks 
required to be in a management plan by a specific date, precautionary 
factors were applied that erred on the side of over-protecting the 
stocks. This was accomplished over time with less concern being given 
to achieving Optimum Yield (OY) on a continuing basis, and the negative 
impacts on fishermen, fishing communities, the economy and food supply 
to our Nation.
    The 2006 Amendments also required accountability from all 
stakeholders--commercial, for-hire, and private anglers. For our part, 
the commercial fishing industry is subject to comprehensive reporting 
at multiple levels (i.e. Federal observer requirements, vessel log 
books, vessel monitoring systems, vessel trip tickets and dealer 
reports, Highly Migratory Species reporting, etc.) to multiple agencies 
(NOAA, individual states) with strict enforcement and substantial 
penalties for noncompliance.
    The commercial fishing industry has also suffered reductions in 
fishing capacity through Federal Catch Share programs, permit reduction 
requirements (whereby a South Atlantic snapper-grouper fisherman must 
purchase two permits and retire one, to secure just one usable permit), 
ACL reductions, limited access programs, new permit moratoriums, gear 
limitations, and reduced access to prime fishing areas, among other 
things.
    During the past 10 years these restrictions have contributed to 
substantial and negative financial and infrastructure losses in terms 
of less fishermen and fewer fishing vessels, docks, fish houses 
(wholesale and retail distributors) and shore-side processors. Besides 
job loss and reduced opportunity for new money into the Florida 
economy, we have greatly reduced the public's access to one of our 
Nation's best natural resources. According to Dr. W. Steven Otwell, 
Emeritus Professor University of Florida, Director Seafood HACCP 
Alliance, ``U.S., Wild-caught seafood is the safest, best source of 
muscle protein in the world today.''
    Further complicating the situation, especially in the Gulf of 
Mexico and particularly the South Atlantic, is that we often do not 
have the quality data necessary to ensure robust stock assessment 
models. Thus, we cannot minimize factors leading to negative impacts 
from scientific and management uncertainty and precautionary decision 
making. The data are insufficient to properly manage commercial 
fisheries alone, much less mixed-use fisheries. The combination of 
insufficient data on many stocks, including unreliable estimates of 
recreational catch and discards, along with interjection of uncertainty 
considerations in the quota setting process has resulted in closures, 
precautionary buffers, and yields far below OY at the expense of all 
stakeholders and our Nation.
    Catch Share programs, largely unwanted by a vast majority of 
industry members in the South Atlantic region, continue to be 
encouraged by NOAA and fomented by environmental organizations. MSA 
catch share reforms are necessary to protect the industry and prevent 
top down implementation of these often harmful programs.
    We are also struggling mightily with appropriate implementation of 
the 1990 Amendments requiring the Secretary ensure fair and balanced 
apportionment of active participants in the commercial and recreational 
fisheries. In our opinion, the Secretary has failed to meet the 
requirements of Section 302(b) with respect to striking a fair balance, 
especially on the Gulf of Mexico Fishery Management Council.
    In NOAA's most recent 2016 Report to Congress on Disclosure of 
Financial Interest and Apportionment of Membership for Regional Fishery 
Management Councils the agency reports an equal 4:4 balance 
(recreational: commercial) on the Gulf Council. However, SFA believes 
this accounting to be false and inconsistent with the original intent 
of Section 302(b). In our practical experience, the Gulf Council is out 
of balance whereby the industry finds itself in a situation with only 
ONE voting member being active in the commercial fishing industry. 
There are SEVEN recreational voting members plus the state directors, 
which by our observation tend to support sport anglers most of the 
time. An amendment requiring a balance of interests on the RFMCs and a 
fair annual accounting by the agency must be added to any legislation 
reauthorizing the MSA.
    Whenever comprehensive changes are made to complex policies like 
MSA--we don't get it all right all the time. We view this 
reauthorization as an opportunity to work with Congress and other 
stakeholders to restore some flexibility and balance and we appreciate 
the Subcommittee's leadership in this regard. It is in this context 
that we offer the following comments on legislation pending before this 
Subcommittee.
     h.r. 200: ``strengthening fishing communities and increasing 
               flexibility in fisheries management act''
    SFA supports H.R. 200 and appreciates Congressman Don Young and his 
staff and this Subcommittee and its staff to bring this bill forward 
for further discussion. In particular, we offer the following comments 
on specific provisions.
Rebuilding Flexibility
    H.R. 200 removes the 10-year rebuilding time frame and substitutes 
the time a fishery could be rebuilt without fishing, plus one mean 
generation. The 10-year requirement has long been considered by 
industry to be arbitrary. In 2013, the National Academy of Science 
(NAS) concluded in their report titled ``Evaluating the Effectiveness 
of Fish Stock Rebuilding Plans in the U.S.'' that the pre-set 10-year 
rebuilding requirement was indeed arbitrary and harmful, thus ending 
the debate. We agree with the NAS and support replacing this 
requirement with a more scientifically valid metric.
    H.R. 200 also provides several common-sense exceptions to the 
rebuilding time period including: (1) biology of the stock, 
environmental conditions or management measures under an informal 
international agreement; (2) the cause of depletion is outside the 
jurisdiction of the Council or can't be affected simply by limiting 
fishing; (3) if a stock is part of a mixed-stock fishery that cannot be 
rebuilt in the time frame if that causes another component to approach 
depleted status, or will lead to significant economic harm; and (4) 
informal trans-boundary agreements that affect rebuilding.
    H.R. 200 also adds helpful new flexibility requirements that 
rebuilding plans take into account environmental factors, including 
predator/prey relationships; a schedule for reviewing rebuilding 
targets and progress being made on reaching those targets; and 
consideration of alternative rebuilding strategies including harvest 
control rules and fishing mortality targets, provided we maintain MSA 
consistency.
Fishery Disasters
    SFA supports the provision in H.R. 200 requiring the Secretary 
publish the estimated cost of recovery from a fishery resource disaster 
no later than 30 days after the Secretary makes a formal designation. 
Further, we support requiring the Secretary to act on a fishery 
disaster request within 90 days of receiving an estimate of the 
economic impacts from the entity making the request.
    In May 2009, the Secretary of Commerce closed the Gulf of Mexico 
snapper-grouper commercial fishery to protect sea turtles for 5 
consecutive months. The governor of Florida issued a formal request to 
the Secretary for a fisheries disaster declaration. The Secretary did 
not respond to the request until early 2011, finally issuing a 
determination that despite hardship the industry ultimately survived 
the closure so no disaster declaration was necessary.
    By comparison, it took the Secretary of Commerce just 90 days to 
respond to the 2013 disaster request for a commercial fishery failure 
for Frazier River Sockeye in Washington State.
Modifications to the ACL Requirements
    H.R. 200 provides Councils with increased flexibility in setting 
ACLs. The ACL requirement is retained in the Act but the RFMCs could 
consider changes in ecosystem and economic needs of the communities 
when setting limits. In light of changing environmental conditions, 
these additions make scientific and common sense as long as all 
proposed changes are discussed in the open and subject to input from 
stakeholders.
    There are also helpful targeted ACL exceptions for Ecosystem 
Component Species that are not overfished or subject to overfishing or 
likely to become subject to those conditions. Since these non-targeted 
species are such minor components it makes sense to retain them 
generally in the management system but not as species technically 
considered ``in the fishery.'' This allows for important ecological 
monitoring but does not increase management complexity or precipitate 
negative economic ramifications from a choke scenario.
    The Act currently provides an exemption from the ACL control rules 
for stocks managed under international agreements and for species whose 
life cycle is approximately 1 year that is not subject to overfishing. 
These provisions are helpful but are narrow in scope and do not address 
species that are truly trans-boundary in nature that have an informal 
agreement (or no agreement) in place, or are species whose life history 
characteristics prevent RFMCs from being able to apply the ACL control 
rules in an efficient manner.
    From a Florida perspective--SFA (and the FL Fish & Wildlife 
Commission) supports the provision contained in H.R. 200 that provides 
for ACL relief for the spiny lobster fishery in the Gulf of Mexico. 
While valued at $375M and supporting more than 3,500 jobs in Monroe 
County, Florida alone--U.S. fishermen account for just 6 percent of the 
total harvest. Genetic evidence indicates that stock recruitment occurs 
almost entirely outside U.S. jurisdiction.
    In 2011, NOAA's Southeast Data Assessment Review (SEDAR) determined 
it was not possible to establish population benchmarks based only on 
the U.S. segment of the population and there is no agreement (formal or 
informal) or stock assessment available to manage this international 
stock. Despite the true trans-boundary nature of this stock and 
insufficient data available to render a status determination, current 
MSA requirements could force the RFMCs to set precautionary ACL control 
rules for this species that will harm U.S. fishermen with no measurable 
biological benefit to the stock.
Overfished and Overfishing Defined
    SFA supports correctly defining ``overfishing'' and removing the 
term ``overfished'' from the Act, substituting the newly defined term 
``depleted.'' We also support changing the annual Status of Stocks 
report submitted by the Secretary to distinguish between stocks that 
are depleted or approaching that condition due to fishing and those 
meeting that definition as a result of other factors. We support the 
separation and clarification of the two terms and the requirement to 
differentiate sources of mortality when projecting stock status and 
setting ACLs.
Transparency and Public Process
    H.R. 200 requires RFMC Science and Statistical Committees (SSCs) to 
develop advice in a transparent manner and allow for public input. The 
2006 MSA amendments greatly increased the complexity of the management 
process and ceded unprecedented authority to the SSCs. The use of 
video/call conferencing/webinar technology has increased to where 
critical decisions can be made mostly outside of the public eye. 
Therefore we believe there is a need to consider some improvements to 
public access in current reauthorization while at the same time not 
over-burdening the RFMCs.
    While each Council operates differently, and the range of comfort 
in the regulated community varies from region to region based on those 
differences, there is no reason why we should not require RFMC, SSC and 
Council Coordinating Committee (CCC) meetings be widely available in 
some timely manner and archived for public access.
    H.R. 200 requires the Council and CCC to provide a live broadcast 
only if practicable to do so, but does require an audio recording, 
video (if the meeting was in person or via video conference), and a 
transcript of each Council and SSC meeting on its website within 30 
days.
Limitations on Future Catch Share Programs
    The SFA does not support dismantling existing catch share programs 
in the Gulf and South Atlantic Regions. However, we are concerned about 
the process used to develop and implement such programs and the 
negative results. So, we must make improvements to prevent future 
mistakes and avoid unintended consequences.
    First, we support a clear and comprehensive definition of the term 
``catch share'' such as the one contained in H.R. 200.
    Second, we support H.R. 200 requiring a formal, simple majority, 
catch share referendum process applicable to future catch share 
programs in New England, Mid-Atlantic, South Atlantic, and Gulf of 
Mexico regions. SFA supports this provision, and there is broad support 
across the fishing industry in these regions for an iron-clad, 
transparent referendum process.
    Many in the commercial fishing industry, particularly in the Gulf 
and South Atlantic, consider the catch share process to be a top-down 
process designed to reduce the size of the commercial fleet. For 
example, in the Gulf of Mexico we observed NOAA pressuring the Council 
to set landing criteria so high that many working fishermen were locked 
out of voting under the existing referendum requirements for the 
snapper-grouper program.
    Recently, we were forced to oppose efforts by NOAA and some South 
Atlantic Council members to implement a ``pilot'' catch share program 
via the Experimental Fishery Permit (EFP) process absent any referendum 
requirement whatsoever.
    Reforming the referendum process contained in Section 303(A) is 
crucial to protecting the industry. The current law as written does not 
protect fishermen, particularly small boat fishermen Gulf of Mexico. 
Also, there is no referendum requirement for the South Atlantic and 
Mid-Atlantic regions, leaving the industry in those areas exposed to 
proliferation of catch share programs they do not want and for which 
there is often insufficient scientific information.
    SFA's position is that all legitimate commercial fishermen with an 
active permit and verifiable landings in a Federal fishery in the Gulf 
of Mexico and South Atlantic should be allowed to participate in a 
fully informed vote. We also believe there must be an adequate stock 
assessment and accurate landings information upon which to build a 
catch share program. SFA strongly believes we should not lose one more 
commercial fisherman due to government regulations.
Data Collection
    There is widespread industry support for the improved data 
collection and focus on Data-Poor stocks contained in H.R. 200, 
especially in the Gulf of Mexico and South Atlantic regions. H.R. 200 
focuses on Data-Poor fisheries to gather fishery independent data, to 
survey/assess ``Data-Poor'' fisheries, to develop cooperative research 
to collect fishery independent data, and for the RFMCs to list and 
prioritize Data-Poor fisheries. NMFS should also be required to include 
active, resource stakeholders in developing cooperative research 
programs.
    NOAA currently manages approximately 528 stocks of fish. Of this 
total, it is generally believed about 114 are adequately assessed by 
the agency. Most of the 114 assessments (approximately 80) occur 
regularly on economically important stocks in Alaska and New England. 
In other regions, the assessment periodicity is far less--approximately 
15 per year in the Gulf of Mexico, South Atlantic and Caribbean 
combined. Thus, a large majority of fish stocks are Data-Poor or not 
adequately assessed at all with the results being uncertainty and 
reduced opportunity for achieving OY.
GOMEX Cooperative Research and Red Snapper Management
    There is long-standing and widespread industry support in the Gulf 
of Mexico and South Atlantic for requiring the Secretary to work 
collaboratively with states, GMFMC/SAFMC, and commercial/charter/sport 
stakeholders to develop and implement a cooperative research program 
for both regions with a priority on Data-Poor stocks.
    H.R. 200 outlines specific requirements for timely surveys and 
stock assessments and task prioritization at the NMFS Southeast 
Regional Science Center--there is widespread industry support in the 
affected regions for these requirements.
    An example of why we need congressional intervention in this regard 
can be understood by looking at red snapper in the South Atlantic. The 
fishery was completely closed in 2010 by way of a controversial RFMC 
vote and using results from what many consider to have been a deeply 
flawed assessment. Despite the total closure, swirling controversy, and 
data poor circumstances, the Agency chose not to collaborate with 
industry in the intervening years and did not conduct a new stock 
assessment until 2016. This new assessment has also come under fire 
with respect to its still-unresolved data poor characteristics yet the 
closure persists.
    Clearly, we must look to Congress to help resolve these problems in 
the Southeast Science Center via the MSA process. Fishery closures 
should only occur when there is irrefutable evidence and if enacted 
should include a sunset clause (e.g. less than 5 years) to ensure 
active data collection and continual re-evaluation.
Consistency With Other Laws
    SFA supports the provision in H.R. 200 that clarifies MSA should 
prevail in the context of managing fisheries under the National Marine 
Sanctuaries Act (NMSA), Antiquities Act, Endangered Species Act (ESA), 
and we hope also the National Ocean Policy (NOP). This provision does 
not amend these other statutes but rather, would apply the MSA process 
to achieve consistent fisheries management throughout the range of a 
species.
    Regarding Marine Sanctuaries, the new NOAA site nomination policy 
(2014) precipitated a number of initiatives to create new protected 
areas, including one off the northeast coast of Florida. If not for 
fully coordinated state and local opposition we may well have ended up 
with a 7,000 square nautical mile sanctuary off the coast of Florida 
and no transparent public process by which to manage our fisheries in 
the area.
    The potential for widespread adverse industry impacts from 
Antiquities Act authority increases during the latter part of every 
administration. The prior administration was no exception, setting 
historic records for acreage added to Federal designations, phasing out 
commercial fishing from productive areas absent a transparent science-
based process.
    Regarding conflicts with the ESA--we have had to deal with 
loggerhead sea turtles in the Gulf of Mexico longline fisheries and 
Atlantic right whales in our very small South Atlantic gillnet 
fisheries. By using the MSA/RFMC process with fishing experts at the 
table, we can best tailor ways to meet the ESA requirements that also 
enable our fishing communities to remain viable in the process.
    SFA supports clarifying that the MSA is the controlling statute in 
regard to Federal fisheries management. By using the MSA process to 
develop regulations instead of the National Marine Sanctuary Act, the 
ESA, or the Antiquities Act, we will ensure that when it comes to 
fisheries there will be thoughtful and thorough analysis and the 
opportunity for public comment.
 h.r. 2023: ``the modernizing recreational fisheries management act of 
                                 2017''
    SFA has substantial concerns with elements of this legislation. The 
central theme proponents use to justify this legislation is that 
recreational and commercial fishing are fundamentally different 
activities. Factually, this statement is true. However, there is one 
inescapable similarity between the two activities--both commercial and 
recreational fishermen kill fish. These exact same impacts on shared 
resources must be clearly and fairly accounted for so that no one group 
(or the consumer) is disadvantaged.
    The national recreational fishing lobby would have Congress believe 
how well the states manage their fisheries but fail to disclose that 
states manage many fisheries such that anglers get most or in some 
cases, all of the fish. Of course they prefer state management of 
species such as redfish, trout, snook, and striped bass (and now 
potentially red snapper . . .) because consumer access to a fair 
portion of these fish has largely been removed from people who do not 
own a boat.
    SFA firmly believes there should be no reward for exceeding ACLs 
and that all stakeholders--commercial, for-hire and private anglers--
should each be held accountable for their impacts on our Nation's fish 
resources. We must resist changes to the law that could be interpreted 
to remove this accountability.
Reallocation Review
    H.R. 2023 requires the NAS conduct a study of allocations in mixed-
use fisheries in the Gulf and South Atlantic regions. Unlike many of 
our colleagues in the commercial fishing industry around the Nation who 
fear the precedential nature of this provision, SFA actually supports 
the study with two caveats. The Subcommittee must make very clear the 
NAS study and the resulting RFMC process take the following into 
consideration:

    First, we strongly urge the Subcommittee clarify that the NAS must 
consider the fair and full value of the commercial fishing and seafood 
industry, encompassing harvest, dock activity, processing, 
transportation, and distribution through the seafood markets, grocery 
stores and all restaurant activity. This is only fair since a 
recreational valuation will likely include bait, tackle, boat, trailer, 
hotel, vacation home, air fare, etc.
    Recently, someone asked me about their seafood dinner that cost $50 
per plate. The ex-vessel price of the fish they ate was $1.50/lb. or 
about $0.50 per serving. When calculating the economic value of 
commercial fishing activity, the entire economic chain must be included 
to accurately reflect the total economic value to the economy.
    Second, the NAS must also be directed to take into consideration 
the quota allocation disparity in the South Atlantic region that 
artificially lowers the value of commercial fishing and reduces 
consumer access. Currently, U.S. consumers have access to just 27 
percent of all finfish resources in the entire South Atlantic region, 
hardly an equitable split for the non-fishing public.
    For example, in the 2016 SAFMC's mahi (dolphinfish) fishery the 
commercial sector allocation was 10 percent (recently increased from 
7.54 percent) for a total of 1,534,485 pounds. The recreational 
allocation was 90 percent, or 13,810,361 pounds. In 2016, the angler 
sector utilized just 46 percent of their entire allocation, leaving 
more than 7.5 million pounds unharvested.
    In that same year, NOAA statistics show that the United States 
imported 47,218,731 pounds of mahi from 40 different countries totaling 
$199,878,831. Under the policies of the SAFMC it seems we would rather 
pay fishermen in Suriname and China and compound our seafood traded 
deficit problems rather than allow U.S. fishermen to achieve OY. I can 
assure you the value of 7.5 million pounds of underutilized mahi would 
have contributed substantially to our commerce and provided a highly 
sought-after seafood product to the American public.
Alternative Fisheries Management Methods for Private Anglers
    SFA can support the use of alternative methods for estimating 
recreational catch and discard mortality provided the methodology is 
MSA-compliant, subject to Federal oversight, and is fair and equitable 
to the commercial and for-hire sectors.
Permanent Moratorium on new Catch Share Programs
    We oppose a permanent moratorium on new catch share programs and 
request a referendum vote be applied to allow the industry to determine 
whether a catch share program is the most appropriate management tool 
for accessing commercial quota.
Retaining the 10-Year Rebuilding Requirement
    SFA opposes the 10-year rebuilding requirement and supports the 
more flexible science-based alternative provided in H.R. 200.
ACL Exemption for Sport Fisheries
    SFA cannot support any changes that attempt to solve the lack of 
recreational accountability and poor data by providing ACL exemptions 
for private anglers or allow shifts in allocation to address quota 
overages.
    Since the 2006 Amendments the management system has struggled to 
complete and implement a proper accounting system for recreational 
catch and discards. In 2006 the National Research Council began a 
critical review of the Marine Recreational Information Program (MRIP) 
and its results were finalized in 2017. Clearly, work must continue to 
complete implementation of the MRIP. The significant delays in 
successfully implementing MRIP are in our opinion inexcusable and have 
resulted in serious management inefficiencies and precipitated 
stakeholder infighting. The Subcommittee must hold NOAA accountable to 
complete the MRIP.
Limitations on Experimental Fisheries Permits (EFPs)
    H.R. 2023 would handicap the national Exempted Fishing Permit (EFP) 
process with an overly prescriptive set of requirements that to us 
appears designed to undermine the system. EFPs can be a critical 
component to cooperative research, gear development, conservation 
engineering, and data collection if developed with participation from 
affected stakeholders. The process must be open from the start and not 
kept internally within NOAA until the plan is ready to launch.
    However, we agree that specific limitations on use of EFPs to 
implement catch share programs outside of Section 303(A) are warranted. 
We have dealt with this specific issue in the South Atlantic region and 
request the Subcommittee consider adding a protective measure here, 
while not undermining the benefits of the entire EFP program.
Cooperative Data Collection; Federal/State Partnerships; Data 
        Collection Efforts to Improve Recreational Data
    SFA can support Federal Marine Recreational Information Program 
(MRIP) funds being made available to the states to improve accounting 
and reporting of recreational catch and discard mortality provided the 
programs are MSA compliant and Federal oversight is maintained.
                   h.r. 3588: ``the red snapper act''
    SFA strongly opposes this legislation. The justification is built 
entirely on the misconception that anglers can only fish for red 
snapper for 3 days (now 39 days) in Federal waters in the Gulf of 
Mexico. This is a false narrative. Anglers can fish 365 days per year 
for red snapper and all of the other 38 species in the Gulf reef fish 
complex. They can only kill red snapper on 3 (or 39) of those days. To 
be clear, there is unlimited fishing opportunity for recreational 
anglers in the Federal waters of the Gulf which calls into question the 
actual need for, and defense of, this legislation.

    <bullet> H.R. 3588 allows for recreational catch limits to be set 
            which do not take into account recreational quota overages.

    <bullet> H.R. 3588 would extend state management authority anywhere 
            from 25 to 65 miles offshore (the exact distance is unclear 
            and depends on the contour of the 25-fathom curve . . .) 
            but there is no indication and no guarantee the five Gulf 
            states will adequately provide for added enforcement, 
            monitoring and data collection responsibilities in the 
            newly expanded areas.

    <bullet> H.R. 3588 does not require consistency with the MSA in 
            terms of ending overfishing, rebuilding, use of best 
            available science, fairness and equitability or any of the 
            other national standards.

    <bullet> H.R. 3588 does not require a report to Congress on the 
            health of the red snapper resource under the requirements 
            of this Act until 2024.

    <bullet> H.R. 3588 preserves only the percentages of the total 
            allowable catch (TAC) of red snapper for the commercial and 
            for-hire sectors, but not the actual quotas. The actual 
            quota amounts made available to commercial and for-hire 
            sectors will depend on the health of a resource subject to 
            what is expected to be excessive recreational harvest with 
            no accountability. The likely result--reduced quotas for 
            commercial and for-hire sectors, though their percentages 
            of the TAC will remain the same.

    <bullet> H.R. 3588 does not require that all state red snapper 
            recreational fisheries surveys be submitted and certified 
            by the Secretary.

    SFA is also concerned this legislation will set an unhealthy 
precedent for other species in the region and around the Nation. We 
would rather see efforts put into improving MRIP and accurate estimates 
of recreational catch and discard mortality.
                  msa discussion draft of rep. huffman
    We would like to thank Ranking Member Huffman and his staff for 
recently providing a copy of the ``Discussion Draft'' dated September 
18. SFA has not had adequate time to assess the pros and cons of this 
proposed legislation. We will examine this bill in more detail in the 
coming weeks and continue to engage in the MSA reform conversation 
including on all legislative offerings.
    Based on an initial cursory review the Draft appears to be a 
comprehensive mix of components. The Draft contains some concepts 
similar to what we are supporting in H.R. 200--including some enhanced 
ACL and rebuilding flexibility (incl. removal of the 10-year timeline); 
improved science, cooperative research, and recreational data 
collection (incl. MRIP); as well as improvements to Council 
transparency and the fishery disaster declaration process, among other 
things. We note the Draft does not include an ACL exemption for 
Florida's spiny lobster fishery, something the Florida industry and the 
Florida Fish & Wildlife Commission do support.
    However, the Draft incorporates some components that are red flags 
for our industry. These include but are not limited to: expansion of 
the habitat areas of particular concern (HAPC) concept, requirements 
for RFMCs to protect and recover essential fish habitat; and bycatch 
reduction plans for forage species. We have struggled under the 
negative impacts of HAPCs under the current Act and cannot afford to 
increase these problems. Similarly, NGOs have pressured the management 
system and Congress for forage fish management as a way to choke off 
commercial fishing activities for target species. Here again, we must 
resist efforts to include these harmful elements in the 
reauthorization.
  additional provision to be considered for addition to any h.r. 200 
                          manager's amendment
    Section 302(b) must be revised to ensure we achieve a fair and 
balanced apportionment of active participants in the commercial and 
recreational fisheries; and that the Secretary must clearly and fairly 
assess these apportionments in the annual Report to Congress. 
Additionally, the specific requirements of Section 302(b)(2)(D) 
regarding membership on the Gulf Council which sunset at the end of 
Fiscal Year 2012 should be re-examined, clarified and reinstated.
                                closing
    Thank you Chairman Lamborn, Vice Chairman Webster, Ranking Member 
Huffman and members of the Subcommittee for your interest in the 
Florida commercial fishing industry's perspective on MSA reform. We 
look forward to working with this Subcommittee and your staff to 
support the passage of fair, balanced legislation that will fulfill the 
intent of the Magnuson-Stevens Act. I am happy to answer any questions 
that you or other members of the Subcommittee may have.

                                 ______
                                 

    Mr. Young. Thank you, Mr. Merrifield. I appreciate that. 
Now Mr. Macaluso.

   STATEMENT OF CHRIS MACALUSO, DIRECTOR, CENTER FOR MARINE 
 FISHERIES, THEODORE ROOSEVELT CONSERVATION PARTNERSHIP, BATON 
                        ROUGE, LOUISIANA

    Mr. Macaluso. Chairman Young, Ranking Member Huffman, 
members of the Committee, thank you for the opportunity to be 
here today. My name is Chris Macaluso, I have been the Center 
for Marine Fisheries Director for the Theodore Roosevelt 
Conservation Partnership (TRCP) for the last 5 years. I have 
also worked as a freelance outdoor writer for the last two 
decades. I am an avid hunter, angler, conservationist, and a 
lifelong resident of the Sportsman's Paradise.
    The TRCP's mission is to guarantee all Americans quality 
places to hunt and fish. We have 56 partners representing a 
wide range of perspectives on hunting and fishing, land and 
water access, and resource conservation. The TRCP and our 
partners, like the Coastal Conservation Association, American 
Sports Fishing Association, and National Marine Manufacturers 
Association are optimistic. For the first time in many years of 
working with Congress to improve Federal recreational fisheries 
management, there are companion bills in the House and Senate 
and both have broad, bipartisan support.
    The requirements in these bills to examine alternative 
management, improve data collection, and that NOAA work with 
state fishery agencies, research institutions, and anglers are 
all recommendations made by the TRCP and its sports fishing 
partners, and our 2014 report on improving recreational 
fishing, and our 2017 report on alternative management.
    Each report is the result of a year or more of working with 
the Nation's leading fishery scientists, managers, economists, 
law-makers, environmental groups, and angling and conservation 
organizations, and with Congress. I am proud and appreciative 
that you and your colleagues have worked with us. Thank you 
very much.
    With the Modernizing Recreational Fisheries Management Act 
of 2017, the Senate has benefited from the bill being first 
introduced here in the House, and has been able to clarify some 
possibly confusing language. We would encourage the House to 
work with the Senate to have the two bills be as aligned as 
closely as possible.
    It is no secret that there is great discontent and distrust 
among anglers over Federal management. However, anglers are 
mostly satisfied with state management approaches. State 
managers understand they can apply different management 
approaches to recreational and commercial fishing, while having 
healthy and sustainable stocks.
    State managers know anglers are willing to spend their own 
money on improving management and conservation. I am proud to 
say one of the best and most successful examples of this is in 
my home state. Five years ago, Louisiana's fisheries managers 
decided they could not work with the imprecise and often flawed 
data being produced by MRIP, especially with fish like red 
snapper managed with ACLs and short seasons. Louisiana managers 
created a new system called LA Creel, which dramatically 
increased the number of harvest and effort surveys.
    Louisiana also created a recreational offshore landing 
permit, which was developed to identify who was fishing for 
offshore species like red snapper and amberjack. In this year's 
red snapper season, Louisiana put a self-imposed limit of 1.04 
million pounds on charter and recreational fishermen. Some 
estimated the length in season would mean nearly 2 million 
pounds of snapper harvested in Louisiana, but LA Creel showed 
the state finished the season more than 100,000 pounds under 
the 1.04 million pound self-imposed limit.
    Louisiana's legislature had to double the state's fishing 
license fees to pay for LA Creel, something that recreational 
fishermen overwhelmingly supported. LA Creel does not use 
lotteries, tags, or individual quotas. It has been widely 
championed by anglers, fisheries managers, and 
environmentalists, and is a prime example of what better data 
collection can produce, and what is possible with alternative 
management.
    America's 11 million salt water anglers create more than 
$63 billion in annual sales. Anglers have contributed $9 
billion for better management and habitat through excise taxes, 
and fishing license fees have created another $21 billion for 
conservation and management.
    The sportsman's conservation ethic means more than dollars, 
though. Recreational fishermen have also pioneered and 
championed significant conservation movements, including catch-
and-release fishing, barotrauma reduction devices, the use of 
circle hooks, and assisting state management agencies on fish-
tagging programs. A lot of times this comes out of their own 
pockets.
    The TRCP and its sport fishing partners urge this 
Subcommittee, the Natural Resources Committee, and others in 
the House to continue to work with anglers and the Senate to 
make the Modernizing Recreational Fisheries Management Act law.
    We thank you and the Administration for working with us and 
for listening to our concerns. Finally, I thank you personally 
for the opportunity to be here today to represent my 
organization, myself, my children, my family, and anglers and 
conservationists across the country. Thank you. I would be 
happy to answer any questions, and they don't have to be about 
red snapper.
    [Laughter.]

    [The prepared statement of Mr. Macaluso follows:]
   Prepared Statement of Chris Macaluso, Center for Marine Fisheries 
       Director, the Theodore Roosevelt Conservation Partnership
    Chairman Lamborn, members of the Committee and staff, thank you for 
the opportunity to be here today. My name is Chris Macaluso. I have 
been the Center for Marine Fisheries Director for the Theodore 
Roosevelt Conservation Partnership (TRCP) for the last 5 years and have 
worked as a freelance outdoor writer and radio show host for the last 
two decades. I am an avid hunter, angler and conservationist and a 
lifelong resident of Baton Rouge, Louisiana.
    The TRCP's mission is to guarantee all Americans quality places to 
hunt and fish. We are a true partnership and work with 56 official 
partners representing a wide-range of perspectives on hunting and 
fishing, land access and resource conservation. Our partners include 
Ducks Unlimited, the National Wildlife Federation, American 
Sportfishing Association, Coastal Conservation Association, the Nature 
Conservancy, Association of Fish and Wildlife Agencies and many others.
    My work for the organization focuses on collaborating with our 
partners as well as state and Federal fisheries managers on improving 
Federal fisheries policy and legislation related to recreational 
fishing. I also work with a host of conservation and sportsmen's groups 
on habitat restoration in the Gulf of Mexico region and the Everglades. 
I would not be here today representing the TRCP if my views were not 
reflective of the majority of the sportfishing community.
    Today, I am more optimistic about the future of Federal 
recreational fishing management than I have been at any other time in 
the last 10 years. I know it's unusual for recreational fishermen, or 
anyone else for that matter, to come to Washington to say thanks. I do 
so because the bills under consideration today contain provisions that 
would help improve Federal fisheries management for recreational 
fishing, potentially marking the first time in the history of the 
Magnuson-Stevens Act that the law specifically recognizes the vital 
role recreational fishing plays in our economy and identifies that 
recreational fishing is a fundamentally different activity than 
commercial fishing that requires a different management approach.
    The requirements in these bills that alternative approaches to 
current Federal management be examined and possibly implemented, the 
improved data collection efforts prescribed and the requirement that 
NOAA Fisheries work with state fishery agencies, research institutions 
and anglers to develop and incorporate better data are all 
recommendations made by the TRCP and its sportfishing partners in the 
2014 report ``A Vision for Managing America's Saltwater Recreational 
Fisheries.''
    The alternative management approaches likely to be examined and 
considered will include the ones that the TRCP and its partners and 
other sportsmen and conservation groups have explored and considered in 
the 2017 report ``Approaches for Improved Federal Saltwater 
Recreational Fisheries Management.''
    In each case, the conclusions and recommendations in these reports 
are the result of a year or more of meetings and discussions with 
fisheries management experts on the state and Federal level, 
biologists, environmentalists, anglers, economists and law and policy 
makers. They all represent an honest and earnest effort on the part of 
the sportfishing community to improve fisheries management and improve 
the conservation of the resource. It is clear in reading these bills 
that those efforts have made an impression and have been carefully 
considered by members of this Subcommittee and beyond. I have included 
links to both the Marine Vision report and the Alternative Management 
report as attachments.
    The TRCP and its partners are optimistic because for the first time 
in working with Congress to advance improvements to Federal 
recreational fisheries management over the last 5-plus years, there are 
companion bills in the Senate. In the case of the ``Modernizing 
Recreational Fisheries Management Act of 2017,'' the Senate has 
benefited from the bill being first introduced in the House and has 
been able to clarify some possibly confusing language regarding Annual 
Catch Limits and rebuilding time frames. We would encourage the House 
to work with the Senate to have the two bills be as closely aligned as 
possible and we have been given assurances that those discussions are 
ongoing and that having the two bills align is the goal.
    It is my job to work on fisheries management policy and law, but 
first and foremost I am an angler. I will not disclose how much I fish 
for fear of reprisal from my bosses and my wife, but I will say that I 
have spent many extended lunches trying to catch largemouth bass from 
the ponds in Baton Rouge and I have no shame in admitting I have 
arranged it so many of my work duties require a boat ride and a rod and 
reel. I get as much satisfaction from a fishing trip for 10-ounce 
bluegills as I do 150-pound yellowfin tuna. Now that I have a young son 
and daughter, the joy has shifted more to watching them soak it all in 
and start to gain an appreciation of why going fishing is such an 
incredible experience. It's not just the fish you catch, but the 
alligators and the snakes you see, the bird life, the dolphins, the way 
a school of mullet explodes from the surface when a big redfish chases 
them or a shrimp skips across the water when a speckled trout is in 
pursuit. Every day on the water is a learning experience and a chance 
to make a connection and gain a greater appreciation for what nature 
has provided. Being a sportsman is about gaining these appreciations 
and about ensuring that these resources, the fish and game of our 
country, remain publicly held resources that all Americans have a 
chance to experience and enjoy.
    Improving Federal recreational fisheries management will go a long 
way in ensuring that the experiences that I have enjoyed and hope to 
continue to enjoy will be available as my children and many others grow 
and become the next generation of sportsmen working to conserve our 
natural resources.
    It is no secret that there is great discontent and distrust among 
anglers over the way recreational fisheries have been managed in 
Federal waters. I believe this distrust is born out of trying to force 
policies and regulations designed to manage commercial fishing into 
managing recreational fishing. This level of anger, distrust and 
discontent is not seen at the state fisheries management level. 
Certainly, there are some who will disagree with any level of 
government management or involvement in fisheries management, but 
anglers are mostly satisfied with state management approaches, even in 
fisheries where there are commercial and recreational harvests such as 
black drum, southern flounder, sheepshead, blue crabs, catfish and 
others. State managers have understood for a long time that the same 
rules and regulations do not have to apply to commercial and 
recreational activities. They also understand that the value in a fish 
is not always tied directly to how much that fish can be processed and 
sold for. The value in a fishery also comes from the ice, fuel, bait, 
fishing line, baloney sandwiches and toilet paper that anglers buy on 
their way to the marinas in the morning or when heading out for a long 
weekend on the coast.
    The importance of changing Federal fisheries management and 
exploring alternatives to current management is not simply because it 
could lead to more days on the water for anglers but because it has the 
chance to improve trust among anglers and Federal managers and make 
anglers much more willing to participate in the process of gathering 
data and conservatively managing fish.
    Once that trust gains traction, Federal managers will discover what 
state fisheries managers have known for a long time, that anglers are 
trusted partners in conservation and are willing to spend their own 
money in pursuit of their passions and in improving the management, 
conservation and long-term sustainability of fisheries resources.
    There are examples of this happening all over the country, but I am 
proud to say that one of the best and most successful is in my home 
state of Louisiana. Five years ago, Louisiana fisheries managers 
decided they could no longer work with the imprecise and often flawed 
data being produced by the Federal Marine Recreational Information 
Program, especially as it was applied to fish like red snapper that 
were being managed using Annual Catch Limits and in-season closures. 
The irony of MRIP, is that it's actually a very useful tool in managing 
state-based fish like speckled trout and redfish that have very 
consistent seasons but it struggles mightily at managing fish caught in 
Federal waters and managed under ACLs. Louisiana managers created a new 
system call LA Creel, which dramatically increased the number of 
harvest surveys conducted at the dock and utilized e-mails and phone 
call surveys to gauge effort.
    Louisiana also implemented the Recreational Offshore Landing Permit 
program, which requires anyone fishing for red snapper, grouper, tuna 
and any other offshore species to provide contact information and to 
have the cost-free permit with them when offshore fishing. This has 
allowed state managers to differentiate between saltwater anglers 
fishing offshore from those who only fish inshore, something MRIP 
cannot do. The more precise data about who is fishing for what species 
has allowed the state to get a much better handle on effort and harvest 
of fish like red snapper. It has also helped state biologists break 
down harvests of inshore and nearshore species basin by basin and could 
allow for adjustments of creel and size limits in targeted areas to 
improve fish stocks showing signs of distress.
    In order to pay for these programs, Louisiana's Department of 
Wildlife and Fisheries had to ask the largely conservative Louisiana 
Legislature to double the saltwater fishing license fee. The 
legislature approved the increase because the state's anglers 
overwhelmingly supported it. LA Creel has been widely championed by 
anglers, fisheries managers and environmentalists as a dramatic 
improvement to recreational fishing data collection and management and 
it is being paid for by anglers who supported an increase in their 
license fees.
    I'm certain the members of this Subcommittee have heard from those 
who are happy and appreciative of the deal struck between the 
Department of Commerce and the five Gulf of Mexico states to extend 
this year's red snapper season in Federal waters in the Gulf as well as 
those who believe the season has jeopardized the long-term rebuilding 
process and health of the Gulf's snapper population. Louisiana used LA 
Creel to closely monitor recreational harvest and effort during the 39-
day season. Louisiana has historically harvested between 14-15 percent 
of the total Gulf recreational red snapper quota and it was estimated 
before the 39-day season that 1.7 million pounds of red snapper would 
be caught by Louisiana anglers.
    LA Creel, which does not utilize lotteries or individual quotas to 
limit access to the fish, showed that Louisianans actually harvested 
less than 1 million pounds, about 100,000 pounds less than Louisiana's 
historic percentage and self-imposed quota. About 300,000 pounds of red 
snapper were caught in Louisiana state waters between February 1 and 
early June before the 39-day Federal season. If the fish harvested 
during that state season had been applied to a snapper season in all 
state and Federal waters, it is conceivable that Louisiana could have 
had a 60-70 day red snapper season this year out to 200 miles. Graphs 
of LA Creel Red Snapper harvest follow.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    .epsLA Creel is alternative management and is a shining example of 
what can be accomplished when anglers support and participate in 
innovative data collection efforts and when management approaches are 
designed to fit into how, when and where anglers fish. It is also an 
example of what can be accomplished when anglers trust who is managing 
their fish and they feel like they can participate in the management 
process. Using LA Creel as an example, the bills before you would 
finally give state and Federal fisheries managers the opportunity to 
work together to develop other innovative management approaches.
    Far too many anglers have thrown up their hands when it comes to 
Federal fisheries management and subscribed to the belief that they are 
ignored by Regional Councils, Federal fisheries managers and the law. 
To a certain extent, they are right to feel that way. The passage of 
the bills before us today can go a long way in helping build confidence 
among anglers that their concerns are being addressed and their 
economic and cultural contributions matter on a Federal level.
    NOAA estimates there are more than 9 million saltwater anglers in 
America who create more than $63 billion in annual sales. Anglers also 
pay for better fisheries management, habitat restoration and invasive 
species control through excise taxes on tackle and gear that have 
totaled nearly $9 billion since 1951. Fishing license fees have 
generated another $21 billion for resource conservation and management 
and anglers donate millions annually to improve habitat and resource 
conservation.
    The conservation ethic among anglers goes beyond dollars and fees, 
however. Recreational fishermen have pioneered and championed 
significant conservation efforts including catch and release fishing, 
the use of barotrauma reduction devices on Pacific Rockfish and now on 
Gulf Reef Fish, the use of circle hooks to avoid gut hooking fish to 
improve catch and release survival rates and assisting state agencies 
on fish-tagging efforts which are helping account for migratory 
patterns and better determine how fish respond to seasonal and other 
changes to habitat and environment.
    It is in the best interest of all involved to have anglers involved 
and engaged in management. An important path to growing confidence 
among anglers and having them as allies for Federal fisheries managers 
exists in the bills being considered today.
    The TRCP and its sportfishing partners urge the members of this 
Subcommittee, the Natural Resources Committee, and others in the House 
to continue to work with anglers and with the Senate to agree on 
language that gives the Modernizing Fisheries Management Act a clear 
path to becoming law. We thank you and the Administration for listening 
to our concerns and appreciating the importance of recreational fishing 
to America's culture and economy and for crafting legislation that will 
finally help us work toward better fisheries management. And, finally, 
I thank you personally for the opportunity to be here today to 
represent my organization, myself, my children and anglers and 
conservationists across the country.

                                 *****

The following documents were submitted as attachments to Mr. Macaluso's 
testimony. These documents are part of the hearing record and are being 
retained in the Committee's official files:

    --Report: ``A Vision for Managing America's Saltwater Recreational 
            Fisheries,'' http://www.trcp.org/wp-content/uploads/2016/
            10/Visioning-Report-fnl-web.pdf.

    --Report: ``Approaches for Improved Federal Saltwater Recreational 
            Fisheries Management,'' http://www.trcp.org/wp-content/
            uploads/2017/07/103098-TRCP-Alt-Mgmt-Report-4.pdf.

                                 ______
                                 

  Questions Submitted for the Record to Mr. Chris Macaluso, Director, 
                      Center for Marine Fisheries
                    Question Submitted by Rep. Hice
    Question 1. Mr. Macaluso, you are a lifelong resident of Louisiana. 
From the standpoint of your family and friends, how is the red snapper 
fishing this year? How do your personal observations and those of your 
family and friends reconcile, or not, with recent NOAA decision making 
about red snapper management?

    Answer. The red snapper fishing is unbelievable. We have some 
incredible fishing in Louisiana. We are blessed. But what we are seeing 
right now with the numbers of red snapper off Louisiana's coast defies 
description. It is difficult to fish any structure in 50 feet of water 
or more without catching red snapper. It's very difficult to target 
other species, even fish high in the water column like mangrove 
snapper, without catching red snapper. It's a conservation 
accomplishment that all anglers should be celebrating. But, 
unfortunately because of management approaches that don't fit with 
recreational fishing and poor data collection efforts, as well as 
contentious ideological battles between those pushing for privatizing 
public fisheries and expanding individual fishing quotas and the 
sportsmen and charter captains who want the fish to remain publicly 
held, the conservation gains have been overshadowed by frustration and 
arguments.
    The decision to give anglers more opportunity to fish Federal 
waters this year in exchange for fewer days in state-only waters was 
welcomed by most Louisiana fishermen. State-water snapper fishing is 
limited to the eastern one-third of Louisiana's coast, meaning anglers 
who have camps or live in the western part of the state were only going 
to have 3 days to target snapper from their home ports. When the 
additional 39 days were agreed to, anglers and marina owners largely 
welcomed the additional opportunity.
    In Louisiana's case, its wildlife and fisheries commission 
committed to using LA Creel, the state recreational harvest monitoring 
program, to ensuring Louisiana anglers did not overharvest snapper this 
past season. There were some who projected Louisianans would harvest 
nearly 2 million pounds of snapper. LA Creel showed that less than 1 
million pounds was actually harvested. The fact that Louisiana's 
wildlife and fisheries department can manage harvest that closely gives 
Louisianans a great deal of confidence that the state is more than 
capable of allowing additional access to abundant fisheries while 
ensuring there isn't overfishing. The lengthy process of getting NOAA 
to certify LA Creel is frustrating and breeds more distrust of Federal 
management.
    At the heart of that frustration is a Federal management approach 
that doesn't seem to make a lot of sense when compared to how other 
fisheries and game are managed. In the case of red snapper, anglers are 
punished with less access because the stock is at historically high 
levels. It doesn't make sense that a decade ago the red snapper season 
lasted half the year even though the stock was much smaller than it is 
today. Now that the stock is larger and the average size of the fish 
has increased, it makes little sense to the average angler that the 
season has to be much much shorter. It's counter-intuitive. Duck 
hunters wouldn't be facing a shorter duck season each year if the 
number of mallards and teal increased. Redfish anglers wouldn't see a 
reduction in limits and days to catch a few for the dinner table if 
redfish stocks were at all-time highs. This notion that recreational 
fishermen are irresponsible simply by fishing the seasons they have 
been allowed is absurd. They are the same fishermen who are duck 
hunting and fishing for other species and they aren't considered 
irresponsible by hunting and fishing those seasons. The culprit isn't 
fishermen.
    It's important that state and Federal fisheries managers be given 
the tools needed and the options to explore management approaches that 
are better suited to managing recreational fishing. For Louisiana, that 
could mean allowing the state much more opportunity to work with NOAA 
Fisheries to use its superior data collection effort in LA Creel to 
manage harvest of red snapper and other fisheries in the EEZ.

                  Questions Submitted by Rep. Johnson
Question Related to the Modern Fish Act

    Question 1. As technology advances, more and more industries are 
collecting their data electronically.

    <bullet> What role do you see electronic data collection playing in 
            the future of fisheries management and what are some 
            examples of electronic data collection working in the Gulf 
            region?

    Answer. I believe there is a prevalent role for electronic data 
collection in the future of fisheries management. Many anglers I have 
spoken with would gladly report what they catch electronically. We 
must, however, take a very realistic approach to what electronic data 
collection is capable of providing. It is nearly impossible for 
electronic data collection programs to track every single fish landed, 
yet that's what some hope to accomplish by implementing electronic 
reporting requirements.
    It is impossible to enforce mandatory reporting requirements. There 
are some fishermen who will forget to report their catch and some who 
will likely refuse. If management is contingent upon 100 percent 
accuracy of electronic reporting, it may not succeed. However, if 
fisheries managers can establish reporting requirements that take into 
account that all fish will not be reported and that there may be biases 
in the data based on who is more willing to report their catches, then 
electronic data collection efforts can be very useful.
    One of the best examples of electronic reporting is the iAngler Ap, 
Angler Action Program developed by the Snook and Gamefish Foundation. 
IAngler allows anglers to log the fish they catch in their phones. 
Anglers can record weight and length of the fish they keep and release 
and the Ap even tracks GPS locations, weather and tides and other 
conditions. It is a way of gathering data that benefits the anglers by 
letting them keep an online log book of their fishing activities while 
giving managers valuable data on effort and catch. IAngler is not a 
mandatory program. It is strictly voluntary. But it has enough users 
now that fisheries managers in Florida are getting a large enough 
sample size to reduce some of the biases and get relatively accurate 
information that can help augment other fisheries harvest and stock 
monitoring. The Florida Fish and Wildlife Conservation Commission is 
using data from iAngler to assist with stock assessments of sea trout 
and snook.
    Electronic data can provide some extremely valuable information. 
Rather than trying to count every fish caught, though, perhaps a more 
realistic goal for electronic data collection is that enough anglers 
use it to help augment existing, proven management approaches being 
used currently by state agencies.

Question Related to the Magnuson-Stevens Act

    Question 2. In coastal Louisiana, fresh water environments are 
disappearing each day with 16 square miles disappearing from the coast 
each year. Misguided application of Federal policy is proving to be a 
huge obstacle to my state's restoration and protection efforts. In 
order to remedy this, the definition of `essential fish habitat' needs 
to be changed to exclude areas that are experiencing extreme historic 
land loss--areas that did not previously provide a habitat for 
saltwater species.

    <bullet> In an effort to protect coastal projects, would you 
            support language in H.R. 200 that would redefine `essential 
            fish habitat' in this way?

    Answer. Being from Louisiana, I have seen the precipitous coastal 
land loss and habitat loss my entire life. It is truly the greatest 
threat to Louisiana's fisheries and coastal communities and fisheries 
across the Gulf. I have spent more than a decade working on coastal 
restoration efforts in Louisiana and understand that diversions of 
freshwater and sediment from the Mississippi River are vital in any 
kind of comprehensive effort to save the wetlands that haven't yet 
washed away and subsided.
    Some current environmental laws are not nuanced enough to take into 
account changes to an ecosystem that occur from efforts to restore that 
ecosystem. That seems to be the case with NOAA Fisheries' 
interpretation of the `essential fish habitat' requirements in the 
Magnuson Act. NOAA has suggested that diversions could potentially 
violate the Magnuson Act by changing existing marine fisheries 
habitats. However, that interpretation is simply based on existing 
conditions. It does not examine past conditions where some of the areas 
that would be affected by the freshening of water from diversions were 
fresh and brackish marsh or swamp in the last century before levees and 
navigation projects drastically changed the salinities in Louisiana's 
coastal estuaries. The law is also being interpreted as having no 
capacity to account for the long-term improvements to fisheries habitat 
and the long-term increases in forage base production that could come 
from increasing habitat by allowing sediment diversions to rebuild 
marsh and deliver sediments.
    Permitting processes and bureaucracy and having to navigate 
inflexible interpretations of laws like Magnuson all lead to decades-
long efforts to engineer, design and build large-scale ecosystem 
restoration projects like diversions. Louisiana's coastal marshes don't 
have decades to wait for these projects to be built. The more time 
passes, the more difficult it becomes to restore the wetlands the 
diversions aim to restore. Also, diversions are meant to work in 
concert with dredging projects, barrier island restoration, ridge 
restoration and other coastal restoration efforts. The longer it takes 
to have working diversions feed sediment into these other projects, the 
less effective the projects will be.
    The future of Louisiana's coast and fisheries depends on effective 
marsh restoration projects. Projects like diversions that are critical 
for the long-term production of fisheries should not be so hampered by 
laws meant to protect and enhance fisheries.

                                 ______
                                 

    Mr. Young. I had a new name for the red snapper, but I 
won't bring it out today right now.
    I want to thank the panel. Good testimony from each one of 
you, so I do appreciate it. And customary as I do, I will 
recognize the Ranking Member of the Subcommittee for questions 
of the Council, then I will ask questions, then we will 
alternate back and forth.
    So, Mr. Huffman, you are up.
    Mr. Huffman. Thank you, Chairman Young. I would like to 
start with Mayor Mitchell.
    Welcome to Washington. I appreciated your very constructive 
testimony. We have talked a lot about the bipartisan history of 
this Magnuson Act, the bipartisan successes that we have had 
over the years. This, after all, is an Act that is named after 
two bipartisan Senators. It could just as easily have been 
named after the bipartisan duo in the House. In fact, I think 
the Young-Studds Act would have maybe been more memorable.
    [Laughter.]
    Mr. Huffman. But the history is clear, and I think it has 
been part of the success.
    There are some signs after several years of a really 
partisan disconnect, that we may be trying to work together 
again. The key will be what happens after this hearing, when we 
start legislating.
    I just want to ask you, maybe by way of reaffirming what I 
think I heard you say in your testimony, do you believe that a 
bipartisan negotiation will result in more legitimate and 
lasting legislation to amend and reauthorize the MSA?
    Mr. Mitchell. Well, I appreciate the question, Congressman, 
but I cannot sit here and be against bipartisanship. You know, 
I am a mayor, after all, and we mayors tend to be all about 
getting things done.
    And I think that is true of this bill. It has been marked 
over the years by considerable bipartisanship, every 
reauthorization. And I do know--I mean I haven't done a line-
by-line study of both bills, but what strikes me is that there 
is not a whole lot of daylight between the two. It is hard to 
know what the Senate is going to do. I suspect that you guys 
are going to get something done. And to the extent that it is 
seen as bipartisan, I think it stands a much better chance of 
getting through the Senate.
    Mr. Huffman. Thank you.
    On that note, I know that my friend from Alaska said that 
he hasn't heard anything from Democrats about where his bill is 
wrong. I want to hand him a copy of the Democratic staff memo, 
which I hope his staff has, because there are seven very 
specific points laid out in that memo, some of them technical. 
Some of them would be regarded as partisan poison pills, but we 
can work them out.
    Also, the bill that we have put forward as a discussion 
draft is an attempt to start a collaboration, so that we can do 
something different in this Congress. Instead of putting 
forward a bill that did not include bipartisan collaboration 
and input and sat in the Senate and had poison pills and was 
not acted upon, we can actually use the next few weeks to do 
something this Congress has not done in a while, and send a 
strongly bipartisan successful bill over to the Senate with a 
lot of momentum, and we can go shoulder-to-shoulder to our 
Senators and urge them to get this thing done, which I think 
would be a good thing for the industry, good thing for this 
country.
    Mr. Oliver, I appreciated your testimony. Congratulations, 
by the way, on your new position. Very big job. I certainly 
look forward to working with you.
    In my home state of California, we have dealt with a number 
of overfished stocks through the Pacific Fisheries Management 
Council. We have accepted it when science shows that a stock is 
depleted. We have set precautionary rebuilding plans. We have 
bit the bullet, when necessary, to significantly reduce 
pressure on these stocks. We have done it with lingcod, seven 
different rockfish stocks, and we have seen the results.
    All of the overfished stocks in California are either 
rebuilt or are on their way to rebuilding. Most recently, 
Bocaccio and darkblotched rockfish were declared rebuilt. And I 
know that, nationwide, 43 ocean fish populations have been 
successfully rebuilt under the MSA. Of those, 40 were rebuilt 
after the 2006 reauthorization that required science-based 
annual catch limits and rebuilding plans that immediately 
stopped overfishing.
    I want to ask if you agree that the conservation and 
management measures put in place in 2006 have been critical to 
preventing overfishing and to rebuilding these stocks?
    Mr. Oliver. Absolutely, I agree, sir.
    Mr. Huffman. And I think I heard you--well, let me just ask 
a somewhat separate question. NOAA recently estimated that 
fully rebuilt fisheries in this country would generate an 
additional $31 billion for the economy and 500,000 jobs. Does 
that comport with your understanding?
    Mr. Oliver. I don't know the exact numbers, offhand. I am 
going to assume you have accurate numbers, sir. And I think 
that sounds about right, if my recollection is correct.
    I think many of those have been rebuilt, as you point out, 
and we have realized a significant amount of that gain, as you 
point out, since the implementation of the annual catch limit 
and rebuilding measures that were put in place under the Act. 
So, that is a long-winded way of saying I agree with that.
    Mr. Huffman. Thank you. Good. I yield back.
    Mr. Young. I do thank the gentleman. I will remind the 
gentleman of one thing when you talk about bipartisanship.
    The fault of this Congress is that no longer do the 
committees write legislation. It had to go through Nancy's 
office, or it had to go through Boehner's office, or had to go 
through Ryan's office, and had to go back through Nancy's 
office. The committees used to build a cohesive bill by working 
together before it went to the Floor. I will remind everybody 
of that, that the partisanship has been created by the lack of 
the Chairmen running the committees.
    I am just giving you a little lecture on what should 
happen, but we have lost control because no one really has a 
bipartisan capability in the Committee. I worked on this 
Committee when I wrote this bill with, at that time, Chairman 
Murphy. And we worked together. But right now it is a Democrat 
bill, it is a Republican bill. There are no solutions.
    I will say the original Act, as in place now, does work. 
And I will go back to what I said before: As long as we write a 
bill that does not interfere with sustainable yield, good for 
the communities, and good for the activities without having 
the, I say, over-reach, which brings me to a point.
    Mayor, you mentioned the closure of red snapper in the 
South Atlantic, coupled with the issues in the Gulf that we all 
know well. Is this an issue with personnel and NOAA, or--what 
happened down there? Merrifield, excuse me.
    Mr. Merrifield. I am sorry, sir, could you repeat that 
question?
    Mr. Young. You mentioned the closure of red snapper in the 
South Atlantic, coupled with the issues in the Gulf that we all 
know well. Is it regional, is it personnel with the Federal 
agency?
    I am one that does not really--and Mr. Oliver, don't take 
this personal--I do not like the direction coming from 
Washington, DC. I like it to be running by the Council. It is 
my information that maybe personnel got involved and did not 
like--really, they wanted to run it from their office instead 
of listening to other people like the Council.
    Mr. Merrifield. I think, at the time, there was a lot of 
pressure on the Council to bring a lot of the fisheries into 
management plans, and there was just a lot of poor or 
unavailable data at the time, so there was a lot of 
precautionary factors put into the models. And when red snapper 
came up, it was a very, very controversial 7 to 6 vote. It was 
one vote off to push it into a closed status.
    So, I just think it had to do with where we were at the 
time, in terms of the data that was available to put into the 
models and the pressure to bring them under.
    Mr. Young. I appreciate that. I will say I am looking for a 
new name for the red snapper, and I am going to call it the 
Graves snapper. I think that is going to be called the Graves 
snapper. You know, we named this Magnuson-Stevens Act, so we 
will call it the Graves snapper. You just went down in history, 
Mr. Graves, I can tell you that right now.
    Mr. Oliver, successes in the state of Alaska and the 
Pacific, would you like to mention some of those?
    Mr. Oliver. Sure, Mr. Chairman. I do believe this was 
alluded to earlier. When we talk about things like annual catch 
limits, and if I were testifying with my Counsel hat on from a 
previous life, I would probably say you do not need a whole lot 
of change in the Magnuson-Stevens Act, it is working really 
well for Alaska.
    But we also have a long-term, long-standing participation 
on my part through the Council Coordination Committee, with the 
other Councils and regions in the countries, and recognize, 
certainly now with the broader hat on, and looking around the 
country at all of our different regions and fisheries with that 
broader hat on, I can see some room for flexibility.
    For example, the things that are contained in your bill 
have some potential. But I will say, when you look at Alaska--
our successful model up there is built on a number of things, 
including the fact that we have a very productive ecosystem, we 
have a very good stock assessment program, we have a very good 
real-time catch accounting program, we long implemented an 
ecosystem-based approach to management that takes into account 
habitat and protected resources and other considerations. But I 
would say that the pillar of our success, in my opinion, is 
based on the fact that we have been using catch limits for 40 
years.
    Mr. Young. Good. Along those lines, while you were on the 
Council, working for the Council as a director, how did you 
take care of the commercial side and the recreational side? 
This is what this battle is all about, as far as snapper goes. 
How did we handle that up there?
    Mr. Oliver. Well, Mr. Chairman, it was a little bit unique, 
and probably somewhat different than a lot of the recreational 
and commercial conflicts that you have in other parts of the 
country. Our biggest recreational issue that we grappled with 
as a Council--and I am not dealing with state of Alaska and 
salmon fisheries that were dealt with by the state--but our 
biggest challenge was the halibut fishery. We ultimately 
separated the guided halibut from the non-guided, similar to a 
situation you have with that certain snapper species in the 
Gulf, the Graves red snapper.
    And, we ultimately established a guideline harvest level 
for that sector. We currently have a catch share allocation 
between the commercial and the guided halibut fishery, and it 
is managed similar to the way red snapper is in the Gulf on the 
recreational side, where we estimate what the catch was the 
previous year, what we anticipate the effort is going to be, 
and we adjust seasons in order to try to attain that quota. But 
it is not as if you are shutting the fishery down in season 
with a hard cap, so that is the kind of flexibility I think of 
when I think of flexibility in ACL management.
    We also have a mechanism in Alaska recently, through the 
establishment of this CQE, or community quota entity, that will 
allow an entity to be formed that can acquire quota from the 
commercial sector in the event that the recreational fishery 
wants to invest and acquire greater access to the fishery and 
more recreational fishing opportunities.
    Mr. Young. I appreciate it. My time is up, but I am not 
going to quite finish asking questions yet. But timekeeper, 
when the Chairman is talking, you just don't start the time.
    [Laughter.]
    Mr. Young. I am not finished yet.
    Mr. Mayor, the challenge I see from all these witnesses is 
the NOAA estimate of the stocks took you, what did you say, 3 
years?
    Mr. Mitchell. Well, there is the 10-year rebuilding period.
    Mr. Young. Yes, but the report comes in--has anyone ever 
thought about an independent, totally independent, group that 
would take and find out how many fish we have, instead of 
waiting for a long period of time, so this argument doesn't 
take place?
    I have heard all kinds of testimony on the Graves snapper 
about how many there are from the Federal Government, and then 
how many the local people say. Yet, the basis of the catch is 
on Federal Government level.
    Mr. Mitchell. Right, there is a big disconnect. There are a 
couple ways to get at that, and I think one is to promote 
collaborative research.
    In the Northeast, in the groundfish industry, fishermen 
maintain, as you have heard over the years, that there are a 
lot more fish than the stock assessments indicate. And they 
insist that there are flaws in the methodology, NOAA uses its 
research vessel in ways that do not fairly reflect how fish are 
caught and where they are caught, and therefore do not come 
back with accurate data.
    So, there are new techniques on real fishing vessels for 
scientists to get on board, government scientists and third-
party scientists alike, to do clear stock assessments that 
mimic the way that fishermen fish. I think that is something to 
be encouraged, and I think the bill does that.
    And then, as far as oversight goes, I think there are 
opportunities for committees to be formed that effectively act 
as another layer of peer review that, again, hopefully will 
lead to a more robust data set that can inform ACLs.
    Mr. Young. Before I pass to Mr. Sablan, I would ask each 
one of you to look at H.R. 200, because that is one prerogative 
I have, and give me specific language you think is important to 
make the bill work better. I think that is the responsibility 
on your part.
    I want specific language, and we will study that, because 
you are the interest groups, and I really, very frankly--and I 
think Mr. Oliver will testify to the fact--that I do a lot of 
on-ground listening to the fishermen themselves, recreational, 
charter, and commercial. Most of the suggestions of H.R. 200 
came from those people. But you all represent a different 
group, and I think it is important that we have suggestions 
that will work.
    With that, Mr. Sablan, you are up.
    Mr. Sablan. Thank you very much, Mr. Chairman, and thank 
you, everyone. First, I would like to associate myself with the 
opening comments made by Mr. Huffman of our government 
providing all necessary assistance to the people of Puerto Rico 
and the U.S. Virgin Islands at this time of great tragedy. We 
experienced typhoons ourselves, huge, when the whole island was 
devastated. So, keep them in our prayers, and I hope my 
colleagues would assist the people of Puerto Rico.
    Mr. Oliver, I have long been concerned with inappropriate 
activities of WestPac. In 2014, I engaged in a series of 
letters with your predecessors about improper lobbying 
activities in an effort to remove the green sea turtle from the 
endangered species list. More recently, WestPac has been 
organizing and leading a national campaign to abolish marine 
monuments that had led to additional cause for reform.
    Section 203 of the discussion draft introduced by Mr. 
Huffman includes a section on Council reform, with provisions 
to require recorded non-procedural votes, increase access to 
Council meetings, and increase transparency from Council 
members, including conflicts of interest and interactions with 
Members of Congress. Do you think that this additional 
oversight is needed to improve the Council process?
    Mr. Oliver. I don't, sir. I don't understand exactly what 
the concern is you are getting at. I do know that there are 
current conflict-of-interest standards that Council members and 
staff are required to adhere to and to have file on record, and 
I understand there are restrictions against lobbying. I 
understand there are already in place recusal standards based 
on the conflict-of-interest information.
    So, I don't know to what extent additional measures are 
necessary. The Councils are a very transparent process in their 
current status.
    Mr. Sablan. No, really? I am talking about WestPac in 
particular. It is 4,000 miles away from my district. And it is 
very difficult to find out what they are doing, because they do 
not even put transcripts of their meeting on the webpage, as 
required by law.
    Could you take a look into that, so that you don't tell me 
that you don't know what I am asking about?
    Mr. Oliver. I certainly can. I do know that there are 
requirements for broadcasts of the meeting and transcriptions.
    Mr. Sablan. So, require WestPac to follow the law.
    Mr. Oliver. Yes, sir. I will look at that.
    Mr. Sablan. Yes, because I have been trying for 8 years, 9 
years, going on 10, to get them to do that.
    Mr. Oliver. OK.
    Mr. Sablan. Now, again, Mr. Oliver, on the Presidential 
Proclamation 8335, the management plan for the Marianas Trench 
National Monument was due on January 6, 2011. That was almost 7 
years ago. There is still no management plan. Can you update me 
on when the proposed management plan will be issued?
    Mr. Oliver. Sir, that is something I am not familiar with. 
You said the date was 2011 that that was due?
    Mr. Sablan. Yes, sir, it is required. That was the date the 
report, the management plan was due on January 6, 2011.
    Mr. Oliver. Yes, sir. My understanding was that--maybe we 
are talking about a different area--but that Marianas Trench 
area is now under a monument closure designation. And, if so--
--
    Mr. Sablan. No, sir. It is not.
    Mr. Oliver. It is not? OK, I am sorry.
    Mr. Sablan. How long have you been on this job, Mr. Oliver?
    Mr. Oliver. Almost 3 months, sir.
    Mr. Sablan. OK, sir. I appreciate that you have been on the 
job such a short time, but I ask you questions. Would I please 
get answers to those questions?
    Mr. Oliver. Absolutely, sir. I will look into it.
    Mr. Sablan. I appreciate that. Thank you.
    Mr. Oliver. I am sorry I don't have the answer on the top 
of my head.
    Mr. Sablan. Thank you very much. I have a question, one 
more question for Mr. Oliver, but I will go to Ms. Boggs, 
because I don't have too much time.
    Ms. Boggs, I would like to ask you about the issue of 
accountability and recreational fisheries management. Is it 
true that commercial charter and party boats must report their 
catches of species like red snapper?
    Ms. Boggs. Currently, the commercial industry is required, 
as well as the headboats. There is a modification that we are 
waiting on for the Secretary of Commerce to sign that will 
require the charter vessels to do it, as well.
    Mr. Sablan. Is it also true that, because of these 
commercial charter and party boats, rarely, if ever, exceed 
their science-based annual catch of sought species?
    Ms. Boggs. The commercial sector, since they have 
implemented their individual fishing quota system, they have 
not overfished. And the headboats, charter-for-hire, since 
sector separation was implemented, they have stayed under their 
quota.
    Mr. Sablan. I am not the Chairman, so my time is up, thank 
you.
    Mr. Young. You are up from Florida, Mr. Webster.
    Mr. Webster. Thank you, Mr. Chair.
    Mr. Blankenship, you had noted in your testimony that a lot 
of the problems with the Federal recreational fisheries 
management was due to a lack of timeliness and accuracy of both 
stock assessments and harvest estimates. Do you believe that 
more management flexibility, as found in H.R. 2023, is needed?
    Mr. Blankenship. Yes, sir. Thank you for your question.
    Mr. Young. H.R. 200 has a lot of flexibility.
    Mr. Blankenship. The stock assessment process in the Gulf 
of Mexico is not what Mr. Oliver has described the way they do 
it in Alaska and some other places. So, the time between stock 
assessments and the ability through MRIP to account for the 
catch leads where we really do need flexibility, especially for 
the recreational fisheries in the Gulf of Mexico.
    Mr. Webster. Do you think that the flexibility found in 
this H.R. 2023 is adequate?
    Mr. Blankenship. I think that the flexibility in that bill 
would go a long way toward getting us where we need to be to 
have some flexibility for management, especially for the 
recreational fisheries.
    Mr. Webster. Mr. Merrifield, I had a question about, from 
the standpoint of a commercial fisherman, what do you think the 
best way to improve the data collection is, so we can really 
understand what is in the fishery?
    Mr. Merrifield. The best way, in my mind, to improve the 
data collection is to get more involved, get more programs of 
cooperative research. It is more cost effective if you are 
using constituents to actually go out and do the research. You 
get better data, you get more data, because it is more cost 
effective, and you get buy-in from the stakeholders that are 
actually taking part in the process.
    Mr. Webster. Do you think that should be a collaborative 
effort? Should it be a Federal effort? Or what do you think the 
best way to perform that is?
    Mr. Merrifield. Well, we have done some cooperative work 
with the state that has been very productive. It is just a 
matter of getting that into the Federal process. There has been 
some resistance in accepting that. But I think that if there 
is----
    Mr. Webster. From a lack of receiving the data, actually--
or acknowledging that the data is accurate, or--what would be 
the problem there?
    Mr. Merrifield. It would probably be that it is sticking to 
a very strict scientific method of not including outside data, 
so doing the stock assessment the way it has been done. And I 
think there needs to be some things that say we need to look at 
introduction of new sources of data because there is just not, 
especially in the South--NOAA cannot access or cannot get the 
data, given the means that they have. There are too many stock 
assessments, we are lucky to get four complete stock 
assessments a year, and we have over 80 species of commercially 
harvested fish.
    Mr. Webster. Is there a standard, an acknowledged standard, 
by which the data would be collected, or does there need to be 
a new standard, or there is no standard?
    Mr. Merrifield. No, I think that there was--I mean the 
Fisheries and Wildlife Research Institute in Florida, I think 
they had very good standards for collecting that data.
    Mr. Webster. Thank you very much. I yield back.
    Mr. Young. Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman. My district is home 
to the Port of Los Angeles and the community of San Pedro, 
which were once home to a healthy commercial fishing and 
canning industry. In fact, my grandmother used to work at one 
of these canneries on the docks. At its height during the 
1950s, Los Angeles Harbor was home to 16 canning operations 
that accounted for 80 percent of all canned tuna produced in 
the United States at the time. They employed 5,000 people with 
payrolls of $15 million.
    Unfortunately, by the early 1970s, foreign fleets were 
consistently out-competing San Pedro fishermen, pushing our 
fishing and canning operations to the brink of collapse. The 
first large cannery to shut down did so in 1984, with others 
following suit not long after.
    As we all know, the original goal of the Magnuson-Stevens 
Act was to protect domestic waters from foreign fishing. 
Through its initial passage in 1976 and subsequent 
reauthorizations, we have been able to craft a fisheries 
management strategy that is flexible and based in sound 
science.
    The MSA is unique among natural resource laws, in that best 
practices are crafted by fishermen and other stakeholders to 
deal with specific regional challenges. While some of my 
colleagues may feel otherwise, management measures like 
biomass-based catch limits are indeed working.
    Under the MSA, overfishing is at an all-time low, and 41 
fish stocks have been rebuilt to healthy levels. However, work 
still remains. Nationwide, 30 commercially and recreationally 
important fish populations are still subject to overfishing, 
and 38 stocks remain overfished.
    In order to ensure that fish stocks remain plentiful enough 
for fisheries in Southern California and beyond, it is 
imperative that we reauthorize the MSA in a way that allows us 
to build upon the significant progress toward sustainability 
that we have made in the past 40 years.
    My first question is for you, Mr. Martens. Do you agree 
that precautionary management of forage fish is important to 
the health of fisheries? And do you think the Magnuson-Stevens 
Act should be updated to reflect that?
    Mr. Martens. Thank you for the question. Forage space is 
extremely important to rebuilding any fish stocks. It is a 
foundation of the ecosystem. And in Maine we actually had a 
very robust canning fishery for a long time for sardines and 
herring that has since disappeared, in part because of the lack 
of forage that we have seen take place over a period of time.
    So, we are struggling to rebuild groundfish stocks in New 
England right now. And part of the reason that many fishermen 
think that is is because there is not enough forage base out 
there to make sure that we are adequately allowing them to go 
out and grow and eat enough.
    When we are looking at Magnuson, we want to make sure that 
forage continues to be an important piece of it. If we can 
highlight the importance of that even further, I think that we 
should. Without stuff to eat, those fish are not going to grow, 
they are not going to get bigger, and we are not going to be 
able to go out and catch them.
    Ms. Barragan. All right, thank you.
    Mr. Oliver, NOAA Fisheries recently issued a final rule 
developed by the Mid-Atlantic Council to limit fishing on about 
50 species of previously unmanaged forage fish. The Council 
Coordinating Committee has also adopted a policy position 
representative of this action. Fishing should be prohibited on 
unmanaged forage fish until baseline science regarding the role 
in the ecosystem and the potential impacts of fishing them are 
better understood.
    Do you think this should serve as a model for managers 
across the country?
    Mr. Oliver. Thank you for that question. As a former member 
of the Council Coordination Committee and a long-time Executive 
Director of the North Pacific, we in the North Pacific many 
years ago, at least 15 years ago, as part of our overall--a 
very critical part of our ecosystem approach to management 
prohibited fishing on forage fish species as a prime component 
of that. I do agree with you that that is an important----
    Ms. Barragan. OK, I only have just a second left. Do you 
think your agency should be encouraging precautionary 
management of forage fish? Yes or no?
    Mr. Oliver. Yes.
    Ms. Barragan. Thank you. I yield back.
    Mr. Young. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I am going to go 
first to Mr. Macaluso.
    I wanted to get your perspective from your experience on an 
issue that we are dealing with in my region, specifically 
cobia. As you know, cobia recently has come under some 
additional attention by Federal fisheries managers as to how to 
manage the stocks. Right now, at worst, the data there is 
wildly inaccurate; at best, blatantly incomplete.
    In the face of that, there is still a forcing mechanism 
that says put in place these management mechanisms, many of 
them Draconian. In the region, too, there has been a lot of 
interest in fishermen, a lot of them calling me saying the 
observational data does not match the data that is lacking or 
inaccurate from the Federal fisheries managers. The fishing 
community, recreational fishing community, has worked very hard 
to gather data.
    But, as you know, if data does not come from that haloed 
group of regulators within a fishery's management community in 
the Federal Government, that is chastised. We don't want this. 
It cannot be accurate because it did not come from the divinity 
that exists within the Federal fisheries managers. So, with 
that, here we are. We are in this situation where we have a 
fishery that is on the precipice of closing.
    Give me your perspective. Do you think that the Federal 
management regime that we have right now, with lack of data and 
forced annual catch limits based on that lack of data, is the 
proper way for us to go about managing fisheries? And should we 
not look at changing that in upcoming fisheries legislation?
    Mr. Macaluso. Thank you for the question. I will say this--
I don't believe, and I don't think that it has been proven, 
that ACLs are an absolute necessary tool to conservatively 
manage a fishery. I think there are a number of fisheries that 
have been very successfully managed without the use of that, by 
looking at alternative approaches to doing stock assessments 
and gathering data, and that managing through ACLs only really 
works if the information that you are plugging into that 
management is accurate or timely.
    As Mr. Blankenship noted in his testimony, sometimes we 
have a lag time, even on a fishery like red snapper, that is 
very closely examined and paid attention to, and maybe even 
understood a little bit more than cobia. Cobia tend to be a 
little bit of a mystery. I mean it is hard to do a stock 
assessment on cobia, because they migrate. They move around. At 
certain times of year they are in one place, at certain times 
of year they are in another. But I think, even with red 
snapper, when you have such a lengthy lag time between stock 
assessments, and you are trying to set a season based on a 
hard-poundage quota on that, you can have some big gaps there, 
there could be some inaccuracies.
    So, ACLs, I think, are a useful tool, but only if the 
information that you are plugging into them is accurate.
    Mr. Wittman. Thank you. I know you talk about cobia being a 
little bit of a mystery. They are not a mystery to our Federal 
fishery scientists. They are convinced that cobia from the 
Middle Atlantic swim to the Georgia-Florida line, they do not 
swim any further. There is no mixing of the stocks there. So, 
it is great to me that there is a conclusion that there is no 
mixing there of those stocks. Fish have tails, but they only 
swim there to the border, and they go, oops, sorry, there is a 
stop light here, we have to swim back to the north.
    Anyway, I am going to go to Mr. Blankenship. Give me your 
perspective on where we need to go with giving a recreational 
fisheries perspective on how we look at Magnuson-Stevens. How 
do we modernize it to make sure that we are not only rebuilding 
stocks--and yes, you can point to certain situations where we 
have rebuilt stocks under Magnuson-Stevens. No debating that.
    But the question is, does it always serve the interest of 
the recreational fishermen that may be different in how we look 
at those stocks, and the needs for recreational fishermen, 
whether it is quantity of catch or quality of catch?
    Mr. Blankenship. Thank you for the question. I agree. The 
Magnuson-Stevens, like I said in my testimony, has been very 
effective at rebuilding fisheries that were in trouble. The 
problem comes in after those fisheries are rebuilt, and as they 
are rapidly rebuilding, the lag time between the stock 
assessment and setting the fishing seasons causes these 
extremely short recreational seasons, and are meeting that 
quota so much faster than is necessary.
    So, I think having some flexibility where we can use other 
methods like distance-based management, fisheries mortality 
estimates, escapement rates, or something like that, that we 
use in our state fisheries for recreational fisheries could be 
very effective, and would be a good addition to the great work 
that is already being done through the MSA.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Young. Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. And welcome, Mr. 
Oliver, and congratulations on your new responsibility.
    I was glad to hear the priorities that you talked about in 
terms of reform or rewrite of Magnuson-Stevens, having to do 
with catch limits, catch accountability, and an ecosystem-based 
management concept. I think those priorities have to be 
consistent in whatever we do, going forward.
    In your position--I have been very concerned about NOAA's 
lack of enforcement action against Carlos Rafael of New 
Bedford, Massachusetts. Mr. Rafael, who pled guilty to crimes 
after an IRS investigation, was sentenced to prison yesterday, 
but he still has not been charged by NOAA for a multitude of 
significant violations of the Magnuson-Stevens Act. Does NOAA 
plan to bring strong enforcement action against Mr. Rafael to 
ensure that he and his associates do not profit from these 
crimes?
    Mr. Oliver. Mr. Chairman, sir, I wish that I could, but I 
cannot comment on that case. It is the subject of an ongoing 
investigation.
    Mr. Grijalva. OK. I appreciate that. I will drop additional 
questions on that. I bring it up because I think that there is 
an opportunity here, depending on where the agency goes with 
this, to seize and redistribute to honest fishermen the assets 
of those permits that are currently in the possession of Mr. 
Rafael and his associates. I appreciate and I understand your 
response, sir.
    In June, when you got the job, we sent a letter asking 
questions about the action taken and the decision made to 
extend the Gulf of Mexico private recreational red snapper 
season to allow the overfishing of that stock. I still have not 
received a response, and did Secretary Ross and NOAA leadership 
decide to extend the season with or without the advice of NOAA 
scientists, or against the advice of NOAA scientists or the 
best available science?
    Can we get a response within 30 days, including the 
materials that were requested in that letter? Is that a 
possibility, as well? So, both those questions.
    Mr. Oliver. I am not immediately familiar with the status 
of the letter. I apologize for that. I will look into that and 
make sure that we get a response to you as soon as possible.
    When the Secretary put in place the 39-day season, I think 
that was--Mr. Blankenship alluded to this earlier--an attempt 
to get back to a unified management approach with the states. 
And that process----
    Mr. Grijalva. Yes, with all due respect, Mr. Oliver, I 
think the point is--the information that I think we seek on 
this side is, did the Secretary and NOAA leadership decide to 
extend that season against the advice of NOAA scientists and 
the best available science?
    Mr. Oliver. No, sir. I don't believe so.
    Mr. Grijalva. If we could get that information that we 
requested in our letter in June to share with the entire 
Committee, we would appreciate that very much.
    Mr. Oliver. I will absolutely follow up on that.
    Mr. Grijalva. Thank you. And following up on a colleague's 
questions regarding the Atlantic States Marine Fisheries 
Commission's finding that New Jersey was out of compliance with 
the fishery management plan for summer flounder--since that 
time we have repeatedly asked your staff for one piece of 
paper, NOAA's recommendation to Secretary Ross on whether or 
not to accept that finding.
    We have not received an answer, and the questions remain 
the same. Was this non-compliance recommendation provided 
through the Secretary? Did the NOAA Fisheries recommend that 
Secretary Ross find New Jersey to be out of compliance? And, 
again, we would urge within 30 days, if possible, to share with 
the entire Committee the answers to those questions.
    Mr. Oliver. Yes, sir. I will look into that. The Secretary 
made the decision. We provided some information to the 
Secretary upon which he based that decision, and we will get 
that information to you.
    Mr. Grijalva. I appreciate it very much, sir. Thank you.
    Mr. Young. We will hear from the Graves snapper now. Mr. 
Graves, you are up.
    Mr. Huffman. Make it snappy.
    Mr. Young. Make it snappy.
    [Laughter.]
    Mr. Graves. Thank you, Mr. Chairman. I appreciate all of 
you being here today.
    Mr. Blankenship, I would like to start with you. In some of 
the testimony today, folks have suggested that states are ill-
equipped or not capable of sustainably managing fisheries. 
Could you tell me a little bit about the fisheries that Alabama 
has managed in an unsustainable manner? Meaning which species 
have you allowed to be overfished in the state of Alabama?
    Mr. Blankenship. Thank you for your question, Mr. Graves. 
As far as I am aware of, under the time that I have been 
working with the state of Alabama for 23 years, we have not 
allowed any species of fish to be overfished in our state.
    Mr. Graves. Are you aware of any state-managed fisheries in 
the Gulf Coast where a state's management practices have 
allowed for overfishing?
    Mr. Blankenship. No, sir, not that I can think of.
    Mr. Graves. Thank you very much. I appreciate that.
    Mr. Oliver, thank you very much for being here. Suffice to 
say that the number of rec fishers in each of the coastal 
states of the United States is different, meaning we do not 
have 100,000 rec fishers in each coastal state, correct? You 
have a different number of recreational fishers in each state. 
In some cases the recreational fishing demand is much greater 
than in other states, is that fair to say?
    Mr. Oliver. Yes, sir.
    Mr. Graves. Is it also fair to say that the species that 
are targeted by rec fishers are different in different states 
and different regions? In many cases, for example, the salmon 
fishing in Louisiana is not that big?
    Mr. Oliver. I am pretty sure that is the case.
    Mr. Graves. And it is not because we overfished them. The 
point I am trying to get to is, isn't it appropriate to say 
that some flexibility in how fisheries are managed is 
appropriate because you have different demand on different 
species, from commercial, from recreational sides, as opposed 
to sort of a standard approach across the board in all 35 
coastal states and territories?
    Mr. Oliver. Yes, sir, I would agree to that.
    Mr. Graves. Do you believe along the lines of what Mr. 
Blankenship stated, that the states in many cases are fairly 
well equipped, and share the objective of NOAA to sustainably 
manage fisheries?
    Mr. Oliver. Yes, sir. I do believe that.
    Mr. Graves. Right now, I believe that Oregon, Washington, 
and California manage Dungeness crabs. I think that the state 
of Alaska manages salmon. On the East Coast, Atlantic striped 
bass are state-managed. Where have those states mismanaged the 
species?
    Mr. Oliver. I am not aware that they have mismanaged them.
    Mr. Graves. Thanks, I appreciate that.
    Ms. Boggs, SanRoc Cay, Louisiana Lagniappe is one of our 
favorite restaurants, and I know that Congressman Byrne has 
given us a list of other restaurants we need to hit over there. 
We enjoy going. In fact, I think we actually might have fished 
with you all once before.
    But in Louisiana, the charter industry--and I don't want to 
pretend to speak for all of them--largely is supportive of 
legislation that we have proffered in the past in regard to a 
change in snapper management. I understand that you may have 
concerns about some of the proposals that are out there.
    But going back to Mr. Blankenship's comments, it appears 
that the states actually have a pretty good history of 
sustainably managing species whenever I think back. And I am 
not going to allege that I have a perfect memory, but whenever 
I think back, the overfishing that I can think of is largely 
attributable to the Federal Government's management of 
fisheries, as opposed to the states. Can you help me understand 
your concerns a little bit better about giving states more of a 
role in fisheries management?
    Ms. Boggs. Thank you for the question. The red snapper 
species, Graves snapper----
    Mr. Graves. Is Louisiana Lagniappe your favorite 
restaurant?
    Ms. Boggs. Mine is Georgia Brown's here. But the snapper is 
a federally managed species, and I believe that the states 
going against the Federal seasons and opening their waters 
additional days has created an extended effort on catching of 
the species. So, therefore, that, in my opinion, is what is 
causing overages, because now you have a shortened Federal 
season, but you have extended days within Federal waters.
    Mr. Graves. OK, thank you.
    Mr. Macaluso, in regard to the comments that she just made, 
can you tell me which of the five Gulf states, their rec 
seasons as negotiated this year, has resulted in an overfishing 
beyond allocations?
    Mr. Macaluso. Well, we have not seen numbers from Florida.
    Mr. Graves. Right.
    Mr. Macaluso. But in the case of Louisiana and Alabama, as 
mentioned by Mr. Blankenship, no, it has not resulted.
    I think what we have seen is the development of pretty 
accurate accountability measures from the recreational side, 
and keeping track of that stock. And I think, in the case of 
Louisiana, you saw its commission voluntarily say that if the 
LA Creel system were to show that we were approaching that 
self-imposed limit, or about to exceed it during the course of 
that 39-day season, they would have shut the season off before 
we reached all 39 days.
    Mr. Graves. Thank you.
    And, Mr. Chairman, I know you are not paying attention to 
the clock right now, so if I can just very, very quickly ask, 
is better science collected by the states or by the Federal 
Government in regard to fishery stocks in Louisiana?
    Mr. Macaluso. I think both are working the best they can, 
but I think we trust the states. I mean, again, to emphasize a 
point that you have been making, I cannot think of a fishery in 
Louisiana that has been mismanaged on the recreational side, or 
really even the commercial side, by our state fisheries agency.
    And I can tell you this, that anglers--I find it 
surprising, the number of accusations that have been made. 
Because the very same anglers that are up there discussing with 
their state managers about limits on large mouth bass, redfish, 
and speckled trout, are the same ones who are fishing for red 
snapper. They are not advocating to have no limits or no 
seasons and things like that. They just want good management.
    Mr. Graves. Thank you.
    Mr. Young. Thank you.
    Mr. Gomez.
    Mr. Gomez. Thank you, Mr. Chairman. I think over the years 
we have seen Republicans and Democrats agree that conserving 
America's ocean fish makes good economic and environmental 
sense. And we have seen that through multiple reauthorizations 
of the Magnuson-Stevens Fishery Conservation and Management 
Act. And it honestly has represented the best tradition of 
bipartisan and collaborative policy making.
    As we consider legislation to sustain and improve our 
Federal fisheries policy, it is my hope that this Committee 
continues that tradition of bipartisan support for the MSA, and 
preserves its legacy of success by opposing any efforts to 
weaken the law.
    Mr. Oliver, it is well understood that the annual catch 
limit requirement was modeled after the North Pacific Council's 
practice of setting total allowable catch levels for its 
fisheries. Given your years of service at the North Pacific 
Council, I understand that very few stocks in the North Pacific 
are subject to overfishing, and that that is the norm there. 
And, presumably, because there is little overfishing, only four 
stocks have ever been listed as overfished in the North 
Pacific, most of which have been rebuilt successfully.
    Quick question. Could you talk to us about the North 
Pacific Council's track record of using catch limits for over 
30 years now, and discuss whether this is related to the low 
number of stocks that have fallen into an overfished status in 
the North Pacific?
    Mr. Oliver. Sure. Thank you for the question.
    Mr. Gomez. That was a quick question.
    Mr. Oliver. Yes. I think that the use of annual catch 
limits is absolutely a fundamental reason that we have no 
overfished fin fish stocks in the North Pacific. And I believe 
there are two crab stocks currently classified as overfished, 
one of which has not had a fishery on it for several decades, 
and for which fishing has no impact on its overfished status.
    The short answer to your question is I think the over-
arching annual catch limits that we have had in place for 40 
years is absolutely a key part of that reason.
    Mr. Gomez. Thank you so much. I yield back the rest of my 
time.
    Mr. Young. Mr. Hice.
    Dr. Hice. Thank you, Mr. Chairman. My home state of Georgia 
has a relatively small coast line, more or less 100 miles on 
the Atlantic seaboard. But that small distance certainly is 
made up for by the importance of the coast line's economic and 
social impact on our state.
    Recreational and commercial fishing makes up a sizable 
portion of that economic impact, generating about a half-
billion dollars a year and some 2 billion overall to Georgia's 
tourist economy.
    In addition to that, many Georgians obviously go to the 
Gulf for fishing--be it Florida, Alabama, or wherever--to enjoy 
recreational fishing. And I am proud, frankly, of the Georgia 
Department of Natural Resources and the job they have done 
managing the coastal fish species and making agency staff 
available when addressing public concerns and questions.
    But very honestly, I, along with many others here, have 
heard from numerous individuals the frustrations that they have 
dealing with Federal fishery management. Not only have anglers 
in the South Atlantic had to handle the frustrations and damage 
to businesses due to the 5-year moratorium on red snapper, but 
those thousands of Georgians who travel to the Gulf of Mexico 
to fish red snapper are faced every year with an almost year-
round closure to Federal waters and overly burdensome policies.
    I think it is important for us to recognize that 
flexibility should not be a code word for overfishing. It ought 
to be an understanding of the willingness of our Federal 
Government to compromise for the citizens of the United States 
and for what is in their best interest. I am a co-sponsor of 
the Modern Fish Act, and I hope that we will be able to show 
some of that flexibility.
    Mr. Blankenship, let me go to you to begin. Would you say 
that the Magnuson-Stevens Act has made it easier or more 
difficult for Regional Councils and NOAA fisheries to apply the 
principles of adaptive management?
    Mr. Blankenship. I would say it has made it more difficult 
to do something other than to have a total allowable catch and 
set a quota and a season, which is where we have gotten into 
this tailspin with these short recreational fishery seasons, 
particularly for red snapper, or this year with gray 
triggerfish, where we had no season at all.
    Dr. Hice. Would you in any way even challenge the term 
``adaptive management''?
    Mr. Blankenship. I would. I am not a big fan of the term 
``adaptive management.'' I like to look at it more in a level 
where we are looking at these fisheries and we are managing it 
relevant to that fishery.
    We do this in the state waters for all different species. 
We have so many different species that we manage very 
successfully for commercial harvest, recreational harvest, and 
charter harvest. We feel like, with some of those, that 
flexibility, exactly like you said, is not a code word for 
overfishing, that just gives different abilities to manage 
these fisheries.
    Dr. Hice. Well, the adaptive management is one thing. But 
what we really are dealing with is a one-size-fits-all type 
scenario, which is not very adaptive, in my opinion. How would 
you compare the one-size-fits-all approach, and how does it 
affect, say, the Southeast, compared to, say, the Western 
Pacific?
    Mr. Blankenship. If you use adaptive management in that 
sort of term, you are right, we need to have some adaptability 
to the different types of management. But what we have in the 
Gulf is--I have never been to Alaska, I would love the 
opportunity to go and see how they manage the fisheries there. 
But my understanding is that it is much more commercially-based 
fisheries and less recreation, where in the Gulf we have a very 
good split between commercial and recreational fisheries. And 
that makes for a little bit different paradigm for how these 
fisheries need to be managed.
    Dr. Hice. Do you feel that some of the modifications to the 
annual catch limit in the Modern Fish Act would increase 
predictability and allow commercial anglers to better set 
business plans and budgets, and at the same time recreational 
anglers to better plan fishing excursions?
    Mr. Blankenship. Yes, sir.
    Dr. Hice. OK. Thank you very much, Mr. Chairman. I yield 
back.
    Mr. Young. Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman.
    Ms. Boggs, under national standard two of the Magnuson Act, 
all conservation management measures for all fisheries should 
be based on the best scientific information available. NOAA's 
guidelines provide a robust process for Councils in the 
statistical and scientific communities to follow when 
determining what constitutes the best-available science, and 
this was based on recommendations from the National Academy of 
Sciences.
    Does the inclusion of data from states and from the fishery 
Councils and even from constituents, is this helpful? Is this 
useful? Or does this undermine a scientific approach?
    Ms. Boggs. Thank you for your question. I am not real 
familiar with the national--I believe it is, I am sorry, I just 
went blank--the organization that you refer to.
    Data collection is one of the most important key components 
to managing this fishery. MSA is working, the accountability 
measures are necessary to fish within the quotas that are set 
by this Council.
    I am not sure that I answered your question, and I 
apologize.
    Mr. Beyer. I guess the part I am trying to get to, the 
philosophical thing, is it sufficient or necessary to require 
on our Federal scientists alone through the NOAA processes, or 
is it helpful or hurtful to look at the state data, and 
specifically even the constituent data, the fishery data?
    Ms. Boggs. I think it is important that we look at both of 
them. I know that the states--Louisiana has done well with the 
LA Creel program. I know that the state of Alabama is currently 
trying to develop their Snapper Check program. I don't think it 
has yet been certified by the Federal Government. But I think 
the data that is collected by both can be useful in managing 
the species.
    Mr. Beyer. Great, thank you very much.
    Mr. Martens, climate change is always a tricky issue on 
this Committee. But, in general, we can say most people would 
agree that many bodies of water are getting warmer--the 
Chesapeake Bay, the Gulf of Maine. And you are seeing shifts in 
species and in stocks.
    What are the best ways to improve coordination across 
boundaries? And can we use the Magnuson-Moss reauthorization to 
essentially accelerate the accommodation for these shifting 
stocks?
    Mr. Martens. Thank you for your question. I think we have 
to, when you look at how rapidly things are changing. And 
fishermen are seeing it. They are the ones that are out on the 
water. They are experiencing this, especially in the Gulf of 
Maine, where we are seeing new stocks coming in to our waters 
that we never used to catch, ones like black sea bass that we 
used to catch off of New Bedford that we are now seeing in 
lobster traps up in Maine.
    We need a way to deal with these shifts, and the Council 
process, better communications, better coordination, making 
sure that that is a priority as we are looking forward in time, 
is really, really important to this reauthorization process.
    Mr. Beyer. Great, thank you. And do you have an opinion, 
too, on this use of constituent data, in terms of trying to 
decide how best to regulate various fishing stocks? I mean, you 
do not have red snapper, probably, in the Gulf of Maine, but 
you must have----
    Mr. Martens. We have other problems in the Gulf of Maine. 
But I do. In the New England groundfish fishery we do have an 
issue where fishermen are seeing very different things than 
what the stock assessment is showing us. That goes in both 
directions, though. We are seeing a lot more of species like 
cod, and a lot less of species like haddock and pollock, 
compared to what the stock assessment might say.
    So, in our organization and others throughout New England, 
we are actually putting cameras on our boats to try to get 
verified fishermen's information into the scientific process. 
We are working with scientists out of U Mass Dartmouth to try 
to figure out how do you take fish data that is coming directly 
from fishermen and is verified through this data collection 
system, so that we can have more streams of data going into the 
scientific process.
    We need to get the stock assessments correct, and we think 
with all these boats out on the water, the best way to do it is 
add more scientific research platforms out there.
    Mr. Beyer. And would this still constitute the best 
available science?
    Mr. Martens. I think it would. I think that there are 
different ways that you can incorporate data streams into the 
stock assessment process that we have to consider, considering 
our current constraints when it comes to resources in doing 
trawl surveys and other types of research.
    The trawl surveys are a crucial component of any stock 
assessment process, and we cannot throw those out, but we do 
need to add new ways to add data into our stock assessment 
process, and work with our Federal Government partners to make 
sure that they can accept and understand what that data looks 
like as it is coming to them.
    Mr. Beyer. Thank you very much.
    Mr. Chair, I yield back.
    Mr. Young. Thank you. One of the worst things that ever 
happened to these regulatory branches of our government is the 
best science available. Most of the time it is not the best, it 
is what is available. That is the thing that bugs the daylights 
out of me, and they use that as an excuse.
    Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman. I appreciate your 
convening this hearing, and I appreciate the seriousness with 
which the Committee is taking this very important topic. It is 
very important to my district. I guess I am the only one here 
that has not one, but two constituents on the panel. And I am 
very proud of that; you all did a great job.
    Mr. Oliver, you were very gracious to spend some time with 
me right soon after you were appointed and took your position, 
and I expressed to you at that time the concerns that I had 
about the data that was being developed by your office. And you 
were too new in the job to be able to respond to that, I didn't 
expect you would.
    You have heard from Mr. Blankenship and from others about 
the really good data we are getting on the actual catch in the 
Gulf of Mexico, and we do have good, reliable data there.
    The other half of that is what is the health of the stock. 
And that conversation you and I had was my concern that you are 
not sampling on reefs, where these fish live. I would like to 
extend an invitation to you to come down to my district.
    The University of South Alabama Marine Sciences Program 
that is led by long-time expert in this field, Dr. Bob Shipp, 
they would love to take you out and show you how they do it. 
These are Ph.D. scientists, they are not a bunch of 
recreational guys like me. And I think if you saw that, I think 
you would see that we can give you very, very high levels of 
science, much more accurate than what you have.
    Your office said that there were zero--no snapper--caught 
off the Mississippi Gulf Coast. I am here to tell you that is 
not true, because I know people who have caught red snapper off 
the Mississippi Gulf Coast. I am not picking on anybody, but 
when your data obviously is that skewed, I think it tells you 
that you need to look more closely at how you are doing it.
    You are still pretty new on the job, and I don't expect you 
to have your hands on everything, but we would like to show you 
how we are doing it. I think you would be very impressed with 
the level of science that we have. So, we will get somebody 
from my office to contact your office, give you some specific 
dates. I would love for you to come down and see what we are 
doing down there, because I think you will see this is the 
right way to do it, and we will get better data.
    If you want to respond to that----
    Mr. Oliver. I would appreciate that offer, and look forward 
to it.
    Mr. Byrne. Thank you.
    Ms. Boggs, you have a great business, it is a family 
business, and a great family, by the way. As we make policy 
here in Congress, we have to keep in mind the health of your 
business, because you are representative of a large number of 
businesses in the charter industry that is important across the 
fishery and the Gulf Coast. And I just wanted to partially make 
sure that I said that to you, because I don't want you to think 
that we are up here just talking about recreational sectors and 
not thinking about you, as well, because we are.
    Ms. Boggs. I appreciate that comment, thank you.
    Mr. Byrne. Mr. Blankenship, after the data you just gave us 
regarding the actual catch--and I think we also had similar 
data from Louisiana--it seems to me that we have quite a 
discrepancy, compared to estimates about how much we were going 
to be catching, actually, this season, given the elongated 
season.
    What did these estimates show about how we can balance a 
healthy fishery with an extended amount of days for private 
anglers to fish?
    Mr. Blankenship. Thank you, Congressman, and thank you for 
your continued interest on this issue.
    We thought that the issue with the extended season, that it 
would spread out the effort. So, if there wasn't a derby, where 
we had 3 days or 7 days that people feel like they just have to 
go, that people would spread out their trips, and that the 
catch would be less than it has been, much less than was 
estimated by NOAA Fisheries and some of the other groups with 
this extended season.
    And that is exactly what we saw. We saw that when people 
had more opportunity to fish, they picked days that were best 
for them and their families, with the weather, and then our 
catch is going to be somewhere in the neighborhood of 350,000 
pounds less than what would have been our 31 or 32 percent of 
the catch in the Gulf of Mexico.
    Mr. Byrne. I appreciate that.
    Mr. Chairman, I got to go fishing for snapper this summer 
for the first time in 3 years. The last time I went was with 
Susan and her husband. And let me tell you something. You go 
out there on the Gulf of Mexico right now, you put your hook in 
the water, you are going to catch a snapper. There is 
absolutely no question about it. We would love for you to come 
and to show you exactly what we are doing, because the truth of 
the matter is there are plenty of fish out there for everybody, 
for commercial, for charter, for recreational. We just have to 
get our science right.
    And I think the bills that are being considered by this 
Committee will get us there, and I appreciate the 
professionalism of everybody on the panel. I yield back.
    Mr. Young. I want to thank the panel for your kind 
attention and giving us this good testimony. And remember my 
request, because we are going to use the vehicle of H.R. 200. 
And I am going to be working with Mr. Huffman, and we are going 
to see if we cannot come to some conclusion, reauthorizing and 
making the bill better.
    But the basic skeleton of the Magnuson Act is going to 
retain its original concept. The father of this bill is sitting 
in the audience. I will not embarrass him right now, but he 
wrote the bill with me 40-some-odd years ago, and has been 
involved in the reauthorization. So, we are trying to keep the 
skeleton whole. If there are some improvements, we will gladly 
try to address those, and I will warn everybody this is not a 
vehicle to promote other activities outside of the 
conservation, sustainable yield, community support for 
fisheries. So, we will be working together.
    Mr. Graves, we now in the bill are going to put a section 
calling it the Graves snapper, so we can have some interesting 
times. I may do that. I named a transportation bill after my 
wife and they had a big fight about that, and I said I can do 
anything I want to do, and if I want to name it the Graves 
snapper, it will be the Graves snapper.
    With that, I do appreciate the members of the Committee, 
and especially the staff, for being here today. And we are 
going to try to get something moving by October or November of 
this year.
    With that, the Subcommittee is adjourned.

    [Whereupon, at 12:05 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

   Prepared Statement of the Hon. Garret Graves, a Representative in 
                  Congress from the State of Louisiana
    Today's hearing seeks to address Federal fisheries management 
issues that we have been discussing in this Committee for quite some 
time now. Commercial and recreational fishing are fundamentally 
different activities that warrant different management strategies, but 
for decades Federal policy has largely ignored the nuances of these two 
sectors and opting instead for the current, one-size-fits-all approach. 
The Magnuson-Stevens Act has largely focused on commercial fishing, 
while not addressing the needs of recreational anglers. H.R. 2023, the 
Modernizing Recreational Fisheries Act, seeks to create the flexibility 
necessary to effectively balance management of commercial and 
recreational fisheries.
    The Modern Fish Act will not only modernize to the Magnuson-Stevens 
Act, it will promote public access for America's 11 million saltwater 
recreational anglers, and improve fisheries data collection and spur 
economic growth in fishing communities around the country. The Modern 
Fish Act is a step in the right direction when it comes to managing our 
Nation's natural resources, and will maximize economic benefits for 
thousands of businesses and provide access to American fishers that 
rely on strong, healthy fisheries.
    Mr. Chairman, I have another bill that will be discussed in today's 
hearing. Last year I offered a bill that would place management of Gulf 
Red Snapper in the hands of the Gulf states; however, we were not able 
to get that bill over the finish line. This year, with the help of all 
stakeholder groups, we have decided to approach the issue in a 
different way that allows for some state-based management while also 
managing to a quota to ensure responsible fishery management.
    H.R. 3588, the RED SNAPPER Act seeks to address the issue of 
shorter and shorter seasons for recreational fishers in the Gulf by 
giving the states the ability to set season lengths in a new area that 
extends from the seaward boundary to 25 feet or 25 fathoms, whichever 
is furthest. Longer recreational red snapper fishing seasons can be 
achieved while meeting conservation goals through depth and distance 
based management because the majority of the red snapper stock found 
beyond 25 fathoms (>150 feet) will remain unfished.
    In addition to the conservation zone created by depth and distance 
based management, the RED SNAPPER Act addresses additional conservation 
concerns by including five conservation measures. Among those are, 
sector separation to ensure that the payback provisions in the 
Magnuson-Stevens Act only apply to the sector that goes over its quota; 
statutory language to ensure that the fishery management plan adheres 
to the national standards laid out in the Magnuson-Stevens Act; the 
nuclear option, which allows the Secretary to close the fishery if the 
Secretary feels that the fishery management plan is not properly 
followed; and finally including state data programs like LA Creel so 
that we are actually using the best available science.
    Mr. Chairman, I believe that the proposed changes to the Magnuson-
Stevens Act in both bills are not only reasonable but necessary if we 
are going to provide commercial and recreational fishermen with a 
management system that reflects their needs. In closing, I would like 
to say that I will continue to work with the Committee and all 
stakeholder groups to put forth a final product that reflects the needs 
of our recreational fishing community.

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submitted by Rep. Moulton from Massachusetts

    --  Letter to Dr. John Quinn, Chairman of the New England 
            Fishery Management Council, from Representative 
            Seth Moulton requesting feedback on H.R. 200. Dated 
            September 19, 2017.

    --  Letter from Dr. John Quinn, Chairman of the New England 
            Fishery Management Council, to Representative Seth 
            Moulton discussing H.R. 200. Dated September 29, 
            2017.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
